<html>
<title> - DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED AGENCIES APPROPRIATIONS FOR 2002</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                 DEPARTMENTS OF COMMERCE, JUSTICE, AND

                   STATE, THE JUDICIARY, AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2002

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS
                              FIRST SESSION
                                ________

  SUBCOMMITTEE ON THE DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE 
                    JUDICIARY, AND RELATED AGENCIES


                    FRANK R. WOLF, Virginia, Chairman

 HAROLD ROGERS, Kentucky             JOSE E. SERRANO, New York
 JIM KOLBE, Arizona                  ALAN B. MOLLOHAN, West Virginia
 CHARLES H. TAYLOR, North Carolina   LUCILLE ROYBAL-ALLARD, California
 RALPH REGULA, Ohio                  ROBERT E. ``BUD'' CRAMER, Jr.,
 TOM LATHAM, Iowa                     Alabama
 DAN MILLER, Florida                 PATRICK J. KENNEDY, Rhode Island
 DAVID VITTER, Louisiana            

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

   Gail Del Balzo, Mike Ringler, Christine Kojac, and Leslie Albright
                           Subcommittee Staff
                                ________

                                 PART 10

                                OXYCONTIN

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 77-734                     WASHINGTON : 2002


                         COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                   DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California              JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky              NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico                MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia              STENY H. HOYER, Maryland
 TOM DeLAY, Texas                     ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                   MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama              NANCY PELOSI, California
 JAMES T. WALSH, New York             PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina    NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio                JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma      ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                 JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan            JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                  ED PASTOR, Arizona
 JACK KINGSTON, Georgia               CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey  DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi         CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,           ROBERT E. ``BUD'' CRAMER, Jr.,
Washington                             Alabama
 RANDY ``DUKE'' CUNNINGHAM,           PATRICK J. KENNEDY, Rhode Island
California                            JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                  MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                 LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                     SAM FARR, California
 ANNE M. NORTHUP, Kentucky            JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama          CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri             ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire        CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                   STEVEN R. ROTHMAN, New Jersey
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
   
 VIRGIL H. GOODE, Jr., Virginia     
                                    
                 James W. Dyer, Clerk and Staff Director

                                  (ii)



DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2002

                              ----------                              

                                        Tuesday, December 11, 2001.

                               OxyContin

                        FEDERAL LAW ENFORCEMENT

                                WITNESS

ASA HUTCHINSON, ADMINISTRATOR, DRUG ENFORCEMENT AGENCY, U.S. DEPARTMENT 
    OF JUSTICE

                Hearing Opening Statement--Chairman Wolf

    Mr. Wolf. Good morning. The hearing will come to order. I 
first want to thank the members of the subcommittee for 
participating in this important hearing, particularly since the 
House won't be voting until late this evening. The hearing, as 
many know, was postponed from September 11th as a result of the 
September 11th terrorist attack. Our country is a different 
place as a result of those attacks, and many of our priorities 
have shifted as a result. Everyday stories have faded into the 
background and issues that were important on September 10th 
have dropped off many people's radar screens.
    While stories about OxyContin are not regularly appearing 
on the front page because of September 11th, people are still 
affected by this drug, both positively and negatively.
    On November 30th, the Richmond Times Dispatch reported that 
a doctor from southwest Virginia was sentenced to 6 years in 
prison for writing hundreds of unnecessary prescriptions for 
OxyContin and other drugs. Two days earlier, the paper reported 
the sentencing of two parents from Franklin County, Virginia 
for felony child neglect after their 16-month-old daughter 
overdosed on OxyContin pills she allegedly picked up off the 
floor of their home.
    Just yesterday, the New York Times did a piece on the high 
volume of prescriptions issued from a pain management clinic in 
Myrtle Beach, South Carolina that closed in June, after the DEA 
suspended the narcotic license of six doctors who worked there. 
The story said people, sometimes 15 to 20 deep, would be lined 
up outside the clinic, and the parking lot of the strip mall 
housing the facility would be jammed with cars, many from out 
of town, and from morning until night.
    This morning we will hear from people on the front lines of 
law enforcement as well as the medical community with regard to 
trying to halt the continued abuse of this drug. I am fully 
aware of what good this drug does, how it can be a saving grace 
for someone dying from cancer.
    Before I would begin, I would ask each of the witnesses to 
read their statement for the Record, and then we will open it 
up for questions. And if it is a very long statement, although 
I know individuals have traveled a long distance, perhaps you 
can summarize, because I think we have a full day, and the 
hearing will go on for a long period of time.
    This is a difficult subject for many, many people. First 
and foremost, I want to assure everyone that it is not the 
intent of--certainly of me or of the subcommittee--to take 
OxyContin away from legitimate users. I understand that 
OxyContin is a very powerful legal drug that has brought relief 
to many people suffering from cancer and chronic pain.
    Both my mom and dad died of cancer, and I can recall my 
mother in the hospital when she was dying, and the pain was so 
excruciating and she asking for more; and the nurse at that 
time said they could not give her more. But as a father of five 
children, my heart goes out to the parents who have had a child 
addicted to drugs. So you have a balance. You have a drug that 
has done some very good things, and you have a drug that has 
done some very bad, bad things.
    Sadly, parents today are more concerned than ever about 
drug abuse. Drug abuse often destroys--families, teenagers and 
young adults get hooked on drugs like OxyContin, and the damage 
left in the wake is often unrepairable. When taken properly, 
OxyContin is a wonder drug, but when it is ground up, the time 
release mechanism in the tablet is disabled, providing the 
abuser with a heroine-like high.


                   states where oxycontin is problem


    Communities, particularly rural communities in Virginia--
and now coming to the rural part of my congressional district, 
in Kentucky, West Virginia, Maine, Ohio and Pennsylvania are 
being devastated by the illegal use and abuse of OxyContin. The 
news stories I have read about what is happening in some of 
these communities is extremely troubling: a mother getting her 
teenage son hooked; pharmacies being robbed; big spikes in 
crimes; entire neighborhoods and communities being overtaken 
either by users or drug dealers; murder; suicide. A pharmacy in 
my district was robbed earlier this year.
    I also understand that the abuse is now becoming a problem 
in urban areas like Boston. In August, a Boston area nursing 
home was robbed at gunpoint for OxyContin, a nursing home at 
gunpoint. That is an indication of how powerful this drug must 
be to somebody who is addicted and wants it.
    Boston reports there have been dozens of other OxyContin-
related robberies this year. There is a problem. Some law 
enforcement officials I have talked to said the illegal use of 
this drug could be the next crack cocaine. The New York Times 
story yesterday said, no other drug in the last 20 years has 
been abused more widely, so soon after its introduction, than 
OxyContin.
    On the other side of the coin is the issue of pain 
management. According to the Purdue Pharma Web site, the 
American Pain Foundation estimates that some 15 million people 
live with chronic pain. OxyContin and other important pain-
killing medications have brought relief to many Americans 
suffering from pain. More doctors have taken the issue of pain 
management more seriously, and they are paying more attention 
to addressing pain felt by their patients. Again, it is not the 
intent of the subcommittee to deny anyone with a legitimate, 
and I stress the word ``legitimate'' need, access to this or 
any other medication. We are simply trying to figure out a way 
to maintain legitimate use of the drug while stopping illegal 
diversion, which is obviously a reality.
    It is a fact. It is not a myth. It is not a story. It is 
not an anecdote. It is a fact.
    How we go about doing this and what I hope we can begin to 
focus on today, working on a quick, meaningful, and successful 
solution. One solution might be to require that all States 
institute prescription monitoring programs. I understand that 
18 States have prescription monitoring programs now. We will be 
interested in hearing more from the panelists about the benefit 
of those, and perhaps even a nationwide system.


                        resources for oxycontin


    I am pleased to report that the fiscal year 2002 
Appropriations Act for the Department of Commerce, Justice, 
State, and the Judiciary includes $2 million for the Department 
of Justice to fund grants to help States that don't have 
prescription drug monitoring programs established.
    We are also looking forward to hearing from the State and 
local law enforcement representatives about the day-to-day 
experiences with OxyContin and its devastating effect on their 
communities. Through that same vein, we will be hearing from a 
father of a recovering OxyContin addict. We are also looking 
forward to hearing from Dr. Sullivan who has experience in 
treating drug addicts.
    I also want to thank the representatives of Purdue Pharma 
for appearing today. You have developed a drug that has brought 
relief to many. Regrettably, it has also brought with it many 
problems in essence, of hurting communities and destroying some 
families. We look forward to your testimony.
    Finally, we will hear from pain management experts and 
other medical professionals about the importance of OxyContin 
in their efforts to treat patients suffering from severe pain, 
and assure that people who need access to these powerful 
medications can retain that access.
    We will also be hearing representatives from the American 
Cancer Society, the American Academy of Pain Medicine, and the 
Johns Hopkins University.

                 Opening Statement--Congressman Serrano

    Mr. Wolf. Before we hear from our first witness, the head 
of DEA, our former colleague, Mr. Hutchinson, we will first 
have opening statements from Mr. Serrano and then Mr. Rogers.
    Mr. Serrano. Thank you, Mr. Chairman. I will be very brief. 
Let me first thank you for putting together this hearing. I 
know how important this issue is to you, indeed it is important 
to all of us.
    As you know, Mr. Chairman, and my colleagues, I represent a 
district in the South Bronx, and so the issue of drug abuse is 
one that I am very familiar with in terms of the pain that it 
has caused all my constituents.
    For a long time, my district was one of the districts with 
the most crime in the Nation, and yet that crime was very much 
related, mostly related to the issue of drug abuse. And so 
today I sit here with you, wanting to be helpful in every way I 
can to deal with this issue, which is not one yet seen in the 
inner city, but one that I am sure will be seen in a short 
time.
    However, I could not pass up the opportunity to deal with 
what I think is the greater issue at hand, and that is that our 
great Nation has, in my opinion, in the past not paid attention 
to the issue of drug abuse the way it should, perhaps because 
at times drug abuse was seen as an inner-city problem. We spent 
too much time blaming those people for their condition and just 
tied it to other problems that existed in the society rather 
than deal with it for what it was, a serious problem.
    And so if you look at our budgets, one could argue that we 
haven't spent enough money on prevention in this area and 
certainly have not spent enough money and resources on 
treatment centers.
    I have known too many people, just too many people, who 
have wasted their lives away and their youth away, people I 
grew up with, with different kinds of drugs, the last one being 
crack cocaine. And so I join you today in this, with the 
knowledge that I, perhaps more than a lot of other members, can 
see what is coming on the horizon if we don't do something 
about this.
    But let us just not concentrate on this, let us concentrate 
on the fact that we still have a lot of unmet needs in this 
country and that we have a lot of drug addicts throughout this 
Nation and drug abusers who have been totally forgotten because 
they are part of the inner city. And the inner city somehow was 
supposed to have caused these problems by itself and not 
through any other way.
    And with that, again, I repeat to you my support for this 
issue. It is a national crisis. It doesn't belong to one area. 
It belongs to the whole country. Especially since September 
11th, we have learned that we in this country can, in fact, 
work together.
    And let me just close by saying that I am so glad to see 
our former colleague with us. He is doing the kind of job that 
we need him to do, and this member certainly continues to 
pledge my support to your efforts. Thank you, Mr. Chairman.

                 Opening Statement--Congressman Rogers

    Mr. Wolf. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman. More importantly, 
thank you for holding this hearing at a very opportune time, as 
our former colleague in this body has assumed these heavy 
responsibilities to head the DEA.
    You have inherited in OxyContin in my area, the worst 
scourge that we have had in the drug wars. There is an absolute 
epidemic of OxyContin misuse in eastern Kentucky. This 
substance is running rampant through the small rural 
communities of Appalachia, wreaking havoc on the adolescent 
population. In my 20 years of service in this spot, and 11 
years before that as a D.A. in Kentucky, I have never seen the 
devastating effect from one substance on people, particularly 
young people.
    A review of autopsy data has found that OxyContin played a 
major role in 296 overdose deaths throughout the Nation over 
the last 19 months. There were actually 803 cases of Oxycodone 
related deaths, the active ingredient of OxyContin. Not all of 
them can be attributed solely to OxyContin, as there is no 
sound toxicological test to distinguish between the two. But 
between January of 2000 and May of 2001, there were 69 deaths 
in Kentucky, in which medical examiners found Oxycodone in the 
bodies, 36 of which reported toxic levels. Many of these deaths 
are suspected of being solely the result of OxyContin abuse.
    OxyContin has been linked to more than 100 overdose deaths 
in southern New Jersey and Philadelphia in the last 2 years. In 
the first half of the year, 54 people died in Palm Beach 
County, Florida, in cases involving overdoses of Oxycodone. In 
Virginia, 49 individuals died between January 2000 and June 
2001, a direct result of Oxycodone intoxication. Appalachian 
Regional Hospital in Hazard, in the Appalachian area of 
Kentucky, in my district, reported treating at least 10 
OxyContin overdoses a week last year.
    OxyContin topped $1 billion in sales in 2000. It has the 
highest retail sales of all brand name prescription drugs. 
Between 1996 and the year 2000, Oxy prescriptions jumped 2,000 
percent, compared to just 23 percent for all other common 
opioid analgesics. In Kentucky, there were 9.4 million Oxy 
pills dispensed to residents from Kentucky pharmacies in 2000. 
That is almost double from the previous year, and does not 
include the pills residents got from pharmacies outside of the 
State.
    You will hear this morning from former Hazard Police Chief 
Rod Maggard, who estimates that between 65 and 85 percent of 
high school students in Hazard have tried this substance at 
least once. Drug treatment programs in Kentucky, West Virginia, 
Virginia, and Pennsylvania report that 50 to 90 percent of 
newly admitted patients identified OxyContin as their primary 
drug of use.
    And then there are the associated problems with overuse or 
abuse of OxyContin. Just yesterday, nine armed men overpowered 
guards at a distribution point in Mexico City and stole 31,000 
bottles of OxyContin. That is 936,000 pills. Street value, $20 
million. A 4-month joint sting operation in Hazard, led by 
local, State and FBI, resulted in the arrest and indictment of 
over 200 alleged dealers last February. Several other minor 
busts in the State have accumulated over the year, including 
the arrest of a local police dispatcher in the town of 
Beattyville.
    Increased use of OxyContin has led to a general rise in 
lawlessness in eastern Kentucky and around the eastern seaboard 
itself. Pharmacy robberies and health care fraud incidents are 
dramatically up. In the Appalachian region, Kentucky had the 
highest number of pharmacy robberies or burglaries for 
OxyContin. 6.9 percent of all pharmacies reported OxyContin-
related crimes between January 2000 and June 2001. As of July 
of this year, 37 pharmacies had been robbed in Massachusetts. 
In Harlan County, Kentucky, in my district, authorities there 
are blaming OxyContin for bringing the big-city problem of 
prostitution to that city. They recently broke up a 
prostitution ring in the county where women were selling their 
bodies to feed their addictions to this drug.
    This is a very special problem. This wonder drug, if you 
will, invented for the purpose of relieving pain for severely 
ill people has had wonderful results. One pill for a long 
period of time. However, that feature of this drug, the 12-hour 
relief built into this pill, allows it to be misused by being 
crushed and used all at once.
    Mr. Chairman, this is a special problem for my part of the 
country. I appreciate the fact that the Chairman has responded 
to the interest of a number of us and has become himself 
motivated and has seen fit to hold this hearing and focus the 
attention of the country on this growing abuse problem. I thank 
you.
    Mr. Wolf. I thank you, Mr. Rogers.

                Opening Statement--Congressman Mollohan

    Mr. Wolf. Mr. Mollohan?
    Mr. Mollohan. Mr. Chairman, I want to compliment you for 
holding this hearing. This is part of a devastating problem in 
our country. It is, as Mr. Rogers described, in our area of the 
country, particularly exasperating and growing fast, as is 
evidenced by the fact that two of the members of the panels 
that you bring forward are from West Virginia.
    I look forward to the hearing, to the information that is 
presented in it, and I again compliment you for holding the 
hearing.
    Mr. Wolf. Thank you, Mr. Mollohan.

                 Opening Statement--Congressman Latham

    Mr. Wolf. Mr. Latham.
    Mr. Latham. Thank you, Mr. Chairman, and I just want to 
compliment you for having this hearing. I think it is an 
extremely timely topic, and one that is very, very important; 
and also to welcome our good friend and former colleague here, 
Mr. Hutchinson, to the committee. But as someone who serves on 
the Speaker's Drug Task Force and has seen methamphetamines 
come into our part of the country, and now seeing this scourge 
come in, again I compliment you for holding this hearing and 
thank you.
    Mr. Wolf. Thank you, Mr. Latham.

                 Opening Statement--Administrator, DEA

    Mr. Wolf. I would like to recognize now Mr. Hutchinson, the 
Administrator of DEA. Before I do, I just want to say I share 
the comments, the views of other members. So I appreciate very 
much the fact that you were willing to leave the House and go 
and take this job for public service. And so I want you to know 
that I personally appreciate it, and I know most members do on 
both sides of the aisle. So with that, thank you, and it is now 
your turn.
    Mr. Hutchinson. Thank you, Mr. Chairman, and members of the 
committee. I am very grateful to you for your leadership on 
this issue and for holding this hearing. I might point out that 
while I was still in the House, both Chairman Wolf and Mr. 
Rogers came to me and said, you have got to get a handle on 
this OxyContin problem as you go to the DEA.
    So, really, my first education in this whole arena came 
from the leadership of this committee, and I thank you for that 
and for following up by holding this very important hearing.
    Obviously, since I went over to the DEA, my education has 
moved in a very, very broad arena, much of it centering on the 
extraordinary problem that has resulted from OxyContin abuse.
    As you know, the DEA, Drug Enforcement Administration, has 
its authority under the Controlled Substances Act not just to 
go after those that deal in illegal drugs, but also those that 
divert legal substances; and we are mandated to prevent, 
detect, and investigate the diversion of those legally 
manufactured controlled substances, while making sure that 
there is still an adequate supply of those that have medicinal 
purposes for our society.
    There are five schedules under the Controlled Substances 
Act, and OxyContin falls in Schedule II, which includes those 
controlled substances that are approved for medical use and 
have the highest potential for abuse among the controlled 
substances.

                           diversion of drug

    The drug OxyContin is produced by Purdue Pharma. It is 
intended for use in the treatment of chronic, moderate-to-
severe pain when there is a continuous, potent, narcotic pain 
reliever that is needed for an extended period of time. The 
drug OxyContin has experienced extraordinary growth since it 
was introduced in 1995. The prescriptions have risen to 5.8 
million prescriptions in the year 2000. This means that 
OxyContin has become the number one prescribed Schedule II 
narcotic in the United States, and during that time, while the 
sales have increased astronomically during the last 2 years, 
DEA has noticed a dramatic increase in the illicit availability 
and abuse of OxyContin. It appears the appeal is clearly in the 
large amount of the active ingredient that is present as 
compared to other products.
    In addition to the oral abuse of the intact tablet, as Mr. 
Rogers pointed out, crushing the tablet enables the abuser to 
circumvent the controlled release mechanism and to swallow, to 
snort, or inject the drug for a more rapid and intense high.
    And there have been many examples of diversion. As the 
Chairman noted, a physician in southwestern Virginia recently 
was convicted of 430 counts of prescribing narcotics without 
legitimate medical purpose, and faces multiple life prison 
terms. That was investigated by the Drug Enforcement 
Administration. In North Carolina, there was an organized 
forgery ring in which computers were used to create 
prescriptions to divert thousands of dosage units of OxyContin 
to abusers.
    And now the abuse that started in the rural areas has 
spread to the urban areas. In the rural setting, I was down in 
Congressman Vitters' district in Louisiana very recently, and 
there we went to the rural area of Louisiana, in which I was 
told that the sheriff actually had an addiction problem in 
which he subsequently had to resign because of forging 
prescriptions for OxyContin. And so really you cannot escape 
the difficulty.
    Yesterday, Purdue Pharma, the general counsel for Purdue 
Pharma alerted me and I alerted the committee, when we were 
informed that Purdue's Mexican licensee, Azo Pharma in Mexico 
City, was robbed yesterday by nine masked armed men who 
overpowered the guards on duty and destroyed the vault. They 
took 31,200 bottles, each containing 30 tablets of OxyContin, 
the 20-milligram variety. They did not take the bottles of 10-
milligram OxyContin tablets that were also in the vault. And, 
again, we were notified of this through the cooperative efforts 
of Purdue Pharma, but it certainly points up the examples of 
diversion that seem to be growing at a very alarming rate.
    In addition to the straightforward diversion, as mentioned 
by the Mexico City--or the Mexico criminal activity, there is 
increased abuse through theft and through robberies. In 
Massachusetts, pharmacies have been targeted for robberies by 
individuals demanding OxyContin by name. Through the last 6 
months in the Boston area, they have experienced 36 robberies 
of pharmacies involving stocked OxyContin supplies. A nursing 
home in Massachusetts had its medical staff and patients held 
hostage by three robbers demanding OxyContin.
    And so clearly, the diversion, the criminal activity, has 
alerted law enforcement all across this Nation as to the 
potential for abuse of this drug, OxyContin.

          national action plan to stop diversion of oxycontin

    The DEA's response initiated a national action plan, which 
is a comprehensive enforcement effort and regulatory effort to 
stop the diversion and to address the criminal activity 
associated with the forged and fraudulent prescriptions, the 
pharmacy theft, the doctor shoppers, and the inappropriate 
medical professionals that abuse this drug.
    This plan includes a number of components. One, working 
with industry, including Purdue Pharma, in a cooperative effort 
to increase the education among the doctors, the broad variety 
of the medical community, as well as the public at large, to 
alert the law enforcement communities so that they will be on 
guard in this regard as well.
    In the regulatory arena, we have taken some very stringent 
measures to monitor the OxyContin that is produced and is 
available through the cooperative efforts of industry labeling 
changes that have been accomplished, and so some progress has 
been made.
    We have also encouraged a State prescription monitoring 
program. The majority of States that report significant abuse 
in diversion do not have prescription monitoring programs that 
are so instrumental in alerting law enforcement and the medical 
community to abuse of this drug. To illustrate this, the 
existing data reflects that the five States with the lowest 
number of per capita OxyContin prescriptions all have 
longstanding mandated prescription monitoring programs. So 
clearly this is an effective deterrent, and once the State 
adopts this, this is a strong tool that law enforcement and the 
medical community can use.
    The DEA has also taken steps to better evaluate the 
magnitude of the OxyContin abuse problem. We have requested 
more specific information from the 800 members of the National 
Association of Medical Examiners to provide us with information 
on any Oxycodone-positive deaths occurring within their 
jurisdiction. As of December 1, 2001, we have received findings 
and reports from 803 cases of Oxycodone-positive deaths from 31 
States. We have asked to more specifically clarify the nature 
of the Oxycodone-related deaths, and of these deaths, 117 were 
verified as having involved OxyContin specifically, with an 
additional 179 deaths deemed to be likely related to OxyContin.
    In addition, the treatment society certainly reflects the 
growing problem of OxyContin, with the American Methadone 
Treatment Association reporting an increase of patients 
admitted for OxyContin abuse. Programs in West Virginia, 
Pennsylvania, Kentucky and Virginia report that 50 to 90 
percent of newly admitted patients identified OxyContin as 
their primary drug of abuse.
    And so as with any Schedule II controlled substance, DEA 
recognizes that there is, as well as a potential for abuse, a 
legitimate medical use and benefit for OxyContin. And so we 
have agreed, with the Pain Management Society, with the medical 
profession, that there is a legitimate use and that we are not 
taking action to diminish the legitimate benefit of OxyContin 
to those patients that are in legitimate need of this medical 
treatment.
    At the same time, they took the extraordinary step of 
acknowledging DEA's important role in presenting the abuse, and 
we released a joint statement, consensus statement previously, 
and with the permission of the Chairman, I would like to have 
this submitted as part of my testimony.
    Mr. Wolf. Sure. Without objection.

                          growth of oxycontin

    Mr. Hutchinson. I know the question comes about, well, what 
happened that led to the extraordinary growth of OxyContin 
abuse and even their sales? Clearly, it is a pain treatment 
that has beneficial effects, and so that is a part of the 
component of its large increase in sales.
    But, in addition, a disproportionate abuse of OxyContin may 
be partially due to a very aggressive marketing and promotion 
campaign, particularly as it was presented as a less abusable 
substitute for a variety of less addictive medications. And 
because we have pushed, they have agreed to reduce some of 
their marketing campaigns. We have always opposed marketing 
directly to consumers, and that has not been a part of it, but 
the aggressive marketing to the pharmaceutical industry, as 
well as the medical community, I believe has contributed to the 
extraordinary and disproportionate abuse of this drug.
    To illustrate this point, one of the marketing tools was 
this very simple pen that was left with the doctors. And when 
this is opened--let us see if I can find the magic to this--
this opens up with a very handy conversion chart, and the 
conversion chart illustrates how easy it is to take a patient 
off of another pain relief medication and put them on 
OxyContin.
    And, for example, it starts out with Percocet, and it 
provides the conversion dose. And then it also goes down, 
though, even to Schedule III and even Schedule IV substances. 
It has Tylenol with codeine that is easily convertible to 
OxyContin, and it provides the conversion table.
    And so the message is that if you have a patient that only 
needs Tylenol or Darvocet, something of a less severity, you 
can simply convert it to OxyContin which is a Schedule II. And 
so that very effective marketing tool has led to, in our 
judgment, an overprescription in some instances of this 
particular drug.
    Finally, I want to conclude by saying that the DEA is 
trying to take a measured and reasonable approach to dealing 
with OxyContin and other drugs of abuse and is committed to 
making sure that there is an adequate supply of pain medication 
for those with legitimate needs, but also protecting the public 
from the consequences of abuse and trying to carry out our law 
enforcement responsibilities.
    So thank you again for the opportunity to address this 
subcommittee.
    Mr. Wolf. Thank you, Mr. Hutchinson.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          solutions for combatting the diversion of oxycontin

    Mr. Wolf. Has it come to the big cities? I notice you 
mention Boston. What about Philadelphia, New York, Washington, 
L.A., San Francisco? Is it moving to the big cities like that, 
or is Boston an exception?
    Mr. Hutchinson. I believe it is--Boston is somewhat of an 
exception. It is certainly moving to some big cities. For 
example, though, in California it has not become the level of 
problem as it has in other rural and urban areas. Again, the 
States--for example, California, has a very stringent 
prescription monitoring program which has been a discouragement 
for the abuse of OxyContin and other similar drugs of abusive 
potential. But we are very alert to it, and Philadelphia and 
Boston, are areas of concern to us.
    Mr. Wolf. When did DEA first become aware that OxyContin 
was being diverted? Do you know when?
    Mr. Hutchinson. We became alerted to this, of course, about 
2 years after it was put on the market. It was brought to our 
attention, and it has been, of course, growing on our radar 
screen in the last couple years.
    Mr. Wolf. When did you first approach the manufacturer that 
there could be a problem?
    Mr. Hutchinson. Shortly after we became aware of the 
problem, we approached the manufacturer and set up a series of 
meetings with them, addressing what they can do from an 
industry standpoint, and we have continued those meetings 
regularly since this problem was drawn to our attention.
    Mr. Wolf. Now, I had heard that the company had brought a 
number of doctors together to market the product--and that pen 
that you refer to. Do you know if the company--and I can ask 
the company this, too--have they gone back to all of those 
doctors that they marketed this to, to warn them of the 
potential dangers? Do you think if every doctor that has been 
talked to initially were urged to purchase and switch--have 
they gone back to them to tell them the potential dangers?
    Mr. Hutchinson. Yes, they have. It is my understanding that 
they have written to the medical community. They have engaged 
in a mass mailing campaign to make sure that the appropriate 
information is available to them on the abuse potential. And so 
in that regard, Purdue Pharma has been cooperative. We have 
continued to meet with them. Not all of our demands have been 
met, necessarily, but they have taken serious steps to engage 
in the education program. I know they have also been very 
supportive of the development of laws in the States to carry 
out the prescription monitoring program.
    Mr. Wolf. If they actually spoke to the doctor directly, 
either by a sales rep or if they had them at a conference, 
would it not be appropriate that they follow up the same way? 
You know how many letters you get through the mail, and people 
might not quite focus. It would seem to me that if you had a 
doctor in, or your sales rep came out to the doctor's office 
and made this pitch verbally or with a series of charts, there 
would almost be the same responsibility to come back and warn 
them the same way, so that there is an equivalency of the 
warning with regard to the initial contact. Do you have any 
thoughts about that?
    Mr. Hutchinson. Well, certainly it is very important, and 
the most important education would be the pharmacy rep, as they 
have their discussions with the doctor. It is the sales 
presentation that is the greatest concern, and that is the 
source of some of what we would argue would be misperceptions 
on the medical community's part as to its abuse potential at 
the outset. And so it is helpful when they send out a mass 
mailing, if the communication goes forward to the medical 
community in that fashion. But you still have the problem of 
the pharmacy reps that are going out, calling on the doctors, 
that presumably are on an incentive basis or a commission basis 
whenever they make the sales. They have an incentive to make 
sales, and so you never know whether the same level of 
communication is being carried on in the one-to-one basis 
between the rep and the doctor versus what is communicated in 
the mass mailing.
    And so obviously there could be a potential for a 
disconnect there, but certainly we applaud their efforts on the 
mass communication. That is certainly helpful.
    Mr. Wolf. Well, if you recall in your latter job in 
politics, the personal contact, the door-to-door asking a 
constituent for the support had a greater impact than a 
brochure that was just mailed to the door, that may or may not 
be read; depending on did it hit on Friday, did it hit when 
they were on vacation, did it hit whenever.
    And it would seem to me--and I know the company wants to 
deal with this issue--I would think it would be a 
responsibility for the company to go back and make the same 
kind of contact that they made initially, because if a person 
were to come by and sit down and explain, that may trigger the 
doctor to be much more sensitive as to how it should be 
prescribed, rather than a flier or a brochure or a good package 
comes through. I know if most of us look at our mail, you know, 
sometimes Mondays or Tuesdays or Wednesdays, there is so much 
of it. Sometimes it may never be opened, or if it is opened, it 
is put aside so that you have that opportunity to look at it 
when you have time; and generally, sometimes, that never 
happens.
    So it would seem to me that there would be a good 
responsibility and obligation for the company to make the same. 
If they brought the doctor to an event, then bring the doctor 
back to an event to make the case. If they went personally to 
the doctor's office, go back personally to the doctor's office.

                 potential for diversion of other drugs

    One last question before I recognize Mr. Serrano. We 
understand--the committee has been told that other time-release 
medications are being developed. Are we just seeing the 
beginning of a really big problem? That is one concern. If this 
is the first wave out of the box, if you will, I think what the 
company does and what the industry does and what the Congress 
does and what DEA does will really make a difference.
    You may be setting a tremendous precedent and, again--I 
stress ``again''--I feel this burden, this obligation to do it. 
And I can't speak for the whole committee, but I can speak for 
myself, I certainly do not want to take away the legitimate use 
of a drug, as I made the comment. My mom was in Lankenau 
Hospital up in Philadelphia, and I can still remember, and it 
just seemed to me that when it was clear that the hospital 
should have, you know--and yet they couldn't because of the 
law.
    So if this is the first of a wave, shouldn't we be 
particularly careful as we do everything, to make sure that we 
are not setting bad precedent?
    Mr. Hutchinson. Oh, absolutely, Mr. Chairman. And you are 
certainly correct that we have to approach this in the right 
way, and clearly you pointed out the obligations of industry, 
and I will let Purdue Pharma address those questions in their 
testimony. But we have not simply relied upon what they are 
doing. The DEA has engaged in a strong education campaign. I 
think through our media comments, as well as our one-to-one 
comments with the medical community, working with the Pain 
Management Society, I believe that the information on the abuse 
potential is out to the medical community. And so I think that 
we have had a great deal of positive impact in that regard.
    Your concern is absolutely correct that I do not believe we 
have reached the peak of this problem yet. I believe we are 
still on the incline as to the growth of this problem, and I 
think that what we saw yesterday with the theft of the 
extraordinary amount of OxyContin in Mexico and the concern 
that we are going to be seeing those pills here in the United 
States, without any doubt, and at our request Purdue Pharma has 
labeled these drugs as to the source and the place of 
distribution. And so those that have been stolen in Mexico will 
have a specific label that we will be able to trace and detect, 
and so we will be able to follow that.
    But I believe because of the diversion potential, what we 
are now seeing is just straight-out criminal activity, it is 
still in the upswing. I think that we will be able to get a 
handle on this, but we have not got there yet.
    Mr. Wolf. Mr. Serrano.

      further steps industry should take to combat drug diversion

    Mr. Serrano. Thank you, Mr. Chairman. First of all, thank 
you for your testimony, which was very informative. You said 
that in dealing with the manufacturers, not all of your demands 
have been met. What in particular has not been met that you 
would want to see?
    Mr. Hutchinson. I want to be careful to make sure I provide 
you the information, and I have tried not to dwell upon the 
negative. They have been responsive, but there is--I am talking 
to Laura Nagel here, who has done an outstanding job with us.
    We simply asked them to continue with greater education 
with the medical community, and, you know, to be more 
conservative in their marketing approach. And they have been 
somewhat responsive here, but always there are the extra steps 
we would like to see taken, as the Chairman pointed out; but we 
simply can push from our standpoint, and they have been 
responsive, but we would like for them to continue their 
educational message to the physicians they work with.
    Mr. Serrano. And you have asked them just to be careful, 
conservative, as you said. This is one time I think I enjoy the 
word ``conservative''. Conservative in their marketing 
approach. I know you are being careful not to be negative and I 
appreciate that, because you need to continue this relationship 
if we are going to dent this at all. But would it be fair on my 
part to say that, in typical fashion, manufacturers usually 
feel that the abuse is coming from elsewhere and not from them, 
and so they don't feel responsible for some of their marketing 
techniques?
    Mr. Hutchinson. Well--and, of course, they have an 
obligation to their patients and they want to provide good pain 
medication and appropriate pain medication and make it 
available, and so that is the positive thing. Obviously that 
they look at. And when I talk about our relationships with 
industry, anytime there is an abuse problem that arises, there 
is, I believe, a reluctance by industry to take a greater 
responsibility and to address the problem. And so, you know, 
initially there was some resistance. I believe we have overcome 
that resistance, and part of it is because of congressional 
leadership. Part of it is because the of media attention to 
this.
    They have taken some extraordinary steps, but initially 
there was certainly some resistance on their part, but I 
believe that now, particularly with their emphasis on the 
prescription monitoring legislation that can be handled in the 
States, with their education campaigns, that we are really 
moving forward in the correct direction.
    And DEA and FDA work together on these issues. The Food and 
Drug Administration plays an extraordinary role in determining 
what is the appropriate message that has to be delivered on the 
controlled substances to the doctors, and what is the proper 
restrictions on the industry-to-doctor marketing programs. And 
so we have worked with them to accomplish that, and the 
industry has as well.

               public perception of abuse of legal drugs

    Mr. Serrano. Let me ask you a question. I hope I am right 
on this. When most Americans think of drug abuse, they usually 
think of illegal drugs, and cartels preparing these drugs for 
sale to invade our communities. But in this case, you have a 
legal drug, a legal substance, which is very good for what it 
is intended to do. Do you in your job find it much more 
difficult to convince the American public that this is a 
problem because it is a legal drug?
    Mr. Hutchinson. Yes. You know, I believe that the American 
public understands there is a problem with prescription drugs. 
But there are a couple difficulties here. One, young people 
have a sense that because it comes in pill form, because it is 
something that belongs in a medicine cabinet or comes from a 
doctor originally, that they are somehow--this is safer than 
going out and buying cocaine on the street, and it doesn't have 
the same type of abuse potential. And so there is that 
difficulty, educating the American public about the dangers of 
prescription drugs.
    And then, secondly, most people do not understand that the 
DEA has a role in this and that we actually have an enforcement 
operation that addresses the abuse potential of prescription 
drugs as well. And so there is that education gap there that we 
are trying to overcome.

           profession that contributes most to drug diversion

    Mr. Serrano. Okay. One last question, Mr. Chairman. In your 
statement you list how basically this drug gets misused. And it 
says, including fraudulent prescriptions, pharmacy theft, 
doctor shoppers, and unscrupulous medical professionals. If you 
had to break them into percentages, which one is which?
    Mr. Hutchinson. I am not sure you could quantify those 
quite that easily. They are all a serious problem, but 
initially it wasn't simply an unscrupulous doctor. It might 
have been a doctor that didn't receive the proper information 
or education or have a proper understanding of abuse potential, 
and maybe was prescribing it to a patient in which it was not 
required.
    And I believe we have overcome that education problem, and 
so now it is primarily looking at pharmacy theft. I think there 
is probably the greatest problem of prescription forgeries. And 
then you always have the problem of a doctor who, in violation 
of his commitment to the profession and to the law, allows 
scrips to be written, writes the scrips without there being a 
legitimate medical reason, and really is engaging in the 
diversion of that. So we have to address all of these.
    But I think right now one of the greatest concerns is not 
simply the diversion of it, but it is the criminal activity 
that engages in the theft of it, and then the marketing of it 
on the street.
    Mr. Serrano. All right. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Rogers.

                      Resources Used on OxyContin

    Mr. Rogers. Thank you, Mr. Chairman. And thank you, Mr. 
Director, for being with us today.
    Let me focus on your national action plan that you 
mentioned in your opening remarks, focusing on diversion and 
doctor fraud. You have been provided over $86 million this 
fiscal year in the diversion control account. How much of that 
will be spent on OxyContin-related problems? Can you give us a 
handle on that?
    Mr. Hutchinson. We could probably break some of it down 
into agent hours, but what we have done is to move OxyContin as 
one of the top priorities of the diversion program, and not 
just the diversion program where we have the diversion 
investigators investigating pharmacies, doctors that might lead 
to the abuse of it, but also on the enforcement side the agents 
are investing their time. So for that expenditure of money, it 
is one of the top priorities; but in that budget of money, you 
are looking at looking at the precursor chemicals to 
methamphetamine. You are looking at all of the range of 
controlled substances, as well as on the OxyContin side, we 
would use our regulatory controls to be looking at the 
manufacturer to make sure they have the proper protections for 
their plants and to look at the diversion every step of the 
line. So it is hard to quantify exactly how those dollars flow 
through, one of the top priorities.
    Mr. Rogers. Give us an idea of how many investigators are 
assigned just to OxyContin problems.
    Mr. Hutchinson. Mr. Rogers, we do not assign agents by drug 
or investigators by drug, and so all I can tell you is that we 
have told them to put this at the top of the list for work. And 
we just do not do our work simply by drug, because whenever 
they review, for example, a doctor's records, they are looking 
at all of the prescription drugs, not just one. And whenever we 
are reviewing the work of a manufacturer, we are looking at all 
of the controlled substances that they would review. And so we 
really do not break it down in that category.
    Mr. Rogers. Well I am trying to get an idea of how far up 
the list of problems that you have to deal with--and there are 
many--this one is.
    Mr. Hutchinson. This would be a better way to express it 
from our standpoint. In 1999 we had a half a dozen OxyContin 
cases; in 2000 we had 37 cases; and in 2001, up to August, we 
had 168 cases. So over a year's time--really in 2001, we have 
over five times as many cases as in the entire year of 2000. 
And so you can see that it is dramatically eating up our 
investigative resources.
    Mr. Rogers. Regarding these diversion officers that have 
been described--can they initiate criminal investigations? Can 
they secure search warrants? Can they make arrests? Can they do 
a real criminal investigation?
    Mr. Hutchinson. They do the background work for it. They 
review the records for it. They initiate it. And then for the 
actual criminal activity, from the search warrants to the 
surveillance, we have the special agents that would be working 
with the diversion units to carry out the investigation. So 
they do have responsibility, but they use the agents to carry 
it out.
    Mr. Rogers. And how many special agents do we have assigned 
to this?
    Mr. Hutchinson. Each diversion unit will have in each 
State, in each division, will have special agents that will be 
assigned to the diversion program that will carry out the 
investigative responsibilities.

                         Resources In Kentucky

    Mr. Rogers. For example, in Kentucky, how many special 
agents would that be?
    Mr. Hutchinson. Let me check Kentucky here for a moment.
    Mr. Rogers, we will have to get that information to you. In 
regard to Kentucky, though, I can give you the number of agents 
that we have, as well as investigative personnel. In fact I 
have that in front of me. In Kentucky we have on board--these 
are diversions. We have 7 diversion investigators for the 
entire State of Kentucky. And then supplementing that, we would 
have the special agents that would work with them. But the 
diversion are ones that initiate the investigations. They have 
a huge responsibility to all the doctors and all the pharmacies 
in the entire State of Kentucky.
    Mr. Rogers. Well, there are 120 counties in the State. You 
are severely undermanned, do you admit?
    Mr. Hutchinson. Absolutely.

        Coordinating Resources With State and Local Enforcement

    Mr. Rogers. But you have an army of law enforcement people 
out there. Local city police, sheriffs, and other law State 
enforcement personnel who are capable of big-time help in this 
problem. Some of the people that we will hear from today 
testifying from State and local law enforcement express a 
frustration about the lack of Federal resources to help them 
combat the problem on the local level. You have a report due on 
this, on how you plan to coordinate your resources with the 
State and local law enforcement people. Can you tell us the 
status of that report and when we can expect it?
    Mr. Hutchinson. In regard to our cooperative efforts, that 
is a high priority. And, for example, we indicated we have 7 
diversion investigators in Kentucky, but they work alongside 
State and local task forces, and so we try to multiply our 
efforts with their resources; and so we are working with them, 
as well as engaging in educational efforts with our law 
enforcement and diversion components in the States. In regards 
to the report, we will shortly forward that report to the 
Committee.
    [The information follows:]

                        DRUG ENFORCEMENT ADMINISTRATION, STAFFING FOR KENTUCKY, AUTHORIZED POSITIONS AND ON-BOARD STAFFING REPORT
                                                        [Pay Period 24--Ending December 15, 2001]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          SA                   DI                   IS                   TC                 Total
                Office location                 --------------------------------------------------------------------------------------------------------
                                                  Auth   O/B    Vac    Auth   O/B    Vac    Auth   O/B    Vac    Auth   O/B    Vac    Auth   O/B    Vac
--------------------------------------------------------------------------------------------------------------------------------------------------------
Lexington, KY Resident Office..................      4      5      1  .....  .....  .....  .....  .....  .....      1      1  .....      5      6      1
London, KY Resident Office.....................      4      2     -2      2      2  .....      2      2  .....      1      1  .....      9      7     -2
Louisville, KY District Office.................      9     10      1      5      4     -1  .....  .....  .....      3      3  .....     17     17  .....
Madisonville, KY Post of Duty..................      2      2  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....  .....      2      2
--------------------------------------------------------------------------------------------------------------------------------------------------------
Key: SA--Special Agent; DI--Diversion Investigator; IS--Intelligence Specialist; TC--Technical Clerical; Auth--Authorized; O/B--On-Board; VAC--Vacancies
  (Negatives=vacancies, positives=overages).

Note.--All Kentucky Offices report to the Detroit, Michigan Division Office.

    Mr. Rogers. Shouldn't you consider stepping up your drug 
diversion efforts in the local communities? I mean, there are a 
thousand pharmacies in Kentucky. You have seven diversion 
officers for the whole State, and a few special agents. Every 
one of those places where pharmacies are located have local 
police forces, local sheriff's forces and other--State law 
enforcement, and yet we are hearing from those people that DEA 
is not really plugged into this. They are not getting the 
proper resources from DEA and the Federal agencies. And I am 
asking you, do you need more money for that type of thing?
    Mr. Hutchinson. The answer is yes, Mr. Chairman.
    Mr. Rogers. How much money do you need?
    Mr. Hutchinson. We have put in a budget request for FY 
2003, and we have asked for 50 additional diversion 
investigators, which would be funded out of our diversion fee 
account. And this is absolutely essential for us in terms of 
our diversion investigators. Whenever you look at what we have 
to do to support, you know, our local counterparts, I would 
assure you, of those 50 diversion investigators, we will get 
some resources in Kentucky.
    Mr. Rogers. Well, what I think the local law enforcement 
people need, and I am speaking generally here, not just about 
my State, what they need is money and support for undercover 
operations, for drug buys, for going underground and rooting 
out the problem from where it exists. What can we do to help in 
that respect?
    Mr. Hutchinson. Well, we do fund drug buys. We work with 
our local counterparts and our task forces in sharing 
intelligence. As to the criminal activity, we develop 
informants. We give them the buy money to accomplish that in a 
very cooperative effort. For example, as I have traveled around 
the country to the different DEA offices, I will have an all-
hands meeting--which is what we call it--and I will have all 
the DEA employees in there, and I will ask them how many are 
task force officers. And I will have, probably, at least a 
third--if there are 100 there, a third of them will be task 
force officers, which will be the Louisville Police Department, 
the Kentucky State Police, will all be a part of these task 
forces. So we work alongside of them, we develop these cases.
    And the same is true for the diversion side. Obviously we 
need to do much in that arena. And the monitoring part, once we 
get a better handle on where the abuses are, then we are going 
to be able to respond more quickly and be able to get a handle 
on it much quicker.

                   purdue pharma's marketing program

    Mr. Rogers. Let me quickly deal with the Purdue Pharma 
matters. Did they offer incentives to patients and/or doctors 
to try OxyContin?
    Mr. Hutchinson. They had a very aggressive marketing 
program. I could not give you the details of that, other than 
what I have described in their direct doctor marketing that we 
have demonstrated.
    Mr. Rogers. They would go to see a doctor, and what would 
they use to induce the doctor to try OxyContin? Are there some 
incentives to the doctor to do that?
    Mr. Hutchinson. I am not aware of anything in terms of 
financial incentives. Obviously, you have information 
concerning a retreat or a seminar that they might have an 
expense paid trip to. That is just in general how the industry 
works from time to time.
    Mr. Rogers. Was that used in this respect?
    Mr. Hutchinson. That was my understanding, yes.
    Mr. Rogers. Free trips.
    Mr. Hutchinson. Correct.
    Mr. Rogers. Anything else?
    Mr. Hutchinson. That is the substance of it. I am not aware 
of any other financial incentives.
    Mr. Rogers. Is it common for a pharmaceutical company to 
sell a drug that is a Schedule II narcotic such as OxyContin? 
Is that a common practice?
    For a company to market a narcotic in this fashion? I can 
understand maybe selling the idea of a doctor prescribing an 
aspirin or something, but a Schedule II narcotic?
    Mr. Hutchinson. I don't believe we have seen as aggressive 
a marketing program for a Schedule II drug as we have seen with 
OxyContin.
    Mr. Rogers. Was this drug marketed more aggressively in 
certain parts of the country; say, Appalachia?
    Mr. Hutchinson. I could not specify the particular rural 
areas of the country. I know they were marketing to doctors 
that had a record of prescribing other types of analgesics. So 
that is where they had a very targeted audience for those 
doctors that were prescribing pain medication.
    Mr. Rogers. In certain parts of the country; for example in 
Appalachia, coal mining has been a way of life and injuries and 
disease from that occupation have impacted a disproportionate 
number of our citizens. A larger proportion of our people, 
perhaps, need pain medication than other parts of the country. 
Did you find any indication that they sought out that 
particular area for marketing?
    Mr. Hutchinson. Well, that is consistent with their 
marketing plan to go after the doctors that had a history of 
prescribing pain medication. And so if you are looking at 
Appalachia where you have a significant portion of the 
population needing pain medication, then that would certainly 
be part of the targeted market area for the industry in 
marketing OxyContin.

                 restricting prescription of oxycontin

    Mr. Rogers. Has there been given any thought to restricting 
who can prescribe OxyContin; for example, restricting the 
number of doctors who would be allowed to prescribe OxyContin 
so that there could be tighter control on the number of 
medications that are dispensed?
    Mr. Hutchinson. Yes. That has been debated and discussed. 
Obviously it would be easier from the standpoint of the DEA and 
those who are concerned about abuse potential if only pain 
specialists, doctors who were certified pain specialists, that 
they would be restricted and limited to be the ones that 
prescribed this OxyContin. Whenever you have family 
practitioners, you have every type of doctor out there with a 
potential of prescribing it, it is a very, very broad arena and 
you wouldn't have the same level of expertise in pain 
management as you would with the pain management specialists. 
But the problem would be in some rural areas you don't have 
that level of expertise, and so that has only been discussed.

                drug cartels and oxycontin distribution

    Mr. Rogers. But the real problem now, it seems to me, is 
the problem has gone underground. Distribution of OxyContin--
the illegal use of it--you get it buying it on the street. 
Perhaps those pills that were stolen in Mexico City is a good 
example of the illegitimate sequestration of these pills away 
from their legitimate use, and then selling it underground. So 
therefore the law enforcement end of the problem is the big 
end.
    Are there indications that any of the cartels, organized 
crime, are involved now in the distribution of OxyContin 
illegally?
    Mr. Hutchinson. There have been very limited instances of 
Mexican organizations that would, as they transport marijuana 
or cocaine, they would have a certain amount of OxyContin. 
There have been limited instances of that. But there is a great 
concern. We are monitoring, certainly, the robbery in Mexico of 
nine armed men, I believe it was, yesterday. This will 
certainly cause us to monitor that very carefully. And you are 
right, Mr. Rogers, that is a growing concern, the criminal 
activity, but the diversion by doctors is still a concern that 
we will keep looking after.

                     oxycontin sales over internet

    Mr. Rogers. I have even noticed an increase on the 
Internet, the so-called one-stop pharmacy shops on the Internet 
boldly claiming how anybody, any consumer, can get OxyContin 
without a prescription, just a click of the mouse. Many of 
these sites on the Internet say that they are getting their 
supply directly from Mexico. Have you seen that? Are you aware 
of that?
    Mr. Hutchinson. We are aware of that.
    Mr. Rogers. Is that legal?
    Mr. Hutchinson. It would not be--you cannot prescribe 
anything without a legitimate medical reason, and if a doctor 
operates on the Internet there is not the doctor/patient 
relationship, and there is a question immediately as to whether 
there is a legitimate medical need that is documented; and 
there is a much higher potential for abuse and we are 
investigating a number of those cases.
    Mr. Rogers. It would be really easy for anybody, a law 
enforcement officer for example, to click on the Internet, and 
say, yeah, give me some and then track it down. They are saying 
it is coming from Mexico. Have we tracked down that particular 
effort?
    Mr. Hutchinson. It is illegal to bring in the OxyContin 
from Mexico back into the United States.
    Mr. Rogers. It is also illegal to purchase it without a 
prescription.
    Mr. Hutchinson. Absolutely.
    Mr. Rogers. Are we cracking down on the Internet access to 
OxyContin without a prescription?
    Mr. Hutchinson. We are cracking down on that. We are 
investigating a number of cases. It is resource intensive, but 
we are utilizing every investigative tool, including our review 
of the Internet.
    Mr. Rogers. I don't want to advertise this Internet site 
but I have one in my hand here, a copy of an Internet site, and 
it is blatant. No prescriptions required. Yes, we have a 
reliable OxyContin source; U.S. and foreign doctor consultation 
now available. Seizure protection plans; 100 percent 
reimbursement if your order gets seized. Advocacy protection 
plan, 50 to 100 percent reimbursement. And so on. This is 
blatant. How are you letting them get by with that?
    Mr. Hutchinson. Well, I don't believe we are letting them 
get by with that. Obviously if you go to the Internet, there is 
a great concern, because you can see recipes for 
methamphetamine, you can learn how to manufacture Ecstacy; 
because on the Internet, as you know, Mr. Rogers it is not just 
simply United States source of information, but it is 
international source of information that is designed to be 
difficult to regulate and to pursue cases. We are doing it, but 
that is clearly resource intensive. There are many protections 
that try to make it difficult to prosecute those cases but we 
have a number of cases that are ongoing. We hope to have some 
success.
    Mr. Rogers. I thank you. Mr. Chairman, thank you.
    Mr. Wolf. Thank you. Mr. Mollohan.
    Mr. Mollohan. Thank you. Welcome to the hearing.
    Mr. Hutchinson. Thank you.

               first knowledge of oxycontin as a problem

    Mr. Mollohan. In the previous question about when did this 
problem come to your attention, you said 2 years after the 
product came on the market. When did the misuse of OxyContin 
come to your attention?
    Mr. Hutchinson. We first met with Purdue Pharma on August 
5, 1999 to discuss the issues regarding the purchase of raw 
material, their sales history and forecast. We again met with 
them on February 24th of 2000. During that meeting we talked 
about their marketing campaign and the dramatic increase in 
sales of the product. We again met with them on March 22nd of 
2001 regarding the concern on the diversion of OxyContin. At 
that time we requested additional information about rapidly 
increasing sales.
    Mr. Mollohan. But the problem first came to your attention 
in 1999, I take it?
    Mr. Hutchinson. It was during that time, because that was 
around the first time we had met with Purdue Pharma.
    Mr. Mollohan. At that time, how would you characterize the 
problem or how was it characterized to you?
    Mr. Hutchinson. As a looming battleship on the radar 
screen.

                          growth of oxycontin

    Mr. Mollohan. Where did the problem first arise and where 
was it when it first came to your attention?
    Mr. Hutchinson. Well, it first arose in the more rural 
areas, Kentucky, Virginia, in that arena. I was not at the DEA 
at that time, but that clearly was the history of the 
development of the problem of OxyContin.
    Mr. Mollohan. And what I want to do is get some sense of 
the scope of it when it first started, and to what extent it 
has grown, and what is the scope of it today, both 
quantitatively and geographically. Can you talk about that, how 
it is spreading, and what are the trend lines?
    Mr. Hutchinson. Well the trend line almost grows off the 
chart. I asked them to quantify----
    Mr. Mollohan. Who is ``them''?
    Mr. Hutchinson. My diversion investigators at the DEA. But 
the prescriptions grew from 1996 to 2000 up to--1,850 percent. 
But, obviously, you are starting down at zero, and so when you 
go up the percents are just astronomical. But during that same 
time period----
    Mr. Mollohan. What time period?
    Mr. Hutchinson. From 1996 to 2000. Other prescriptions for 
opioid analgesics only grew 23.4 percent, so you can see the 
extraordinary growth.
    Mr. Mollohan. You are talking about prescriptions here?
    Mr. Hutchinson. Yes, I am speaking of prescriptions.
    Mr. Mollohan. You are not talking about the misuse of 
prescriptions?
    Mr. Hutchinson. No. To represent the misuse of it and to 
show how our education process worked, these are emergency 
department episodes as to how they grew, and these are for 
oxycodone emergency room mentions, and you can see that in 1997 
they were a little over 4,000 and they grew to over 10,000 in 
the year 2000. So these are emergency room mentions of abuse 
potential of oxycodone, which is the subsidy narcotic in 
OxyContin. So we followed this through the emergency room 
admissions, the mentions, as well as through the sales of it.
    Mr. Mollohan. Do these numbers track--I am not sure what 
correlation you are trying to make here, but do these emergency 
room visits track the increase in prescriptions of OxyContin?
    Mr. Hutchinson. Yes. In other words, as the use of 
OxyContin increased in our society as prescriptions rose, you 
saw, in a correlated fashion, the increase in the number of 
oxycodone-related mentions in emergency room departments.
    Mr. Mollohan. Is the emergency room incident increase your 
measurement of the increase in the problem, the growth in the 
scope of the problem?
    Mr. Hutchinson. That is one measure.
    Mr. Mollohan. What are other measures?
    Mr. Hutchinson. Oxycodone, of course, does not specify 
which particular brand name, and so the industry would say we 
don't know whether that was OxyContin or not. That is why we 
tried to develop a stronger statistical base and did our own 
survey of the medical examiners that I referred to in my 
original testimony, in which we not only asked them for the 
oxycodone-related deaths but to specify were there OxyContin 
tablets found in the body; were the pills next to the deceased; 
was there a documented source of it as OxyContin versus the 
generic oxycodone? And because of that, we were able to tie 
down more specifically the number of deaths related to 
OxyContin.
    Mr. Mollohan. Is there an oxycodone problem outside the 
misuse of OxyContin?
    Mr. Hutchinson. There are other prescriptions that are 
subject to abuse, but none of them have received or developed 
the same abuse potential and misuse as OxyContin.

                 investigating misuse of prescriptions

    Mr. Mollohan. What you described here is the manifestation 
of the problem or the end result of the problem, people taking 
the drug and getting ill or dying from it. What about the 
misuse of prescriptions? Are you being successful in 
investigating that? Do you have statistics with regard to 
misuse of prescriptions or misuse of the drug on the supply 
side?
    Mr. Hutchinson. In general for controlled substances?
    Mr. Mollohan. No. For OxyContin.
    Mr. Hutchinson. Well, OxyContin came on the scene I believe 
in 1995 or 1996, so we don't have a handle on that. I do 
believe that because of the education efforts and the States 
adopting prescription monitoring programs, we are getting a 
handle on certain aspects at the present time. But we can 
demonstrate success on other prescription drugs.
    Mr. Mollohan. But that is the problem, isn't it? It is the 
abuse of this drug--the misprescription of it. Either you have 
doctors who are violating the law or people are taking the drug 
and misusing it. Obviously this is an extremely hard problem. 
It is not where you have an illegal drug which is being 
misused. How do you sort through the problem of making sure the 
drug is available for proper use and at the same time 
eliminating the misuse of it? It seems to me there has to be a 
primary focus on that misuse, either doctors misprescribing it 
or patients misusing it. And so I am asking you to discuss that 
focus of your effort in controlling this problem.
    Mr. Hutchinson. Well, first of all, we do try to have a 
balanced approach. We have had some criticism that we were 
using heavy-handed tactics, which I don't think were justified, 
but doctors get a little bit concerned and they want to have 
the freedom to be able to prescribe legitimate pain medication. 
And so we don't want to discourage the legitimate use of pain 
medication, including OxyContin; but on the abuse side, we are 
taking aggressive efforts to, for example, restrict the quota 
for the industry as to how much they can produce and put on the 
market.
    Secondly, we are doing the education campaign with the 
medical community, law enforcement, as well as with the public, 
on the abuse potential.
    And, thirdly, we are doing everything we can in the 
enforcement area by pursuing any doctors that are acting 
inappropriately, as well as the pharmacies, as well as 
patients, such as the sheriff down in Louisiana that engaged in 
prescription fraud.

                    geographical spread of oxycontin

    Mr. Mollohan. Let me back up a second because I would like 
to get a quantitative handle on this before you get into how 
you are addressing it. Describe for us how it has spread 
geographically. We know it is a problem in rural areas, and it 
is a problem in southern West Virginia and Kentucky. Is that 
where it started?
    Mr. Hutchinson. It started in those rural areas.
    Mr. Mollohan. Where has it spread to?
    Mr. Hutchinson. It has spread----
    Mr. Mollohan. Geographically.
    Mr. Hutchinson. Well, to the urban areas; for example, in 
the New England area, and actually that was one of the original 
States of concern as well. I mentioned Kentucky and Virginia, 
but the New England States were one of the first areas of 
difficulty in the rural areas there. The Boston area has had 
serious problems with OxyContin going down to Florida.
    Whenever we talk about drug education programs, we think 
about teens. Florida has an aggressive drug education program 
for the elderly because of OxyContin abuse. So it has moved 
dramatically into Florida. They are looking at prescription 
monitoring program legislation. So that is an example. You are 
looking all across the South as abuse potential and areas of 
concern for us.
    Mr. Mollohan. Where is it happening now, where is it 
increasing? New England, Florida? Where else? Midwest is not a 
problem? California is not a problem?
    Mr. Hutchinson. No. Actually, in many of those areas the 
methamphetamine is a growing problem and OxyContin is just an 
area of concern. California is not a problem. So it is along 
the East Coast and the South that is the greatest concern.
    Mr. Mollohan. Have you prosecuted any of these cases?
    Mr. Hutchinson. We have prosecuted many cases.

                        trend line of oxycontin

    Mr. Mollohan. What does that trend line look like?
    Mr. Hutchinson. Well, it is increasing. As I indicated, we 
have handled in 1999 a half dozen OxyContin cases, criminal 
cases.
    Mr. Mollohan. Six criminal OxyContin cases in 1999.
    Mr. Hutchinson. That is correct. In 2000 we handled 37 
prosecutions, and these are all at the Federal level; and in 
2001 we handled 168 cases up through August. So you can see the 
dramatic increase in the investigative resources and the 
prosecutions.
    Mr. Mollohan. These are for what violations of law?
    Mr. Hutchinson. These would be for illegal diversion of it. 
These would be diversion cases, which would include whether it 
be a pharmacy, it would be a doctor that diverts it, or 
prescription fraud.
    Mr. Mollohan. In your concluding remarks here, you say DEA 
recognizes that the best means of preventing the diversion of 
controlled substances, including OxyContin and all other drugs, 
is to increase awareness of the proper use and potential 
dangers of the product. That just seems so inadequate to me, 
that the best means of preventing diversion is to increase 
awareness of the proper use and potential dangers of the 
product. People who are going to be responsive to proper use 
and potential dangers are going to be people that are easily 
convinced not to abuse the drug. People who are going to abuse 
it, I wouldn't think would be responsive to that tactic at all.
    Mr. Hutchinson. Certainly there is more to it than that, 
but whether you are talking about OxyContin or methamphetamine 
or cocaine, I believe that drug education is critically 
important.
    Mr. Mollohan. This is a legal drug, though.
    Mr. Hutchinson. It is important with reference to legal 
drugs as well. Clearly the education we are referring to 
primarily goes to the doctors so it is legitimately used and 
not overprescribed.
    Secondly, with patients when they are aware of an 
extraordinary addictive substance, they are more hesitant to 
ask for the drug or to push the doctor to prescribe it.
    Thirdly, whenever you are talking about young people or 
adults out there, whenever they see the death potential of it 
they are less likely to purchase it on the street. But clearly 
that doesn't address the robbery in Mexico, it doesn't address 
the pharmacy robberies in Boston. That is an enforcement 
activity. And so you balance what we said in that statement 
about education with the aggressive enforcement activities, 
reflected in the fact that five times as many cases are being 
prosecuted.
    Mr. Mollohan. And you are undertaking that aggressive 
enforcement activity?
    Mr. Hutchinson. Yes, sir, and we will continue to do so.
    Mr. Mollohan. Thank you.
    Mr. Hutchinson. Thank you.
    Mr. Wolf. Mr. Latham.

                         the oxycontin customer

    Mr. Latham. Thank you, Mr. Chairman, and I will be brief.
    I guess I would like to go to who the customer is for the 
diverted drugs. Is there--and I hate to use the word 
``profile,'' but is there an idea of who the user is in an 
illegal basis out there? Could you tell me, how have people 
found out about it? Is there any kind of organized effort, as 
in my part of the country, with methamphetamines to promote and 
sell and give away the drug itself? Who is using it illegally 
and how are they finding out about it?
    Mr. Hutchinson. You have a number of different abusers. 
First of all, you have the added population that look at this 
as a substitute for heroin. So it is a way that they can 
fulfill their addiction.
    Secondly, you are looking at the criminal side of it, the 
organizations that might engage in a robbery in order that they 
can sell it on the street for profit.
    Thirdly, you are looking at the accidental addict that 
becomes addicted to it, and then because of that addiction 
engages in, like the sheriff did, forging a prescription.
    So all of those are areas of concern for us. And on the 
street, you ask about how do they find out about it. The 
education on the street is much quicker than it is in law 
enforcement circles, I regret to say. The word spreads as to 
new drug of abuse, a new potential out there. So they will 
figure out the means to be able to forge a prescription, to be 
able to go to the doctor, talk them into a prescription of the 
OxyContin, but then in addition it is on the street and there 
is profit in the sale of it.

                    cost of oxycontin on the street

    Mr. Latham. Speaking of the profit part of it, how does the 
cost for an illegal user compare to other, say, heroin or 
comparative drugs?
    Mr. Hutchinson. Well, the costs for a 10 milligram tablet, 
$10 for OxyContin; for a 40 milligram tablet of OxyContin, $40. 
So you can see that kind of sale value on the street.
    Mr. Latham. What does one tablet do? Is this a 3-hour high? 
Are you out for 2 days, or what?
    Mr. Hutchinson. I probably couldn't give you as much 
specifics as you would like. I would be glad to get back to you 
on that, but part of the compilation construction of OxyContin 
is that it is a controlled release, and so if it is taken in 
pill form, then the pain relief component of it is gradually 
released over a 24-hour period. If you crunch it, which of 
course the addicts do, and you destroy the time-released 
capsule, then you get an immediate rush that comes from it. 
And, of course, the more powerful, whether it is a 10 milligram 
or a 40 milligram, will make a huge difference in the capacity 
of it.
    But as you can see, this is sold in 10 milligram, 20 
milligram, 40 milligram, 80 milligram, and 160 milligram 
tablets, obviously with increasing abuse potential in each of 
those increasing dosages.
    Mr. Latham. How much would be lethal for an average, say, 
170-pound male? Do you have any idea?
    Mr. Hutchinson. What would be lethal? It would depend upon 
the previous usages and tolerance. For example, whenever we see 
death resulting from it, many times that will not be from the 
addict population, heroin addicts, because they have built up 
that tolerance and their system is able to ingest it and 
tolerate even the higher dosages of it. But if you have a 
first-time user or a casual user, then even a smaller dosage 
could lead to death or serious illness.

                       addictive characteristics

    Mr. Latham. Could you give me any idea of the 
addictiveness? You and I have talked many times about 
methamphetamine, which is in our part of the country, and how 
potentially with just one use you are addicted, possibly. How 
does this relate to that? How long do you have to use it to 
really be totally addicted, or is there, say, a casual user? Is 
that possible over time?
    Mr. Hutchinson. Clearly it can be prescribed in a way by 
doctors who are treating pain. That would not lead to addiction 
if it is carefully done, and that is why you need a doctor who 
is trained in pain management, who has a great understanding of 
the abuse potential here. But in reference to the strength and 
its comparison to, say, heroin, I simply asked a similar 
question that you did, Mr. Latham, about why is this so 
popular. And the answer came back to me by my experts, 
``Because it is better than heroin.'' so clearly it has the 
same addictive characteristics as that drug.
    Mr. Latham. The heroin user would be the main target for 
someone who is already a drug addict or involved with drugs. 
Does it replace any other drugs or is it the drug of choice; or 
is there a steppingstone--marijuana, cocaine, then you go to 
this? Or have you seen any profile like that?
    Mr. Hutchinson. Well, it certainly serves as a heroin 
substitute, and so the heroin addict population is certainly a 
good target or market base for those who would want to divert 
it and develop that market. But also it is those who are 
experimenting in drugs. It is those that might be sold it on 
the street and not being told all the information.
    You know there are polydrug abusers that are out there. So 
you know it is--all the varieties that you described are 
potentials of the abuse of OxyContin.

                 oxycontin classified as moderate drug

    Mr. Latham. Thank you, Mr. Chairman. I am going to have to 
leave for another appointment. Thank you very much.
    Mr. Wolf. Thank you very much. When you made the last 
comment about the addictive nature of it and how strong it is, 
and I looked through all the testimony last night and there was 
one where it was said the high is felt before the needle is out 
of the arm. Maybe the Food and Drug Administration made a 
mistake when they allowed this to come out under the definition 
of moderate to severe. Clearly, again, if someone is suffering 
from cancer, clearly this is an outstanding drug and the 
opportunity for a doctor to prescribe it, but if somebody maybe 
just has a moderate--I pain don't have any definition of 
``moderate.''
    But the dangerousness of this with regard to moderate, 
where you could slip into overuse--I also read the testimony of 
this gentleman, Donnie Coots from Hazard, Kentucky, with regard 
to his son. Maybe the Food and Drug Administration made a very 
big mistake when they used a definition of ``moderate.'' This 
may be a very good drug that doctors ought to have the ability 
to deal with, but maybe ``moderate'' is not the right word. And 
I think this is something that I would urge you as you are 
dealing with your colleagues in another agency, at the Food and 
Drug Administration, to make sure that the next one that comes 
out, that they may not be as lax as they were. Or maybe I am 
wrong in my analysis, just thinking this thing through, and I 
am not going to get you into defining ``moderate,'' because you 
are not a doctor and I am not a doctor, but what is an example 
of ``moderate''? Is it a backache after a weekend of cutting 
wood and sawing wood, as I have cleared my property and 
sometimes on a Saturday night I come in and I just know the 
next morning I am in pain, and then I take Advil. So maybe the 
``moderate'' thing is where we have kind of slipped into this 
thing and now we have families that are being devastated.
    So I am not going to put you in a position to give us a 
definition, but it does say ``moderate to severe,'' and if you 
want to comment you are welcome to comment, but I would urge 
you to talk to your colleagues at the Food and Drug 
Administration, because here we may have a very good thing that 
we really need and maybe there is another drug coming that is 
even better than this, that will help people like my mom and 
dad, or people we all know who are going through a difficult 
time. And many of us may very well be in that role in some 
years in the future, and neither the day nor the hour do we 
know, as it says in the Bible, but in the process of getting 
there I want to be careful that we don't open the door and 
flood it out.
    And then young kids start using it, as Mr. Rogers was 
talking about, high school and all, because the definition of 
``moderate'' makes it seem okay and a doctor who is really 
trying to serve his patients may see this and is so busy in 
seeing 50 patients a day, may think that is okay. So I think 
you ought to be talking to the Food and Drug Administration. 
They may have messed up here.
    Mr. Hutchinson. You are absolutely correct that the FDA 
plays a critical role in setting those types of standards and 
the abuse potential, because that creates a framework for the 
message that the industry uses for the doctors. And so they 
play a very critical role in it. And you are right I don't want 
to describe the pain----
    Mr. Wolf. I don't want to get you into that. I am going to 
ask the subcommittee to send a letter to the Food and Drug 
Administration and ask if they were to redefine and do this 
today, would they make it ``moderate to severe,'' or would they 
have it for ``severe,'' and ask the Food and Drug 
Administration to tell us with clarity just yes or no, and not 
some long word where they may not want to admit they made a 
mistake; but tell us, looking back on this, because we can 
learn from this so we never have to go through this again, so 
that the pain and suffering and agony in little villages like 
in Harold Rogers' district, where it is coming to my district, 
where moms and dads are faced with the situation whereby the 
only way they can deal with this, because they cannot afford 
treatment, they can't send their children to Betty Ford Clinic 
out in Palm Springs, so therefore they turn them in to law 
enforcement, so they get sent to prison with the idea that that 
may be their only hope.
    So we will send that letter to the Food and Drug 
Administration and we will be glad to share with you what they 
say. But I want to again thank you for your testimony, and I 
appreciate it very much.
    Mr. Hutchinson. Thank you.
    Mr. Wolf. I see people leave top jobs in the Administration 
and they go run for Congress. You left Congress to go for a top 
job in the Administration.
    Mr. Hutchinson. I have always been backwards.
    Mr. Wolf. No. I think it is a public service, and I for one 
appreciate it very much.
    Mr. Hutchinson. Thank you, Mr. Chairman.
    Mr. Wolf. Maybe you are like Esther for just a time like 
this. So thank you very much.
                                        Tuesday, December 11, 2001.

                    STATE AND LOCAL LAW ENFORCEMENT

                               WITNESSES

PROSECUTOR TAMMY McELYEA, LEE COUNTY, VIRGINIA
LIEUTENANT STEVEN HUDSON, PRINCE WILLIAM/MANASSAS NARCOTICS TASK FORCE
ROD MAGGARD, FORMER POLICE CHIEF, HAZARD, KENTUCKY
CAPTAIN RICK HALL, WEST VIRGINIA STATE POLICE
    Mr. Wolf. The next panel would be Prosecutor Tammy McElyea 
from Lee County, Virginia; Lieutenant Steven Hudson from Prince 
William/Manassas Narcotics Task Force; Rod Maggard, former 
Police Chief at Hazard, Kentucky; Captain Rick Hall of the West 
Virginia State Police.
    If you would all come up together and begin in that order. 
And perhaps in the interest of time, we are going to stay here 
as long as the hearing goes on, but I feel an obligation to Dr. 
Goldenheim and also to the medical community to make sure they 
have a fair opportunity. So if you could summarize your 
statements, and then there will be an opportunity for questions 
and answers. Your full statement will appear in the record as 
if read.
    Tammy, you may begin.
    Ms. McElyea. Thank you, Congressman Wolf. I sincerely want 
to thank the subcommittee for giving their time and attention 
to this. I am going to try to summarize this because I realize 
it was a fairly long statement, and I honestly think that if 
you had spent a month with me, I couldn't tell you all that we 
have been through, but I hope to hit the highlights here.
    Lee County is of course located in the western-most part of 
Virginia. We are in the Appalachian Mountains and we are close 
to Kentucky. You actually border us, and we are bordered by 
Tennessee as well. I have been a Commonwealth attorney there 
for 10 years, and frankly I thought I had probably seen 
everything that one could see, but I had a hard lesson to 
learn.
    I would like to say that like Congressman Wolf, recently 
both my father and my grandmother passed away, and at the end 
of their lives they were in terrible pain, and I can remember 
standing in that long hallway listening to my grandmother cry 
out, and I know what a family feels. And I certainly know that 
OxyContin can be a miracle drug, but what I have learned is 
that we must very closely guard such miracle drugs or they can 
quickly become our worst nightmare. And that's truly what 
happened to my county.
    We were not new to drug abuse, like I think every other 
county in the Nation, but what we had seen in the past didn't 
come close to prepare us to what we were going to face. And it 
all started basically in 1999, and we were overwhelmed without 
warning. Before this, we had seen sort of a progression of drug 
use among our addicts. They went basically from marijuana to 
the harder drugs, but OxyContin changed this definitely for the 
worst. We saw first-time drug users who were actually starting 
out with OxyContin. It was amazing to see how quickly people 
became addicted, and all of a sudden the most important thing 
in their lives was to get this drug, and whatever it took was 
not beyond their comprehension or their ability to try to do. 
It was literally like nothing we had ever seen before. Its 
abuse transcended all ages, all economic barriers, and it 
transcended all educational backgrounds. It seemed to basically 
become an epidemic overnight for us.
    And, fortunately, I was the one who had talked to an addict 
and have talked to basically several addicts and asked them why 
they preferred this to the other drugs, particularly heroin, 
and it is because of the immediate high that they can receive 
from it. They literally tell me they do not get the needle out 
of their arm before they are high. They inject even underneath 
their fingernails, underneath their toenails, in between their 
toes. Anywhere that they can basically stick a needle in, that 
is what they do.
    The profit margin is extraordinary on the street. That has 
been one of the major things we have had to deal with. If you 
obtain it legally, it is about 10 cents per milligram. If you 
sell it on the street, it is about $1 per milligram. The most 
recent that we have bought off the streets, the 80 milligram 
pills, cost us a range of $120 to $150. The 40 milligrams are 
costing us $70. So the profit margin has drastically increased, 
we hope due to the efforts of law enforcement to try to take 
some of this off of the streets and to reduce the quantity that 
is available.
    Theft crimes. I couldn't begin to tell you what has 
happened to us with regard to theft crimes. They have soared in 
our county. The average annual value of reported property 
stolen--now, this is reported property--has exceeded $250,000 a 
year for the past few years. Many people do not report their 
property stolen because they feel like there is so much theft, 
it is basically a useless activity for them to report it and a 
waste of their time.
    Violent crimes have soared in Lee county. We rarely saw an 
armed robbery before we became involved with this rampant 
OxyContin abuse. Perhaps, most sadly, a lady in her mid-
seventies, from Florida, had come back to our county because we 
were safe and we were rural, we were a nice place to live. What 
happened was that as she waited for her husband to come out of 
a medical clinic for a doctor's appointment, she was physically 
beaten and robbed of her purse by a young man in his mid-
twenties. This was something that we really had not seen 
before, and the fact that this occurred on a main street in the 
middle of a small town was absolutely no deterrent; it did 
nothing to stop the crime.
    We have had young people in their homes and robbed couples 
at gunpoint. That was something we had not seen before. And we 
have seen the occasional robbery of a store, which was 
something we really had not seen before.
    We have a problem with doctor shopping. Where we are 
situated makes it very easy to travel into Kentucky, makes it 
very easy to travel into Tennessee. What happened was that 
addicts go from one doctor to another. They go from 
psychiatrists, dentists, and physicians, to secure multiple 
prescriptions for this drug. We have even had occasions where 
they have traveled across State lines and had their teeth 
pulled, one at a time, to get multiple prescriptions for the 
drug.
    The addict now turns dealer. What they do is sell to 
continue to foot the costs for their multiple prescriptions 
that they have, and to continue the profit margin. A 900 
percent profit margin is a pretty difficult thing to combat on 
the streets. The money is difficult for the law enforcement to 
come up with, and the manpower is difficult. Our investigators 
have worked exhausting hours. It has been something that has 
totally consumed them. It has consumed the prosecutor's office, 
it has consumed the courts, and it is consuming the taxpayers, 
whether they realize it or not.
    A lot of these prescriptions, particularly in our area 
where we are economically dependent a great deal on government 
benefits, you pay for this prescription with your tax dollars. 
A Medicaid patient pays $1 for it, and turns around and sells 
it on the street; they can get 60 40-milligram pills. That is 
$2,400, and it costs them a $1 investment.
    We basically were to the point that the sheriff and I sat 
down and spent many hours talking about this. We didn't know 
what to do. Virginia has lenient sentencing guidelines. We were 
marching people into the courts, and they would come right back 
out under our guidelines.
    We turned to the Federal authorities for help. It was 
interesting to listen to the DEA. We turned to the ATF for 
help. The ATF stepped in and assisted us in a way that we have 
never been helped before. Lee County has a lot of guns. We 
hunt. And what happened was that anything that could be traded 
for a pill became a target of theft. Anything they could get 
their hands on was stolen and traded.
    This led the ATF to assist us, because anytime that we 
could put a guns for drug trade or felony possession of a 
firearm, it meant that they would face a lengthy Federal 
sentence. The ATF worked with our local sheriff's department. 
We had some very aggressive ATF agents, and through their 
efforts we have--in fact, we have had the first two kingpin in 
the Nation prosecuted that arose out of a Lee County 
investigation. We currently have awaiting--not under the 
kingpin statute--but a prosecution in the county for a 
gentleman who is alleged to have distributed in excess of 
122,000 OxyContin pills. And that may not sound like a lot, but 
our population in our county is only 24,000. This has literally 
affected every family in our county, and I cannot stress that 
to you enough. They were either dealing with an addict or 
dealing with theft or with both.
    Check fraud just overtook us. Prescription forgery also was 
a problem for us. It has been something that has been a 
nightmare, and I do not know if it stopped today how long it 
would take us to recover from it. We work still night and day 
to try to deal with this, and some of the ways that it has been 
dealt have been certainly less than desirable for parents of 
addicts. We have had people turn in their own children out of 
desperation. Those children have ended up serving lengthy 
penitentiary sentences in the Federal system, and the sad thing 
is they would rather see their children in jail than free to 
continue to abuse this drug.
    We have had eight confirmed deaths of OxyContin, and again 
you have to consider our population. That is a lot for our 
population. We will continue to work. We have done something 
"called reverse stings" through Purdue Pharma's assistance. 
They provided us with placebos that look like OxyContin, we set 
up shop in two known drug dealers' residences, and we arrested 
an alarming number of people in a very short number of hours. 
We got 24 on the first such occasion and 15 on the second. That 
was just a few customers and only two dealers. So that tells 
you, I think, some measure of the problem that we have run 
into.
    It has driven people in our county to bankruptcy. They have 
literally lost everything they have had, everything that they 
have worked a lifetime to accumulate. Many of them will never, 
never recover. Many of them will continue to struggle with this 
for many, many, many years.
    We, unfortunately, appear to be seeing a substitution 
perhaps now of the drug for other things. We got our first 
methamphetamine lab over the weekend, and we worked on that for 
a while. We hadn't seen that before. That has been new to us, 
and we suspect that is to somehow stop and help reduce the 
supply, or help supplement to reduce the supply of OxyContin.
    We have had people travel to Mexico and bring it back. The 
profit margin is so great, they don't care to hop a plane and 
go across the border and bring it back. We have had one 
gentleman who was caught in Nashville with a pile of it taped 
to his back. He faces Federal prosecution in Nashville.
    We have had various people look to try to get off of this. 
It is terrible when it comes to trying to get off of it. Our 
circuit court judge even made the observation the other day, 
something that law enforcement has seen for a while, and that 
is that it appears that our addicts are not getting off. They 
keep coming back through the system and the taxpayers keep 
paying for it. We pay for the overdose medical bills. We pay 
for the medical bills of the addicted jail population.
    We would appreciate any help that we could get. We are 
working on a prescription monitoring plan through the Attorney 
General's Office in Virginia, and we have a lot of hope for 
that. I would sincerely appreciate any help you could give us 
on a national level, because when you are bordered by two other 
States, it is so easy to go across the lines that even if we 
had a prescription monitoring plan in Virginia, it is probably 
not going to help us a great deal, but it would be a place to 
start.
    Again, I appreciate your time. I have tried to summarize 
this, and any help that you can give us by all the people in 
Lee County, we would sincerely appreciate.
    Mr. Wolf. Thank you very much.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Wolf. Lieutenant Steven Hudson, Prince William/Manassas 
Narcotics Task Force. If you could summarize too, we would 
appreciate it.
    Mr. Hudson. I would be happy to.
    Thank you, Chairman Wolf, and members of the subcommittee 
for having me here today. I am a lieutenant with the Prince 
William County Police Department, have been so in that 
Department for 20 years, and have been assigned to the 
Narcotics Task Force for about a year. Our Narcotics Task Force 
is comprised of Prince William County and the cities of 
Manassas and Manassas Park.
    And as you know, we are a small county, relatively small, 
about 25 miles southwest of Washington, D.C., comprised of just 
over a quarter of a million people. Up until 2000, we had not 
experienced any difficulties with OxyContin. We were hearing 
about it especially in the areas of southwestern Virginia, and 
saw the difficulties that people were dealing with.
    Beginning in 2000, it started off with a bang. In January 
of 2000, we prosecuted our first case of felony distribution of 
OxyContin, and, in the 20 months following that, prosecuted 20 
cases of OxyContin felony distributions or possession with the 
intent to distribute.
    The cases continue. We are investigating probably twice 
that many at this time and are running into it in a variety of 
different circumstances. Just earlier this year, we arrested a 
lady in the Dale City area of Prince William County who was a 
drug addict and was selling the drug along with many other 
drugs. And as we arrested her, we found her son, 16 years old, 
had been taught to shoot her, inject her with OxyContin, as it 
had been ground and put into an injectable formula. When we 
arrested him, we also found that he had track marks on his arm. 
We took a 9-year-old daughter out of the same home. 
Fortunately, she was not led into the drug use, but was found 
in a bed that was in despicable condition, including dog feces 
on the bed.
    There are several anecdotes of incidents like that, of 
families that have just degraded terribly in connection with 
prescription drug abuse, and specifically lately with abuse of 
OxyContin.
    Our situation has been improved because we had sufficient 
help, in our view, from the Federal agencies, especially with 
the DEA. We have officers from our Department assigned to DEA, 
HIDTA, groups in the northern Virginia area, and we have been 
able to receive sufficient help from them whenever we requested 
it. The only problems we have run into in that regard are in 
the Federal thresholds of quantities for the prosecution 
required within the U.S. Attorney's office. In some cases that 
threshold has been too high for us to try to take cases 
federally. And then we have run into rather lenient State 
guidelines, as Ms. McElyea already told you.
    This is an epidemic like many we have seen in the past. We 
have experienced crack, we have experienced Ecstasy, and we 
still are experiencing those drugs as well as the typical drugs 
that you have seen. But it is a drug that we are seeing in a 
variety of different circumstances. We may run into it in a 
patient who is simply addicted and is using that drug only, or 
we are running into it in many, many polydrug cases in which 
people are using it in connection with and together with many 
other drugs, and the abuse has been very, very serious in those 
cases that we have seen.
    Thank you, Mr. Chairman.
    Mr. Wolf. Thank you very much.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Wolf. Rod Maggard, former police chief of Hazard, 
Kentucky.
    Mr. Maggard. Yes, sir. Thank you, Mr. Chairman. I 
appreciate the opportunity to be here. Forgive me a little bit 
for the cold that has hit me. I want to start with recalling my 
last official days as police chief in the city of Hazard, if I 
may, before I get to the introduction. My pastor and I went to 
Pennington Gap, Virginia to address a community meeting of over 
600 people interested in OxyContin abuse. It was a very 
memorable day for me. My day actually started just a little 
after midnight when a call came in that somebody had been shot 
and killed in the city of Hazard. And we had not had a homicide 
in more than--1995; and I arrived at the scene with the other 
police officers. We found it wasn't homicide. It was a self-
inflicted gunshot wound. This gentleman and his girlfriend had 
fought. He had sent her to the hospital to try to get some pain 
medication. She came home without any, and I really believe it 
was an unintentional suicide.
    They fought, and he walked down the street and stuck a 9 
millimeter to his head, and it went off and killed him. As I 
was wrapping up addressing the Lee County, Virginia group, I 
got a call on my cell phone that we had had a murder on the 
main street of Hazard, and I called back and told them to go 
ahead and handle it till when I got back to Hazard, which was 
about a 2 hour and 45 minute drive. As the crow flies, it is 
probably 25, 30 miles, but across the mountains it is a little 
bit different. When I got back, I found out it was the sister 
of the young man that had taken his life earlier that morning, 
and it was because of a drug problem. That is just simply the 
way I wanted to start it out.
    It has been a nightmare for me. I first started hearing in 
1999 the terminology of OC this, and OC that. I didn't know 
what OC was. So I went to my pharmacy, and he told me it was a 
slang term that was being used on the streets for OxyContin. It 
didn't take me too long to find out about that. Prior to that 
time and just before, I may get one call. And you have got to 
consider yourself as a small town police chief, chief of police 
in a small town, you know everybody, you know all of the 
families, you know all of their hurts, you go to church with 
them, your children go to school with them.
    And, therefore, they think you can help them with any kind 
of problem you can. So being a friend, a fellow with a lot of 
people, I would offer my services. So I would get a call about 
every 3 months, wanting to know if I could help some child or 
some person or family that may be addicted and I would 
gratefully do that. Sometimes we would use scare tactics and 
cause the child to go to a rehabilitation, and it may cost the 
family 35 to $38,000, an extreme amount of money, and within 3 
weeks, a period of time from the time the child got back, they 
were back in the same cycle again. But it got to the point to 
where, in mid-2000, I was receiving three or four phone calls a 
day from parents of children or relatives wanting help, and it 
gets to be so frustrating when you know that there is nothing 
you can do to help them, except advise them to have them 
involuntarily hospitalized, you know, in the psychiatric ward, 
that maybe while they were there--and we even got it down to a 
point, it was an art. We would put them in on Friday night, 
because the weekend didn't count. So they would stay on Monday, 
Tuesday and Wednesday before they had to appear before a judge. 
So we would actually wait to do that. And this really wasn't--I 
want to go back to a statement Congressman Rogers made, and 
Congressman, in the paper misquoted--well, they didn't misquote 
me. They left part of it off; 65 to 85 percent of all the high 
school students we dealt with, that was the ones we were 
dealing with on a daily basis, told us flat out that they were 
supporting their habit by the thieving, by the thefts that they 
were doing. Well, it really blew over the top when I heard them 
referring to our little city park as Pillville, and this was 
where all of the young people--and when I say young, I am 
talking 50 and younger, because there is no age limit. This 
doesn't have any barrier for age, but most generally, I was 
seeing a lot of juveniles, a great deal of juveniles that were 
partaking in this.
    In one particular instance in my statement that I gave you, 
it began with an early morning call from the Hazard Housing 
Authority, informing me that the Hazard senior citizen's high-
rise had been burglarized. Many items from the high-rise, such 
as sofa, loveseat, pictures and other furnishings had been 
stolen sometime during the previous night. We were able to 
locate all of those items, not just many of them but all of 
them, and learned that the burglar and his accomplice for two 
20-milligram pills, sold this for two OxyContin pills.
    Now, the person that bought these belongings was a 73-year-
old individual who was doctor shopping. He was going from 
doctor to doctor. But he was also prescribed these illegally. 
He had some problems. But he was one of the biggest--and all of 
our young people knew about him. The day that we got the sofa 
and whatever back, I recovered a 6 foot--I didn't recover it. I 
didn't know where it came from, a bandsaw. And later that 
afternoon I was notified by a parent that said that her son has 
stolen a bandsaw, a Sears bandsaw. I told her where it was, she 
could go get it if she wanted to get a warrant. But in our 
area, the addiction to OxyContin was actually--it truly was an 
epidemic and may still be, but you have got to understand that 
I have not been in the circle that I was from March up until 
this day, even though I still get calls wanting help with this 
situation.
    It demoralized our community, and when I say community, I 
am not talking about the City of Hazard. This is a regional-
type effort. Everybody comes into our area for one reason or 
another. All the young people come to that area, but it has 
demoralized it, bankrupted, spiritually, morally and 
financially, families all over our area. The abuse was so 
widespread that small town and rural police departments really 
became overwhelmed. We do not have the ability nor the 
resources to culminate investigations of this magnitude. If 
this had been measles or smallpox, our community would have 
been quarantined from the rest of the world. You know, and I 
hate to make this analogy, but we have had four deaths from 
anthrax, and that has been a serious threat, but there has been 
hundreds of deaths from people abusing this drug, and it is 
quite serious. To me, it is as serious as anthrax in my 
community, as it is to the Nation, for those people that have 
lost their lives.
    It has had a big impact on law enforcement. The rural small 
law enforcement does not have adequate human needs, technology, 
resources to address the problem. We have got limited budgets. 
We are sort of like an elderly couple that lives on social 
security. Our budgets are fixed and they only get smaller, you 
know, and as long as you have a police officer and a car 
driving around, that is all they really want. They don't think 
about the technology or the use. Congressman Rogers is helping 
us on that aspect and being able to tie together some 
operability in that may be a result of some of this work going 
on, that we will have interoperability capabilities.
    But we didn't have any kind of funds to do the type of 
investigations that we needed to detect the problems early on. 
It is only when they reach a crisis point that you really have 
to pull out all of the stops. You have to be very innovative. I 
went to the Kentucky State police. They have money for buys. We 
have the knowledge. The officer that I assigned to the task 
force that we started with Kentucky State police and the FBI 
was just assigned to it. We sat down 2 days prior to the 
meeting with them and compiled a list of 163 people that we 
thought would be dealers. As it turned out, there was a little 
over 200, and after that first Oxyfest, as we called it, was 
over, I asked the same officer, how many more out there? He 
said, just as many, just as many. So everybody that saw an 
ample opportunity to sell this, you know--and what gets me is 
the people that try for the first time. The OC-80s, as I 
understand it, is equivalent to about 16 Tylox, and if you get 
a child that has never taken any of this and tries it for the 
first time and either snorts or injects that, then it is almost 
instantaneous. He has signed his death warrant and that is 
scary. That is scary when you are responsible for the safety of 
our citizens and for the children in the community.
    Now, the lack of interoperability was another problem that 
we faced. We didn't know where to turn, except to go back to--
and I am a real big advocate of community policing--to go back 
to our community. Well, unfortunately or fortunately for me, 
the pastor of my church had counselled over five families in 
our own church that had children that had this problem. So one 
Wednesday night at a prayer meeting, instead of going to a 
prayer meeting, it turned into actually a testimonial, I guess, 
about the problems that we were all facing and the ones that I 
was facing, the challenge that I was facing trying to help 
people that I couldn't help. And out of that became a county-
wide or community-wide--we had people from other counties come 
in from all around eastern Kentucky. Over 400 people attended 
this meeting, and out of that meeting, we brought in an expert 
to tell about drug abuse, and he spoke, and then the floor was 
taken over by people giving their own testimonies about the 
problems that they had. And Mr. Coots was there that night. He 
can tell you a little bit more about that later on. But out of 
that meeting arose hopefully something that could help us. It 
was a nonprofit organization, faith-based. And we split that 
into, oh, I guess seven different departments, subcommittees I 
guess, neighborhood crime watch. We would go into all the area 
and teach the people on what to look for when you have 300 cars 
going to a house within a period of 3 hours, you know, try to 
jot down some license numbers, get the information back to us 
so that we can pass it on and do a surveillance, similar to 
that judicial review. We weren't having very much success in 
having anything prosecuted in a drug line. And that is one of 
the reasons we incorporated the FBI so that we could take this 
federal.
    And as the lieutenant said, it is quite hard because of the 
number of appeals that you have to buy or the weight to be able 
to get this prosecuted federally. So, you know, it does place a 
burden on you sometimes when you are trying to purchase this 
stuff. We had a recovering addicts committee, family support, 
education committee and youth committee.
    It is important to note that in organizing this group we 
had no outside funding to continue to operate, and we operate 
on a volunteer basis. The objective of the People Against Drugs 
Group was to curtail the drug abuse but also provide help to 
those who have been affected. There is no rehabilitation center 
nearby that isn't cost prohibitive, and one of those is in 
Minnesota and one them is in Nashville. But we have become 
successful without any operating capital. We have got people 
like Pastor Coots that is going to testify. We have learned to 
be resourceful, to get on the Internet, Congressman, and find 
out those places that we could take people that didn't have any 
funding to give them, and those are the people that are really 
hurting. And those people that had insurance, they wouldn't 
accept the insurance. But law enforcement officials continue to 
train the neighborhood crime watch committees. We continue to 
be involved in our police, our people against drugs. It is 
still active, but it could be a lot more active, because the 
only thing that we have had after that group is some volunteers 
that donated a hundred dollars here or there, that we could put 
some signs up, some neighborhood crime watch signs and then the 
highway department makes us take them down because they say it 
is not correct, so we move them in lawns. Then maybe mailing 
for the people that is on the list.
    All in all, I would like to say that it is probably one of 
the biggest challenges. I have been in both public and private 
law enforcement as of April of this past year for the past 34 
years as a Kentucky State policeman, as a private corporate 
security director with a large coal company and then as police 
chief in the City of Hazard, and I have never seen anything in 
my lifetime in law enforcement that has taken over a community 
so fast and has been so devastating, and hopefully we will get 
some help from the Federal Government to be able to solidify 
what we have already started to do. Maybe we could make it 
better.
    Thank you.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Wolf. Thank you, Mr. Maggard.
    Captain Hall, West Virginia State Police.
    Mr. Hall. Yes. Thank you, Mr. Chairman. Besides the 
statement I submitted with all the comments from the panelists 
and all of your questions, I know that you all have given 
considerable attention to this matter, and you need to be 
commended. You understand the problem very well. You have a lot 
of statistics before you. I don't have any additional 
statistics to give you.
    Somebody asked a while ago if this was the first wave. 
Well, this is actually the second wave. In Appalachia, in 
southern West Virginia, there was another wave earlier called 
the Tylox. The chief mentioned it. And I would like to say that 
I think you all know, with my statement, I have spent 15 years 
in an undercover unit with the State police, the Bureau of 
Criminal Investigations. I ended up running that unit for 6 
years in southern West Virginia. In the mid-1980s, we had a 
Tylox epidemic. Tylox is oxycodone, 5 milligram capsules, 
easily opened, snorted directly up the nose, immediate effect. 
It was put into a solution and injected. In the late 1980s and 
1990s, we were having big investigations over Tylox. Of course 
crack cocaine, cocaine, marijuana, meth, those were our bigger 
cases, and that took more of our attention, but we made some 
big cases with the U.S. Attorney's office. And that was the 
only way we could prosecute prescription drug cases. Local 
prosecution and local prosecutors really didn't look at a 
prescription drug as a prosecutable case. You know, these are 
people taking their parents' medication.
    Well, that wasn't the case with Tylox. It was so big, I 
mean, we even arrested pharmacists selling them to organized 
crime, large organizations, family organizations, all addicted 
to oxycodone, 5 milligram pills.
    OxyContin, as you all know, is 10, 20, 40, 80, and it is 
just so potent. And once it is crushed and the potency of that 
OxyContin at one time, it is worse than crack ever was in our 
State, and it is going to be worse than any drug we have ever 
encountered. It is not going to halt yet.
    But we have always done narcotics cases. We can't continue 
at the pace that OxyContin is to keep up with the street deals 
that we do. We don't have the money. It is cost prohibitive. We 
have to try to do stings. Like in Lee County we try to catch 
people with a whole bottle full that they have for sale and put 
that amount on them. And also I would like to say in southern 
West Virginia, DEA has done a tremendous job with the State 
police and with the task forces, and so is the U.S. Attorney's 
office in the Southern District of West Virginia. They have 
made some cases that would not have come to court unless it was 
federal prosecution. Just this year alone we have been involved 
with some brothers from Maryland. They come in and what do they 
do? They make millions of dollars bringing in OxyContin. 
OxyContin is the second wave, and it is going to surpass 
anything we have seen in southern West Virginia.
    And it affects everybody, as you know, every community. 
There is some dealer in every community in southern West 
Virginia, and these dealers became--well, they are addicts, 
too, or they wouldn't be dealers. They have to deal to support 
their own habits. If they are using, they are eventually going 
to become drug dealers, and some of them have become criminals 
as a result of an injury, a legitimate injury. And now they are 
committing crimes. OxyContin has turned them into criminals, 
and it is the drug of choice in southern West Virginia. People 
have left cocaine. In Webster County, in Pocahontas County, in 
the western counties where meth was the drug, the people on 
meth are actually wanting OxyContin. We have crack dealers that 
are now--they are not only dealing crack, but they have 
OxyContin, too. We have people in wheelchairs, elderly people 
who had a hip injury in wheelchairs that are selling their 
OxyContin. They are on fixed incomes. They are good people. Now 
they are doing criminal acts.
    You know, for all the good that this drug has done, it has 
devastated Appalachia, and it is not stopped yet. One of my 
young troopers has a brother who took his own life. He came 
from a good family of five brothers. He had a potential pro 
baseball career. A sports injury made him give up that. He 
ended up on OxyContin. He couldn't get off of it. He couldn't 
stay away from the group of people that supplied it. He took 
his own life in his parents' yard, and some of the last words 
he said was that he just--he couldn't live with his self 
anymore. He couldn't put his family through the suffering.
    So, I mean, it hits home. So it is an emotional issue for 
me. But in West Virginia, in southern West Virginia, people 
have called it an epidemic. It is not. It is an explosion. And 
it happened in 1998. In March of 1998 the legislature enacted a 
law, the pain management law we call it, and that is a very 
short law. You have a copy of it for your record. It doesn't 
take a real experienced investigator to see where this law came 
from. It is for the--what it does is it frees doctors from 
being fearful of criminal or any other sanctions for 
overprescribing or for prescribing to addicts. The law says 
that just overprescribing alone will not bring sanctions on 
them. Now, this law--and I know how laws are enacted. The 
legislature only heard one side of this, and it was a well 
thought out campaign in West Virginia to get these OxyContin 
addicts in southern West Virginia. It was aggressive, and when 
you only hear one side of the miracle drug and pain management 
and people deserve to have their pain taken away so they can 
live productive lives, that all sounds good, but what they 
don't take into account is the culture of addiction. And I have 
worked with drug addicts for 15 years, and as other colleagues 
have said, they will do anything to get that drug, anything. 
They come from good families, but they are going to steal, they 
are going to forge prescriptions. They will do anything. If 
they can--and whatever you come up with, whatever form the 
OxyContin is in, they are going to extract it from whatever it 
is in, they are going to take it.
    There were other drugs on the market before OxyContin. We 
had Dilaudid, which was given to terminally ill cancer patients 
for severe pain. It is hydromorphone. It is more potent than 
this, but it was more controlled. We did have Dilaudid addicts, 
but they were few, and pharmacists got on to them pretty quick. 
Their names got into the system. And this pain management law 
that West Virginia got shoved down its throat is part of West 
Virginia's problem. At least in 1998 we had a drug enforcement 
diversion officer, Dominique Grant, who saw this coming, and he 
warned us. He called all the drug coordinators to Charleston, 
and he said, look, he said, this law, gave us all a copy of it, 
in 1998--this was in April of 1998--he gave us a copy of this 
law and said, you are going to have a flood, and he was right. 
What we thought of--we didn't know it was OxyContin. We 
thought, well, okay, this is going to--that the Dilaudid 
addicts are going to be at it more. We are going to have to 
gear up our resources and go after more of them. They already 
had narcotics organizations in place. This just exploded. We 
started buying them in 1998 and haven't stopped. It takes all 
the resources we have just to buy them on the street. If it 
wasn't for the DEA and the U.S. Attorney's office realizing in 
southern West Virginia what the problem is, we wouldn't have 
any prosecutions. But to continue, we do need help.
    West Virginia does not have a monitoring system. We had a 
semblance of one, but it lost funding. Funding is a big key in 
West Virginia. We need a monitoring system, and it has to be--I 
think it needs to be mandatory, and it should be incumbent upon 
doctors to do more investigation of their patients. They 
shouldn't just come in and say, you know, do you have pain. I 
mean, all they are required to do on examination is just ask 
you questions, take your temperature, your blood pressure, and 
a good addict, he has a story that you will believe. He could 
walk into your house and you will believe that this guy has 
really terrific pain. They are good. That is their life. They 
live to get their next pill. That is what they do all day. That 
is the only job that they have, most of them, sell pills and 
find out where they are going to get theirs. They go from 
doctor to doctor till they find another one. And doctors, like 
has been testified to and will be by Dr. Sullivan probably, he 
knows how an addict works. This isn't going to stop.
    If this was a product like a car tire or something, it 
would be recalled. And I am not so sure it shouldn't be 
recalled. I am not a politician. I am just a police officer who 
has been involved in the drug culture in southern West Virginia 
for a long time, and this is one we can't fight, not without a 
lot more help than what we have. You know, we do need 
tremendous help, and I am not sure that it shouldn't be 
recalled.
    I mean, it is our children. It is our parents. I had two 
60-year-old men on different occasions this year after being 
arrested cry. They come--their families tried to get them off 
of these things. They cried because they could not get off of 
them themselves. They ended up being dealers, and they cried. I 
mean, that is what it does to a good person.
    Well, what about the criminal element, the true criminals 
that we have out there? They are ruthless when it comes to 
dealing these things. But I could go on and on, and I won't. 
You have my statement there, and I just wanted to add some 
comments to it.
    Thank you.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Wolf. Well, thank you very much, Captain. That was very 
powerful. All four very, very powerful, and very telling, and 
actually your oral comments were better than your written 
comments, I might say. So hopefully we will put your written 
comments in the record, but your oral comments will also be 
there.
    In the interest of time, I have a whole series of 
questions, we may send them to you, but I guess there are two 
that I would like to cover, and I guess yes or no would be the 
first, and then the second one will be a little more elaborate.
    As Tammy was saying, do you all, the other three agree this 
is a very difficult drug for rehabilitation, that the success 
rate of people getting off is not very high? Is that what you 
are sort of saying?
    Mr. Maggard. May I speak to that point? It is extremely 
hard to be able to find a place to rehabilitate them.
    Mr. Wolf. So you don't have a great record in your area of 
people going to X place and----
    Mr. Maggard. No. A lot of people that went to a rehab unit, 
I believe, came back and said they had never heard of 
OxyContin. They were not capable of dealing with that problem 
at that particular time. So they had to go through, I guess, a 
phase of learning how to do that. But I guess in my testimony I 
told about the people that go through the cycle again. It was 
simply because they got with the old friends again and they 
didn't follow through with the rehab, not the fact that the 
rehab department didn't help. We just don't have a rehab. We 
don't have anything.
    Mr. Wolf. Tammy.
    Ms. McElyea. The same problem. A lot of the families that 
had the assets to afford it would send their children, 
particularly--and even we have had some older adults go to a 
methadone clinic----
    Mr. Wolf. Is that daily or weekly or what is that?
    Ms. McElyea. It starts out for a period of time daily.
    Mr. Wolf. And where was the clinic?
    Ms. McElyea. Knoxville, Tennessee.
    Mr. Wolf. And how far a drive there?
    Ms. McElyea. Five-hour round-trip drive.
    Mr. Wolf. Every day?
    Ms. McElyea. Every day for a period of 5 months. The last 
gentleman we had in circuit court was last week and he had to 
attend the methadone clinic every day for a minimum of 3 
months.
    Mr. Wolf. Has it been successful?
    Ms. McElyea. Frankly, I doubt that it will be. I haven't 
seen the methadone--personally I have seen a lot of people run 
to the methadone clinic. It is extremely expensive, 
particularly when you look at a low-income area. It is not 
covered by insurance and I have not seen a single person be 
successful.
    Mr. Wolf. Captain.
    Mr. Hall. If they didn't have to return back to their homes 
and get out of the environment they were in, it might be 
successful, but that is the biggest problem, is we are--I mean, 
once an addict goes and gets rehabilitated, where would he have 
to move to get away from it, to stay away from it? California?
    Mr. Hudson. No, sir. I have also not seen any successful 
stories of rehab yet. I am sure there are some in existence. 
The folks in our county go to Fairfax County for rehabilitation 
clinics and I have yet to see any of the people that we have 
dealt with be successfully rehabilitated.
    Mr. Wolf. Okay. I have one other quick question. Answer, if 
you could. I want to make sure the other members have time and 
the panelists. If there was one thing the government could do 
or the company could do, what should that be to deal with this 
problem? We will go in the same order that we----
    Ms. McElyea. I am not sure----
    Mr. Wolf. Either/or, the government, ATF, DEA, Food and 
Drug or the company, if there is one thing that you think could 
be done to help to deal with this problem.
    Ms. McElyea. I think certainly the supply has to be 
tightened up. I think that it is just--and this is my personal 
opinion. I think that it has just been handed out far too 
liberally. I think that that perhaps started our initial 
problem. I certainly think that it needs to be very stringently 
controlled as to who receives this drug. I don't think I should 
get this drug because I have a tooth pulled. I think that that 
is the first and perhaps the front line for us.
    The other thing, of course, is the age-old problem of funds 
and manpower. It is something that we simply need more money 
and more officers to try to combat, and in conjunction with 
that, then--I don't want to sound--you know, sit here and sound 
like I am saying lock everybody up. I don't think that is the 
answer, but some tougher sentences would help, and perhaps some 
reduced guidelines as far as getting some of the cases into 
federal court I think would help from a prosecution standpoint, 
and of course we would like to see Virginia toughen our State 
sentences.
    Mr. Maggard. I agree with that, Tammy. I think the 
manpower--I think the company has already undertaken a large 
educational need, and I think that is something that we as law 
enforcement need to look at instead of waiting till the fifth 
grade. You know, our society is a feel-good society. There is a 
pill for anything. I think we need to start indoctrinating the 
pre-school all the way through the fifth grade instead of 
waiting till the DARE program to educate our young people, you 
know, that you don't take a pill. You know, we have got 
soldiers in Afghanistan that are suffering from anxiety, but 
they are not asking for Xanax or Valium. God forbid they do. We 
would be in terrible shape. But our children have been 
indoctrinated to a feel-good society. There is a fix-it for 
everything advertised. So I think education is the true answer.
    Mr. Hudson. I agree with Tammy and the chief, and if I was 
to point to one thing, I would say education for the doctors in 
pain management. Those who are involved in the practice of pain 
management seem to have a good grasp on it, but the doctors I 
have spoken to in general practice or family practice have very 
little formal education in pain management, and many of them 
are so trepidatious about the use of OxyContin, they won't even 
deal with it. They will put signs on their windows that say we 
do not prescribe OxyContin, and that tells me that there is a 
level of ignorance or naivete that presents to them a 
significant fear. And I appreciate the fact that that fear 
exists, but I think it is an education issue.
    Mr. Hall. I think we need to mandate monitoring systems 
with doctors and with pharmacists. I think the doctors should--
it should be mandated that they actually track their patients 
and see who else these patients are seeing and then likewise 
with the pharmacy, with the monitoring systems, West Virginia 
has none, and we should. And not only that, it should link up 
with Virginia's and Kentucky's and Ohio's, Pennsylvania's. They 
should be able to inquire nationally. And of course that is a 
federal issue there, and that takes federal dollars, and I 
think that is what we need throughout Appalachia.
    Mr. Wolf. There is a new $2 million grant program--through 
the good auspices of Mr. Rogers who really brought this to the 
committee's attention last year, in this bill. Not enough now, 
I see. Hopefully it is a program that we can continue, but I 
would urge--I am asking our State, Tammy, to be involved. They 
say they can't act until the general assembly comes in, but 
hopefully our new Attorney General will participate and then 
that helps Mr. Rogers' State, because he is surrounded, and 
then West Virginia participates I think regionally, then that 
person can't shop around.
    Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman. I just have one quick 
comment and a question. Were you referring to tougher sentences 
for users or for all involved?
    Ms. McElyea. I think the dealers need to have tougher 
sentences. I think that it is a sad statement that society has 
to turn to the criminal justice system to try to get an addict 
off of drugs. That, to me, that is a pretty sorry position that 
we have gotten ourselves into, that that is our last resort, is 
we have to start locking our children up to try to save them, 
and that is what we are doing.
    Mr. Serrano. Right. I am glad you said that, because for my 
part I totally agree with you. You know, we in New York are 
still trying to undo the so-called Rockefeller drug laws, which 
were considered by some people to be so harsh that now, after 
we did all of that, now we have spent the last 5 years trying 
to undo them, and it is very difficult to do that. The 
political climate is not for that.
    But I would agree with you. I have always been for tougher 
laws for the medical professional in this case or the dealers 
on the street, and so on. As far as the users, again, I agree 
with you. We have to turn a corner in this country to realize 
that these people are sick, and when you are sick you shouldn't 
be treated like a criminal. Now, if you engage in crime while 
you are sick, that is a different question altogether that you 
folks have to deal with, but we treat sick people here as 
criminals, and I don't think we are ever going to solve that 
problem.
    My question is, again, based on my experience--I come from 
New York--we still have areas in inner cities where you can go 
to a corner and see 15, 20 people who sort of have their own 
world. And you are right, what they do all day is plan on how 
they are going to get high, how they are going to deal with 
their pain or stay pain-free in their world. And that is what 
they do. And in those areas, there have been many successful 
programs in collaboration with the Federal Government. So I 
listen to you, and then I listen to you and then I listen to 
you, and three different communities in many ways but very 
similar. But is there anything happening that will coordinate 
from the federal level to get you folks involved?
    In other words, I know we were talking about help, but 
right now on this particular issue, since it is the one that is 
least known throughout the Nation--for cocaine, for heroin, we 
reached a point where there was a national effort that you 
could tie into. Do you have such a thing right now, or are you 
basically on your own?
    Mr. Hall. In southern West Virginia, we received the back 
end assistance of the U.S. Attorney's office and DEA, 
especially in the last couple years, on narcotics 
investigations particularly. There is not enough DEA officers. 
They don't have enough money. Guidelines are difficult to reach 
when it comes to prosecution, because of the--you have to 
literally buy thousands and thousands of dollars worth of the 
drug on the street or catch somebody with that amount to get 
them in a federal prosecution. But we are doing that.
    The State police and West Virginia law enforcement as a 
whole doesn't have the manpower. We need more manpower. We need 
more federal grant money to buy these drugs and attack these 
organizations, but I think everybody there is doing--is working 
together well now. There just needs to be more of it.
    Mr. Serrano. One last question. You mention of course the 
ever important educating our children. Do you folks know if the 
substance abuse prevention programs in the schools are 
including this particular drug as part of their discussion?
    Mr. Hudson. Ours is. I am sorry, Chief.
    Mr. Maggard. I think after February of this past year, yes, 
ours is, but unfortunately that was a crisis period when over 
200 and some dealers have been arrested. But I don't know that 
it has gone any farther than the fifth grade. So I think--
personally I feel like it needs to go--start down a little bit 
younger.
    Mr. Hudson. Our effort with the DARE program started this 
past school year, and it has been successful, and we also 
incorporated narcotics detectives in that education program, 
both in the community and in the schools. But it is still at a 
relatively small level. The assistance from the federal 
agencies in law enforcement for our agency has been 
significant, and it has been sufficient. So I guess to answer 
your question, I think the federal agencies have helped us very 
well.
    Mr. Serrano. Well, I thank all four of you for your 
testimony, for the work you do. You are there in the front 
line, and certainly through this opportunity that the Chairman 
has offered you, you are bringing an issue that a lot of 
Americans have no clue about, and hopefully--in fact, I am 
pretty sure--your presence here will begin to manage to deal 
with this situation properly. So I thank you.
    Mr. Wolf. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman. I want to thank also 
the four witnesses for riveting testimony that, as Mr. Serrano 
has said, will be the landmark occasion in the Federal 
Government's efforts to tackle this problem of OxyContin. So we 
appreciate your traveling here and giving us this expert 
insight into this depressing problem.
    Let me ask you, do I hear you correctly say that a great, 
great majority of the OxyContin available is from doctor 
shopping? Is that where most of it is coming from? Captain?
    Mr. Hall. Yes, sir. Doctor shopping and forged 
prescriptions. There has been elaborate schemes. We have 
uncovered telephone schemes. People can act like doctors and 
nurses on the phone very easily. The addicts are very familiar 
with the DEA control numbers of the doctors. Forging a 
prescription, stealing prescription pads. If they can't get the 
doctor to write them one, they will actually move around in the 
doctor's office. You know how you are left alone in a little 
room, well, they will move around until they find a 
prescription pad, and they will take it. I mean, they will stop 
at nothing. And if they are caught, nothing happens to them in 
the doctor's office.
    Mr. Rogers. So most of the OxyContin on the street comes 
from a pharmacy, through either a forged prescription or a 
legitimate prescription, correct?
    Mr. Hall. I believe so.
    Mr. Rogers. You don't know of many instances, I gather, 
where the OxyContin has been imported from another area, or is 
that----
    Mr. Maggard. Yes, sir.
    Mr. Rogers. Chief.
    Mr. Maggard. We have big importers from Indiana, and I am 
sure that they would come from doctor shopping in that area, 
too, and OxyContin coming from Mexico. And I think the company 
now has made it plain to where--we have people that are 
actually driving to Mexico. They can walk across the border 
without a prescription and buy any number they want at very, 
very, very reasonable----
    Mr. Rogers. Let me get back to the essential point, that 
practically all of the OxyContin you have encountered really 
comes from either fraudulent prescriptions or doctor shopping.
    Mr. Maggard. Sure.
    Mr. Rogers. How can we from the federal level help in that 
regard? Should we limit the number of doctors or pharmacies 
that are legally allowed to dispense this drug? Or is there 
another way?
    Ms. McElyea. I think that a national--a nationwide 
prescription monitoring plan is critical.
    Mr. Rogers. What do you mean by that?
    Ms. McElyea. It would be a tool, as I understand it, and I 
am certainly not an expert on the prescription monitoring plan, 
but as I understand it, it would be basically a computerized 
system that if a doctor writes a prescription or if a 
pharmacist fills a prescription, it will be entered into a 
computer network and will be a tracking device to see basically 
prescribing habits. It would allow doctors to hopefully check 
on patients that they may suspect is doctor shopping and allow 
law enforcement to check on addicts that we believe are doctor 
shopping.
    Mr. Rogers. Well, could the small corner drugstore afford 
to link up with this national system?
    Ms. McElyea. My understanding is most of the computer 
equipment that is already available and being used in the 
pharmacies will accept this type of a system, that it is not a 
great burden. I think the cost--of course it is eventually 
probably going to be passed on to the consumer, but it is 
basically minuscule compared to the hopeful benefits we would 
achieve.
    Mr. Rogers. Well, that would get at a person seeking 
multiple prescriptions from two different doctors in different 
locations. Right?
    Ms. McElyea. Right.
    Mr. Rogers. But what about the other problems, the forged 
prescriptions, maybe travelling to Indiana versus the next town 
over to get your prescription?
    Ms. McElyea. That is why I think it has to be nationwide. 
The forged prescriptions seem to have been an area harder to 
get by with to get filled, because pharmacists, particularly in 
our areas, have been sort of acclimated to looking for those. 
They check those things. I think also to introduce tamper 
resistance prescription pads--and Purdue Pharma has been an 
advocate of that--has helped.
    Mr. Rogers. What is that?
    Ms. McElyea. It is a pad that does not wash easily. My 
understanding is they take basically what I would call nail 
polish remover of some sort and wash these prescriptions and 
reformulate them. They change the numbers on them very easily. 
One of the shocking things to me was that the medical 
community--I suggested that instead of writing out just 60, you 
know, 60 40-milligram OxyContin tablets, that a doctor actually 
take the time to write that out in longhand instead of numbers 
so they wouldn't be so easily changed, and I was shocked at the 
reaction that I got to that. And I sat down, I was curious to 
see how long it would take me to write out in longhand a 
prescription. You know, I can do that in less than 60 seconds.
    Mr. Rogers. Should we send doctors back to school to learn 
how to write?
    Ms. McElyea. It would help, apparently. That is a terrible 
thing to say, but I think they should--if I go to a doctor, I 
think he should devote more than 2 seconds to me. I should be 
worth 60 seconds of his time to write out a prescription for me 
and that would help.
    Mr. Rogers. Chief Maggard, speaking about the prescription 
monitoring system, Kentucky has such a thing?
    Mr. Maggard. Yes, sir.
    Mr. Rogers. 14 States have prescription monitoring systems 
that assumedly would get at this problem. Does it?
    Mr. Maggard. To a certain extent. Ours is a little bit 
antiquated, probably much antiquated, but you can get your 
result in a couple, 3 days. At least you can find out how many 
physicians or how many pharmacists these perpetrators have gone 
to and what they have been given. It does--it is probably the 
single greatest aid in our Oxyfest investigation, was the 
Casper system, as we know it, in Kentucky.
    Mr. Rogers. Does Virginia have that?
    Ms. McElyea. No, we don't. We hope that--we are working now 
through the Attorney General's task force to try to propose 
some legislation on that, and we hope----
    Mr. Rogers. Does West Virginia have it, Captain?
    Mr. Hall. No, sir.
    Mr. Rogers. And----
    Mr. Hudson. No, sir.
    Mr. Rogers. Well, you have it in Kentucky, but all they 
have to do is cross a 50-mile drive.
    Mr. Maggard. And that was a problem, too.
    Mr. Rogers. Virginia or Tennessee or another State that 
doesn't have it and it is meaningless, right?
    Mr. Maggard. Yes, it is.
    Mr. Rogers. So that is the reason, ma'am, you are saying 
there has to be a federal monitoring system before it would be 
effective?
    Ms. McElyea. Right.
    Mr. Maggard. Congressman, it could be placed just like 
the--each law enforcement--or most of the law enforcement 
agencies in each State have--we have what is the Law 
Enforcement Network Information associated with the NCIC, and 
that could be very easily related to most police departments; 
you know, that they would have this access to that information 
if they could come up with a program that could make it 
nationwide. But it will--as she said, we have people going to--
we had a doctor in Harlan County, though, that was dispensing 
to hundreds of people a day that was coming from Virginia that 
they were not aware, but working together they were able to 
make a dramatic kingpin bust on that same situation.
    Mr. Rogers. Well, it seems to me that if we are going to 
solve this problem it is going to require that, among other 
things, at least that we limit places where you can 
legitimately secure OxyContin. Obviously it is a drug that is 
of great benefit to people who are desperately ill, and we 
can't make it illegal. I don't think anybody wants to do that, 
do you?
    Mr. Maggard. No, sir.
    Ms. McElyea. No.
    Mr. Rogers. But we do need to control who has access to it, 
do we not, more than we are now?
    Mr. Maggard. Yes, sir.
    Ms. McElyea. Yes.
    Mr. Rogers. And how would you do that?
    Mr. Maggard. I personally think if you have that much pain 
that you should be hospitalized, you know. And then on the same 
token, I lost a dear friend of mine just recently who was 
terminally ill with cancer, and that sustained her up until the 
end where she was viable and productive, but it seems like if 
you are hurt bad enough to take an OxyContin 80 or, God forbid, 
an OxyContin 160, I mean, that is a terrible lot of pain 
medication to last you particularly over a 12-hour period of 
time.
    Mr. Rogers. So you would limit it to hospital medications?
    Mr. Maggard. I personally would, with exceptions, rare 
exceptions. There has got to be some exceptions and that could 
be those terminally ill people, but not everybody just because 
they had a toothache would get a prescription of 120 OxyContin. 
We shouldn't get a prescription for 120 to begin with. It 
should be only two a day, because they are 12-hour time 
released. But yet we saw prescriptions for that much or more.
    Mr. Rogers. Shouldn't a local doctor who wants to prescribe 
OxyContin to a local patient be required, or should the 
pharmacy be required, to check with a central source somewhere 
before they would be allowed to dispense it?
    Mr. Hall. Excuse me. That is the whole idea of the 
monitoring system, a program where they can type in that 
patient's name or social security number and see where else 
they get it or and if they--did they get some 10 days ago, 5 
days ago, should they already have their adequate supply. I 
mean, doctors normally prescribe these for 30 days at a time 
and some of them for less if they worry about the patient. But 
the monitoring system, the way I thought they envision it is, 
they can automatically check as an automated based system, and 
they will see if they got 30 of them yesterday in Kentucky, is 
what we would hope for.
    Mr. Rogers. So you think the answer is a monitoring system, 
a national----
    Mr. Hall. Yes, sir.
    Mr. Rogers. National monitoring system where everybody who 
gets a prescription has to clear the computers locally.
    Mr. Hall. Yes, sir. And pharmacies are already--most of 
them are automated already. They just don't have a program like 
this.
    Mr. Rogers. It is called Kasper.
    Mr. Hall. Well, in Kentucky it is called Casper, but it 
needs to be immediate. Like he says, NCIC checks we do and law 
enforcement, it is immediate, and it needs to be that kind of a 
program. And really most pharmacies have the equipment. They 
just need the software programmed in and the----
    Mr. Rogers. In Kentucky the governor has an OxyContin task 
force, and one of the recommendations they have made is to 
require the Kentucky monitoring system to be realtime, an 
automatic response. But that would require a change in the law, 
wouldn't it, Chief?
    Mr. Maggard. I think so.
    Mr. Rogers. In the State law.
    Mr. Maggard. State law, yes.
    Mr. Rogers. But on the Federal level, is that something 
that should be required: That it would be realtime as opposed 
to delayed?
    Mr. Maggard. Yes, realtime. I think that is the only way 
you could go, because the pharmacist before he issued that 
prescription would know if he had just been to some other 
doctor on that same third of the month and obtained 60 or 30 or 
however many pills that he got.
    Mr. Hall. And not only that, but if it was a stolen 
prescription pad, they would know that also.
    Mr. Maggard. From the other States, and that is something 
we don't find out for a period of days sometimes.
    Mr. Rogers. Well, I appreciate your testimony on this 
point. It seems to me that that is where we ought to be 
looking.
    Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Mollohan.
    Mr. Mollohan. Thank you, Mr. Chairman. This is excellent 
testimony from this panel. We really appreciate it.
    Captain Hall, I heard your testimony. I think, that this 
problem is so excruciating and that the resources that you have 
to address it are so inadequate, that one of the things you 
have considered recommending is taking this drug off the 
market. Did I hear that testimony correctly?
    Mr. Hall. Yes, sir. I think that was my implication, yes, 
sir.
    Mr. Mollohan. Have there ever been any drugs that you felt 
the same way about that you have dealt with?
    Mr. Hall. No, sir. Even the more powerful drug Dilaudid, 
hydromorphone, for terminally ill patients, I never even 
considered taking it off the street, even though we have had 
quite a few Dilaudid convictions or investigations. It is 
closer controlled by a pharmacist and doctors.
    Mr. Mollohan. What is it about this drug, the properties of 
this drug, that are so different from these others, anybody?
    Mr. Hall. The sheer potency. Tylox was all--Tylox was 
oxycodone, 5 milligrams. We had enough problem with it, but not 
to the extent that it overshadowed crack cocaine and cocaine 
and marijuana and LSD and meth. It never overshadowed those. It 
was always a problem. This is going to overwhelm all of the 
other illicit drugs that we investigate.
    Mr. Mollohan. And the time release aspect of this is the 
key to it. Once you defeat the time release, you get the full 
does at once.
    Mr. Hall. Dose.
    Mr. Mollohan. The full dosage.
    Mr. Hall. Probably an 80 milligram would probably put me 
into an arrest, because I don't have the tolerance to the 
medication. I don't have a tolerance to the narcotic.
    Mr. Mollohan. The chairman discussed the idea of changing 
the classification, that maybe the Food and Drug Administration 
made a mistake in including moderate pain in the 
classification. Would a reducing of the classification or a 
changing of the classification to exclude moderate pain as a 
criteria for prescribing the drug be effective?
    Ms. McElyea. I think it would help. I think it would go 
somewhat toward the education of physicians of exactly what 
they are putting out there on the street. I think that is one 
of the things we have got to keep in mind. This is not an 
aspirin. This is something that we are putting out on the 
streets that is potentially lethal, and I think that that 
certainly would justify it being reclassified to only being 
given in cases of severe long-lasting pain, more than 2 or 3 
days of pain.
    Mr. Hall. Congressman Mollohan, I consider moderate pain--I 
think it is treatable with hydrocodone, not oxycodone. 
Hydrocodone, which is a Schedule III narcotic, lower tabs, one 
of the brand names is Loraset. It is--I think it is made for 
moderate pain. I think oxycodone is for severe pain, and I am 
surprised, I have had considerable pain recently after a 
hospitalization myself. I went to a doctor just so I could 
sleep, and I was prescribed hydrocodone, not oxycodone.
    Mr. Mollohan. Well, the way you and everybody on the panel 
has described this problem is that it is rampant. It is hard 
sitting here to imagine, particularly in our small communities, 
that there are enough people out there receiving prescriptions 
of this product, that are not using it legitimately such that 
it is getting diverted into misuse. Collectively you would 
think the medical community would understand that there is this 
tremendous diversion going on and they would be self-regulating 
in that aspect, because there has to be a lot of this stuff 
that is being prescribed that is obviously not being used for 
its intended purpose. There is a tremendous amount of it, given 
your description of the problem out there.
    Mr. Maggard. I think that has happened, sir. To a 
tremendous extent in south West Virginia, in my area of 
Kentucky, the doctors are very reluctant now. As I said before, 
if you had a toothache, you could get, you know, OxyContin, but 
not now, and as I heard it stated here, my new office for my 
new job is in a clinic building, and there is a big sign up 
front that says no pain medication administered here, and it is 
not just OxyContin that they were talking about. They just 
don't want to be caught in that trap. At that same place prior 
to all of this happening, there was a line of people that was 
continuously running in and out, you know, so I think that has 
happened. I think our doctors are aware of the situation a 
little bit better than they were.
    Mr. Mollohan. You think there was a decrease in the 
prescription rate in your communities for this drug?
    Mr. Maggard. I think it is, absolutely. Ours were coming--
most of ours was coming from a different source than the State 
anyway, other than doctor shopping. It was a pain clinic that 
was administering most all of the OxyContin that was coming 
back into our area.
    Mr. Mollohan. Where was the pain clinic located?
    Mr. Maggard. In Lexington. Well, the physicians worked for 
the pain clinic. I shouldn't say the pain clinic itself. But, 
you know, we walked into one section of town--or the county--
they will be there waiting in that office. You know, all of 
them were going to see the same physicians, and all of them 
were coming back with the same amount of OxyContin, and all of 
them were dealing, keeping 10, selling the rest.
    Mr. Rogers. Would the gentleman yield?
    Mr. Mollohan. Yes, sir.
    Mr. Rogers. Is that still going on?
    Mr. Maggard. It is still ongoing, sir, it is just----
    Mr. Rogers. What is the name of the clinic in Lexington?
    Mr. Maggard. I don't know the name of the clinic. It has 
been a while. It is just a pain clinic.
    Mr. Rogers. Are they still doing the same thing?
    Mr. Maggard. No. I don't think so. We had the Attorney 
General's office involved in the investigation with us when we 
were doing the doctor shopping to go to those places. They 
identified it and they----
    Mr. Rogers. Will you keep this committee posted on any such 
activity in the State of Kentucky or anywhere else you know 
about?
    Mr. Maggard. Oh, yes.
    Mr. Rogers. Where a particular office is dispensing--or 
prescribing large amounts of OxyContin? Will you keep us posted 
on that?
    Mr. Maggard. Absolutely.
    Mr. Rogers. If you will keep us posted, I think we can 
solve the problem.
    Mr. Maggard. I can do----
    Mr. Rogers. Because I guarantee you, I double guarantee 
you, as they say back in Kentucky, that if we find out that is 
going on, we will bust them.
    Mr. Maggard. Well, that has been done in some instances, 
too, Congressman, as you are well aware, in eastern Kentucky, 
in Johnson County, and also in Harlan County, we have had some 
unscrupulous doctors that have been taken down. Those doctors 
were chastised. I think they had legitimate patients coming to 
them, but they didn't know what they were doing with the pills. 
But I don't think it is persistent now as it was then, but I 
can assure you if you ask me to notify you, I will. I have been 
out of that loop a little bit, but I still get some 
information.
    Mr. Rogers. Well, you stay in touch with your fellow chiefs 
and----
    Mr. Maggard. Yes, I do.
    Mr. Rogers. And if they will funnel that information 
through you to us, we can make certain things happen.
    Mr. Maggard. Thank you.
    Mr. Mollohan. What I am getting at here is if there is a 
decrease in the prescription abuse, and there is an increase in 
the use of this product, we have more addicts out there who are 
relying upon this product. What source is picking up the slack? 
First of all, is that premise right, that there is a decrease 
in the misuse of legitimate prescriptions and there is an 
increase in their use by addicts?
    Mr. Hall. Sir----
    Mr. Mollohan. If that is true, then what sources?
    Mr. Hall. Maybe some doctors have quit writing it. There 
are some pharmacists who have quit filling it, that don't--
there are pharmacies that don't carry it because they don't 
want to get robbed, but they are still--I mean, the one 
ingredient here that maybe we are all forgetting is profit, not 
just profit on the----
    Mr. Mollohan. Well, I think we are forgetting the power of 
addiction too.
    Mr. Hall. Well, for every doctor that doesn't write it, 
there is a doctor that will, and doctors inherently aren't 
looking for--they don't think addicts are coming through their 
door generally. I mean, these people come in with real sob 
stories. I mean, they have got real--they come in, whether they 
have pain or not.
    Mr. Mollohan. I can only imagine.
    Mr. Hall. A doctor believes them. I mean, that is what they 
are supposed to do. They are supposed to try to----
    Mr. Mollohan. So whether it is abuse by the doctor or abuse 
by the alleged patient, prescriptions still remain the greatest 
source of the problem?
    Mr. Hall. Yes, I mean----
    Mr. Mollohan. It is not coming from Mexico, in other words? 
That is what I am trying to understand. It is not coming from 
outside your community? It is still coming from within your 
communities?
    Mr. Hall. It is supplemented by people actually bringing it 
in bulk----
    Mr. Mollohan. Increasingly?
    Mr. Hall. There is money in it, yes.
    Mr. Mollohan. It is increasingly coming from outside?
    Mr. Hall. As long as there are addicts on the street, they 
are going to be bringing it in, stealing it, robbing and 
bringing it to Appalachia to sell. It is free for them if they 
steal it, and they make 40 dollars a pill on the 40 milligram 
and they can sell them as many as they have. If they had a 
million of them, they would be able to sell a million of them.
    Mr. Mollohan. Prosecutor McElyea----
    Ms. McElyea. McElyea, yes.
    Mr. Mollohan. McElyea, sorry. You talked a little bit 
about--maybe some other members of the panel did as well--an 
aspect of this that you wouldn't at first think was a 
prosecutor's angle on it, I guess. That is the method of 
dealing with the addict, and you suggested in your testimony 
that using the criminal system for the addicts, is an imperfect 
way of dealing with them. I agree with that. Would you agree 
that that is the only way it works, because it involves 
incarceration, which means forcibly keeping the addict away 
from the drug?
    Ms. McElyea. That is what we are doing. Like you, I would 
not have thought about that perhaps even 2 years ago, and most 
people who would know me and see me in court would say that I 
argue to lock up everyone, and perhaps there is part of me that 
does. The problem is that locking up the addicts doesn't work. 
We have to--if you are going to lock them up, first of all, you 
have got to keep them approximately 1 year for them to have any 
chance of being successful, but the greater problem is that 
when you are turning them out, you are putting them right back 
into the same group of friends, shall we say, and the friends 
are users, and they are right back into the same pattern of 
behavior. Crime continues to escalate.
    So it appears to me that somewhere down the line--and I 
know nobody wants to spend money on drug addicts, myself 
included. I pay taxes, but I think that in the long run we are 
going to have to recognize that we have got to deal with 
addicts at some point.
    Mr. Mollohan. Okay. Before we get to the point of what you 
do after they have been separated from the drug for a year or 2 
years let's talk about the system. The way we are dealing with 
it now, is in the criminal system. What would you think about 
the prospect of the national government or state governments--I 
think it would be more effective, perhaps, if it were a 
national system--if you had a remedy whereby you could certify 
a person as a certified drug addict through whatever due 
process you went through to achieve that goal. Then you would 
be able to incarcerate them on the civil side, much as we do 
for insanity or for other kinds of illnesses. You can do this 
now for a very short period of time. In West Virginia, I think, 
Captain Hall, you can incarcerate somebody if they are a danger 
to themselves or a danger to others for a 3 or 4 week period. 
But if, on the civil side, you had an incarceration remedy much 
as you incarcerate somebody for other sicknesses, what would be 
your response to that idea, either nationally or at the state 
level?
    Ms. McElyea. I would love to see it. That is what--when you 
get the calls at home and when you get the calls into the 
office and you listen to parents that want help for their 
children, they don't want to turn them into felons. When we 
turn an addict into a felon, we mark them for life, and a lot 
of these addicts, these OxyContin addicts, are from very good 
families.
    But we are marking them literally for the rest of their 
life and we are placing a badge on them they may never be able 
to overcome. We are eliminating them from a lot of the work 
force, the parents of these people and the family members of 
these people, and we have seen father's steal from daughters. I 
have a case pending right now that a father wiped out a 
daughter's account, checking account. They want help. They want 
civil help first, but they don't find it in Virginia. We can 
hold them a matter of hours. We don't have the bed space or the 
funds to treat them, but that is what the real cry is, is that 
give us something to look at other than criminal incarceration.
    Mr. Mollohan. I think it would be wonderful if the law 
enforcement community came forward with that concept. Chief, 
what do you think of this approach?
    Mr. Maggard. I agree wholeheartedly. I have seen too many 
young people that have now been convicted of a felony simply 
because of their addiction, that are not able to go hunting 
again, not able to purchase a weapon. Their rights have been 
taken away from them. That was our goal as a community anyway, 
find some source, some resource where we could develop a rehab 
center, where we could civilly be able to take care of them. 
The jails are overcrowded now. They are full of people and we 
can't--it is not the criminal way. I mean there is a difference 
between the addicts and the normal everyday criminal that you 
get, and something needs to be devised to where we can place 
them in a safe place where they are not criminals and where the 
family won't suffer from the ramifications of their being 
convicted if they go to the--so I agree.
    Mr. Mollohan. Thank you, Chief. I want to get everybody on 
the record if I might, and I don't have much time. Lieutenant 
Hudson.
    Mr. Hudson. I think in an ideal sense it sounds like it 
might provide some solutions to what is going on, but the way 
that the civil laws are now with detention of either mentally 
ill people or circumstances where people are a threat to 
themselves or others, the provisions certainly aren't even 
close to being there, and it seems to me the trend is towards 
less incarceration of those individuals rather than greater----
    Mr. Mollohan. Of those individuals you've described, the 
mentally ill?
    Mr. Hudson. That is correct.
    Mr. Mollohan. But the aspect of this problem is the 
necessity for a long-term separation from drug use and that can 
only happen today in the criminal system. This is not because 
they are a drug addict but because they have committed a crime 
to support their drug addiction, and end up in that system and 
get separated from the use of a drug for a long period of time. 
That is what legislatures are about, federal and state 
legislatures, and I heard you say it is an imperfect system and 
you couldn't do that now. Would you support a system that would 
allow addicts to be treated in that alternative way?
    Mr. Hudson. As a general question I guess I would say yes, 
with some clear definition having to be made in the future as 
to what an addict is, what types of addicts you are looking at, 
et cetera. It is awfully vague to simply sit here and say, yes, 
I will support that.
    Mr. Mollohan. Or starting with a broad concept here?
    Mr. Hudson. Absolutely. The concept of separating the 
addict with their problem for a long period of time is what is 
creating the solution for treatment and/or healing, if you 
will.
    Mr. Mollohan. If you can't get that separation, you can't 
really deal with the issues that can possibly result in long-
term success?
    Mr. Hudson. Which is where we run into the problems when 
they come back into social circles.
    Mr. Mollohan. Captain?
    Mr. Hall. Well, I think it would work. We do it with 
alcoholics now. We have public intoxication shelters. We don't 
put your normal drunk on the street in jail anymore like we did 
25 years ago. We used to jail them for the weekend. If we 
caught them on the street, we would take him to jail. At least 
we would know where he is for the weekend. So he is not going 
to get in the car and kill somebody. But now we take drinks to 
PI shelters and they have to sober up. They may get drunk 
tomorrow night, but at least they have to sober up, and if they 
leave the PI shelter now then they have committed a crime----
    Mr. Mollohan. Extrapolating for a little longer period of 
time, 2 years for drug addicts, do you think that is 
appropriate?
    Mr. Hall. I don't know how long it would take to detoxify 
somebody. I am sure if a judge adjudicates somebody is an 
addict and that he has----
    Mr. Mollohan. On the civil side.
    Mr. Hall. On the civil side--for a week, a couple of weeks 
to be examined.
    Mr. Mollohan. Or whatever period the people in the medical 
community or the treatment community felt was adequate?
    Mr. Hall. Right. In the criminal system we have shock 
treatment now where people are evaluated for 60 days. Instead 
of going to prison for 1 or 2 years, they can be evaluated for 
60 days to see if they will have to do those things, and a lot 
of times that is enough, just the shock treatment may work on 
them. So I think maybe you are onto something.
    Mr. Mollohan. Thank you all very much for your comments. I 
agree with the Chairman and Mr. Rogers. It is an outstanding 
panel and riveting testimony. Thank you.
    Mr. Wolf. Thank you, Mr. Mollohan. I want to thank you 
again, the four of you for taking time to come--except for you, 
I know, live in my area. You haven't come very far unless there 
was a lot of traffic in the morning. But we appreciate all of 
your testimony and I think it will make a big difference. So 
thank you.
                                        Tuesday, December 11, 2001.

                ADDICTION EXPERTS AND RECOVERING ADDICTS

                               WITNESSES

DR. ROLLY SULLIVAN, PROFESSOR OF BEHAVIORAL MEDICINE AND PSYCHIATRY AND 
    DIRECTOR, ADDICTIONS PROGRAMS, WEST VIRGINIA SCHOOL OF MEDICINE
DONNIE COOTS, HAZARD, KENTUCKY, FATHER OF AN OXYCONTIN ADDICT
    Mr. Wolf. On the next panel we are going to have Dr. 
Sullivan, Professor of Behavioral Medicine and Psychiatry, 
Director of Addictions, West Virginia University; and Mr. 
Donnie Coots, Hazard, Kentucky, father of an Oxycontin addict. 
And again if you can summarize your statements, the full 
statements will appear in the record, because we do still have 
two more panels. But we want to thank you both and we can 
proceed in that order, Dr. Sullivan first and then Mr. Coots.
    Dr. Sullivan. Let me thank the committee for allowing me to 
be here, and I will try to be brief. One of my counselors a 
long time ago told me that the brain can only absorb as much as 
the fanny can stand, so I know we are getting to that part.
    First of all, let me say I have been a career academician, 
I am a treating physician on an inpatient addiction unit. When 
I was a resident in the early 1980s and I did my residency in 
internal medicine and psychiatry, so I got boarded in both, I 
find that, unlike many doctors, I liked working with addicts 
and alcoholics. I thought they were interesting people and in 
some ways had a real noble struggle. These were not weak 
people. These were people who strove very hard to try to get 
through their addiction and there was something about being a 
physician and working with these folks that I really, really 
admired.
    Since 1985, I have run the addiction program at West 
Virginia University. It was mostly alcoholics in the 1980s. 
Cocaine came along in the late 1980s and we saw a fair amount 
of that. In the early 1990s, primarily out of necessity, I got 
involved with treating the chronic pain patient who was an 
addict because other docs didn't know what to do with them and 
this was a special population of patients who really did have 
both chronic pain and addiction and over the past 10 years have 
developed some expertise and some notoriety for that and have 
gotten a fair number--probably at least a third of all my 
patients now are chronic pain patients who are also addicted.
    In early 1999, I first became aware of OxyContin--and this 
was partly in the testimony or in my statement--when a fairly 
astute counselor in Charleston said, hey, Dr. Sullivan, there 
is this new drug and it is OxyContin, and the docs down here 
are being notified of it and they are being marketed and I 
think we need to put a panel together and sort of, you know, at 
least talk about the potential for addiction. Now, at that 
point I had never seen a patient that was hooked on OxyContin.
    That very quickly changed and over the past 2 years since 
that period of time I have had an enormous number of patients 
who were hooked on OxyContin, which actually peaked last summer 
in August of 2000. I now have a ten-bed patient unit and at 
that point in August of 2000 there was 1 day that all ten 
patients were OxyContin addicts, and the great irony to me 
after all these years was I couldn't get a run of the mill 
alcoholic into treatment because the beds were all full of 
OxyContin addicts, or if somebody had a problem with cocaine, 
there was no way to get them in.
    Since that time, as most of you know, the newspapers have 
picked up on this and there has been a flurry of activity in 
the papers and doctors have gotten scared and they have started 
to write far less prescriptions. So to be absolutely honest to 
you, the peak for me was 2000 of August. And since that time 
there has been a trailing off of the number of patients who 
have come to me whose primary drug is OxyContin.
    Now, as I left the unit yesterday morning, I looked at 
those 10 faces because I am always full. You have heard the 
testimony about how hard it is to get somebody in addiction 
treatment and I am always full, and I looked at those 10 faces 
and five of them were OxyContin patients, although one of them 
would--probably the cocaine beat out OxyContin by a little bit. 
I think it has been an interesting and very intense past couple 
of years. I see the number of patients decreasing.
    I would want to say one other thing, and I think it is 
important because it got lost in the--sometimes gets lost in 
this whole big picture. The Federal Government funded a large 
study several years ago called the Epidemiologic Catchment Area 
study that basically showed in the United States that about 
13.5 percent of adults will at some point develop alcoholism 
and about 7 percent of adults in the United States will at some 
point develop drug addiction. So if you look at those and you 
combine them, there is a background of addiction here that is 
prevalent. It is not an uncommon disease. This is a very common 
problem, addiction in the United States, and unfortunately so 
is chronic pain, and because the two things are so common what 
we have ended up with is a lot of patients who have both and 
they really do have both.
    We have heard about how doctors get worked. Well, they get 
worked sometimes by people who have legitimate pain, and one of 
the things I have really strived to do is to try to respect the 
fact that many addicts do have pain and you need to address the 
pain in an appropriate nonaddicting fashion at the same time 
you try to address their addiction.
    So with that as a background I want to make sure that folks 
had time for questions. I didn't want to go on any further.
    Thank you, Mr. Chairman.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Wolf. Thank you very much.
    Mr. Coots.
    Mr. Coots. Mr. Chairman, I am just a country preacher. I am 
going to make this as simple as I can be. The only reason I am 
here is Mr. Rogers asked me to come and we need help in eastern 
Kentucky. We have heard the police officers and all those that 
deal with the illegal side. I don't deal with the illegal side. 
I deal with the addicts on the street that says I want off and 
there is no place to go and nothing to do with, and that is who 
I deal with.
    I am involved with the group called People Against Drugs, 
as Rod Maggard alluded to, and there is a program at my church 
called New Life. It is all we can do. We do it every Saturday 
night. And the reason we do it every Saturday night is because 
there is young folks that come to us saying I am dying, I want 
off of this. I see young women go from beautiful young women to 
old ladies in a matter of months.
    I have personal experience with this because Joshua, he is 
with me today, got involved with OxyContin. He started with the 
so-called soft drugs and got involved with OxyContin, and it 
cost my wife and I our bank account. It broke us. People would 
tell me, like the good doctor said, send him to rehab. With 
what and to whom and who is going to pay for it? Because I 
didn't have the resources. I have friends at home that are 
prominent, that are broke today because they have paid the bad 
checks, they have cleaned up behind their kids, and they are 
your kid no matter what, and every time they do that they will 
promise to you they will not do it again and you clean up 
behind them and when you go to a rehab facility no matter where 
they are, there is none there.
    I never heard of a thousand dollars a day, you know, and 
you can set back and say I can send my kid. Well, I couldn't 
send anybody for $50 a day, and I wish I could tell you that my 
story is just unique but it is not. We normally have from 16 to 
20 people on a Saturday night. Some of those people are high. 
Some of those people are drunk. Some of them come to our--and 
they want off. Whether or not this drug is positive or 
negative--and I wrote in my statement if we had a creek that 
was poisoned, we would damn it up, we would divert it, we would 
do something with the creek but we would do something to keep 
it from flowing into our community and poisoning our water. 
OC's have changed, it has changed, as you already heard in my 
original statement from September that it was a dollar a 
milligram. Well, it is not that way anymore. It is more. The 
price has gone up, so the suppliers come from everywhere. Every 
rat in the community comes out with a pill in his hand. I have 
a friend that buried 12--well, the rate has gone up since 
September. I stood and looked at a little girl's coffin. 24 
years old, beautiful blonde headed young lady that OxyContin 
killed.
    Now if it quacks like a duck, walks like a duck and flies 
like a duck, it has got to be a duck. OxyContin is killing 
folks and it is killing them now. I have heard the question 
asked, would you take it off the market? It is on the market. 
How do you go back to 1996 and jerk it off the market? We have 
got to deal with what is there. I don't know what this 
committee hopefully will do with it, but you've got to do 
something from 1996 up until now. Those are the people I am 
dealing with.
    If the company wants to do something, see me after this, 
whoever is here for the company. I will give you some place to 
put your money. If I can ask the Congress, I will give you some 
place to put your money. For people who can't afford it, Mr. 
Rogers, please. A company has already given us buildings, but 
when I went into the buildings the buildings need refurbished. 
There is no money there to do it. I don't have it. What do you 
do? Well, I can tell you one thing that what we are doing now 
is not working. He said 30 percent and that is not running him 
down. How about 60 or 70 or 90 percent? Put them in jail? I see 
them every day in jail. I go see them in jail and Time 
Magazine--Newsweek Magazine went with me to jail and the lady 
looked at me and said are these the young people that are going 
to prison? Because they are good people, they are trapped. They 
are trapped with whatever drug it is, but they are trapped and 
this OxyContin helped--it was a better mousetrap. It might have 
been a better drug, and incidentally in my statement I also 
told you, and it being part of the record, that my dad is a 
coal miner and being a coal miner, he has black lung and they 
gave him medications that actually eat the bones up over time 
and his back breaks. The bones in the back are the thinnest and 
they break. The only thing that would relieve his pain is 
OxyContin, and thank God for OxyContin at that time. It is not 
an easy question. It is not. But it is awful when I look at a 
young man who has lost his wife, his two children have been 
taken away from him and they are with a relative who supposedly 
is dealing, and there is nothing I can do, and he says let me 
go to the methadone clinic.
    Well, you are trading one drug for another and in our area 
it is $80 a week. I wish I had some real wisdom from God to 
tell you or tell the company do this and it would fix it, but I 
really want to plead with you and plead with our government to 
help us help these people at zero cost. I know it is another 
giveaway. I had to--we were allowed to send Joshua to a place 
called Mission Teens. They don't charge. There are no doctors 
there, but they are drug addicts who used to take drugs and are 
now off drugs and are counseling. He would do 300 milligrams a 
day. Somebody asked how many. He would do 300 milligrams a day. 
I once went to a hospital to visit a lady that called me. She 
said, Pastor, I want you to go see my daughter. She is dying, 
her kidneys have shut down and her liver is not functioning. 
And I knew she was an OxyContin addict, so I went. From her bed 
in intensive care, she said, ``How in the world--why am I here? 
Tell me why I am here. Joshua and I did drugs together. He did 
as much as I did and I am here.''
    How long? You ask how long? At least a year. You can't do 
this. They didn't do this in 2 months and they are not going to 
get over this in 2 months and then the community, somebody in 
the community, hopefully the faith-based people that like PAD, 
like Petri Baptist, like the First Baptist Church, like the 
Church of God in Macy Street will come out and say let us help 
you continue to be clean, and if they fall pick them up and if 
they skin themselves up, put a bandage on them. But we can't 
throw away an entire generation from 1996 to now and say, well, 
let us do something about it, okay.
    I too don't believe in drugs for two things. When I had a 
tooth pulled they gave me a Tylenol and told me to go to the 
house. That simple. I am a coal miner, I have got three 
ruptures in my neck and three ruptured discs in my back and a 
cracked vertebra, and no, I don't take drugs every day. We have 
come to the place somehow in our world--we have come to the 
place if it hurts you got to take something. Sometimes you have 
just got to get up and go do something and take your mind off 
the hurt and the hurt will go away.
    My point to you, please, please, I am begging as a pastor, 
a country preacher, I am begging you to do something, please do 
something for the country. Not enough money in the world was 
worth me looking at that little girl in the coffin and the 
church being full. She is dead at 25 years old. Nothing in the 
world is worth that.
    Thank you.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Wolf. Well, I thank you both for your testimony. I have 
a number of questions that we won't in the interest of time 
ask. Let me just ask one each. To the doctor, Doctor, I don't 
know if you were here when I was questioning Mr. Hutchinson 
from the DEA, but should have this been used--and if you don't 
feel capable, that is okay, but you would probably have a 
better understanding for moderate as well as severe pain or 
should it have just, you think, at the time the Food and Drug 
Administration approved it been used for just severe pain?
    Dr. Sullivan. Well, I did hear you ask that question, and I 
understood what you were saying because I think the hook was 
the moderate part of that comment. The company studied it 
originally for osteoarthritis as well as for bad lower backs 
and the doses that OxyContin worked on those was a relatively 
low dose. I think if the company had stuck--see, my problem is 
I think there is lots of other great medicines already on the 
market that would have worked fine and I think that if 
OxyContin had really stuck with a market of just severe pain, 
that would have helped. I think that wouldn't have solved all 
the problems because the problem is the drug formulation itself 
and I have to say that it is--you know, there is a disclaimer 
in the formulary when you look at OxyContin that says it 
shouldn't be altered because you might have a big overdose and 
you could potentially have a life threatening consequence if 
you alter this drug. That really works great except for that 15 
percent of folks who are addicts and rather than see it as a 
warning, they see it as an advertisement and so they use that. 
So I think even if it was marketed for severe pain, I think 
that the addicts would have found it.
    Mr. Wolf. You think it would have been to where we are now 
if it had just been severe or do you----
    Dr. Sullivan. Absolutely not. I don't think we would have 
gotten to the same point, because there was a period of time if 
you had osteoarthritis or a bad back, I know some docs felt 
like they were almost--I talked to the Chairman of Medicine at 
West Virginia who is a rheumatologist. He said when he went to 
a meeting he felt like he was being almost incompetent if he 
didn't prescribe this medicine for the conditions I just spoke 
of and that is--you know, once again I think that it was pushed 
a little too hard. I understand that the company had wanted a 
medicine that would make them some money but also do a good 
job, but I think it was pushed too hard.
    Mr. Wolf. The last question for you, Doctor, is if there is 
any one thing where we are today unfortunately, but where we 
are, what do you think it would be that either the Congress or 
the company could do to help us remedy or deal with the 
problem?
    Dr. Sullivan. Well, I don't know. You know, part of me, I 
don't know if I want to address the OxyContin specifically. I 
come from the treatment aspect of this and I can tell you that 
addiction is a reality and treatment services, as you have 
heard repeatedly, are woefully inadequate. What we really need, 
if I could do one thing, is a level of treatment that virtually 
doesn't exist, and that is low cost residential treatment, 
because for addicts to get better it takes time and it takes 
time away from the problem and a low cost residential treatment 
I think would be--the system would be very helpful.
    Mr. Wolf. Well, I agree. I think the whole effort with 
regard to the law enforcement aspect has been a little too 
difficult insofar as I was in a group of federal prisons 
earlier this year and what some of the people needed was 
rehabilitation more than they needed imprisonment. I think Mr. 
Mollohan had a very good idea with regard to that because we 
don't want to have it whereby this is a form of illness whereby 
they can never again have a federal job or never do something.
    So I would think you are exactly right. Maybe with some of 
that money that was earned through different law enforcement 
proposals with regard to asset forfeiture, a portion of that. I 
have never felt we put adequate funding with regard to 
education and rehabilitation, particularly rehabilitation, 
because you can't just use someone up and throw them off to the 
debris.
    Also, lastly, without getting too brutal about it, we are 
going to be putting in legislation, maybe before the end of 
this session if this session ever ends--hopefully Friday, so we 
may miss it--a bill dealing with prison rape. Rapes in prisons 
are brutal. Prisons are brutal. It is just a brutality. So 
there are some people that you have to put in prison, but there 
are other people that they really ought not be there, and so 
anything we could do, Mr. Mollohan and I would be glad to.
    With regard to you, Reverend, I thank you for taking the 
time and publicly coming forward. If you could tell me, and 
there is a representative from the company here, and other 
representatives--I guess DEA has someone here and others--what 
is the one thing that the Congress or the government or the 
company could do to deal with the problem, as you see it, where 
we are today?
    Mr. Coots. I think--basically I think the President had a 
wonderful idea. I know that it doesn't set well with some, but 
to use the faith-based initiative to tie us, the ministry, 
together with the problems that we have. One of those things 
that we have tried to do or we are trying to do, but everywhere 
we go we end up with red tape, when we were looking just to 
open a center, we wanted a place where we could have a crisis 
center. I have people come to me looking for a place to stay, 
and there is the homeless shelter, but there is no place to 
actually take someone with drug problems in our area. So for me 
it would be for us to come together as two units to solve one 
problem that took a generation from us. I don't--money-wise, 
the figures just alluded me because they get--when you start 
talking about what we consider professional help, you can't 
hire a good doctor or a good counselor for $10,000 a year. It 
can't be done. You can't hire a residential housekeeper for 
that kind of money. So it is going to--we either spend the 
money in jails or in courts or we spend them trying to put 
together a system that will help our children.
    God never intended for us, for them, to live like that. He 
never intended for a nine-year-old, as was in the testimony 
today, to lie in bed with dog feces. He never intended for a 
21-year-old, 17-year-old, a 19-year-old to die. He never 
intended for a brother and sister to die on the same day with 
OxyContin. God intended only good things for us. And they have 
no thought for tomorrow. They have no future. Their future is 
from pill to pill, from substance to substance. And somebody 
has to stop them, and if we can't hire those folks, then let us 
put together a faith-based program where we do have the good 
doctors, like my colleague here, that can at least assist us 
with some help and point us in the right direction and let us 
please help them.
    Mission Teens does that. And there are drug addicts in New 
York and New Jersey, and they will tell you I am not a drug 
addict anymore. 20 years they have been off drugs. They know. 
Nobody knows better than they know. So to put it together, 
first of all we need the housing. I have got the buildings, 
folks. I just need some help putting the buildings together in 
eastern Kentucky. Those type things. If we could do that, it 
would help.
    Mr. Wolf. Mr. Serrano.
    Mr. Serrano. Mr. Chairman, I don't really have any 
questions. The last questions you asked them were really the 
ones I was trying to find out, what we can do. And perhaps for 
you, Doctor, is the treatment understood to be any different 
than treatment in the past for addiction or is it the old 
question, are all addictions the same?
    Dr. Sullivan. Well, you know, OxyContin is a fast moving 
train but it was just the most recent train on the tracks and 
drugs of addiction have been around for a long time and they 
sort of tend to move around and new ones come along all the 
time. The treatment is pretty well known and was fairly well 
established in the 1960s and 1970s, and, you know, the 
outcomes, the best outcomes are when you provide long-term 
treatment. Short-term treatment, in and out, 2, 3, 4, 5, 6 
days, is almost worthless, not completely but almost worthless. 
It is only when you can really engage an addict in a longer 
term meaningful relationship that you can start really making 
some moves on the big things that are important in people's 
lives in terms of how they organize their lives and education, 
who they live with and how they see themselves and get some 
time under their belt, that they start to get better.
    To be frank with you, I am pretty frustrated. I have lived 
with this whole system 15 years and I am frustrated because it 
is so difficult in this environment to really treat people. You 
can't keep them long enough to really do good.
    Mr. Serrano. Mr. Chairman, let me just say that this issue 
that you brought up today and that this subcommittee has taken 
up today may open up a discussion of how we deal with drug 
addiction in this country. It seems that for a while we have 
continued what we were doing and not revisited the question, 
and I would agree with you, Doctor, as I said before, friends, 
closer than that, folks that I have known all my life, and some 
have been wasted totally, some have died, some have never 
recovered, but the ones who are doing better because, you know, 
a drug addict is never cured----
    Dr. Sullivan. Right.
    Mr. Serrano. An alcoholic is never cured. It is just one 
day at a time, and how much love and respect you get helps you 
stay sober that one day to see what happens tomorrow. The ones 
who have been able to say I have been okay for the longest 
stretch, other ones who are able in my experience, to go away 
for a while, go into a community, be it locally or in New York 
City, upstate where you see some trees and some grass and stuff 
and be able to have a community atmosphere, those are the ones 
who succeed, and so perhaps, Mr. Chairman, what this will 
accomplish today is that because it is the latest addiction and 
it is one that is legal and then becomes illegal at the same 
time, that all of this will begin to take us down that road of 
looking at this again.
    We can spend a lot of time talking about how these people 
got this way and fight that and control some of that, but if we 
don't educate, as the doctor said, the gentleman who was here 
before, you know we in this country, and I am one of them, get 
nervous about what happens in the schools, but I don't think 
anyone should be nervous about telling kindergarten that drugs 
are no good. That should not be a problem.
    And I thank you both for your testimony.
    Mr. Wolf. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman. Let me talk to you, 
Doctor, about the typical OxyContin addict. Is their 
rehabilitation harder than it is for other drugs?
    Dr. Sullivan. Drug addicts in general have it more 
difficult than alcoholics do as a group. OxyContin addicts I 
have only had about the past 2 years, and I would say they are 
pretty typical for most opiate addicts, people with heroin, a 
number of other opiates. The bigger problem with the OxyContin 
seems to me to be when they leave the treatment it is so 
prevalent where they go it makes it difficult for them to stay 
clean for any length of time.
    Mr. Rogers. Do I hear you say that the OxyContin addict who 
recovers more frequently goes back to the use of the drug than 
other drugs?
    Dr. Sullivan. It is hard for me to say. There has been less 
recovery from OxyContin probably in general than other opiates, 
once again because I guess their environment they go back to so 
frequently is poisoned for them. The ones who do get better--
let me say in West Virginia we have five halfway houses and if 
I can get an OxyContin into one of those halfway houses, which 
is a rare commodity to come by, if I can get them into that, 
they do better. That is the ones that have gotten some 
legitimate and consistent recovery.
    Mr. Rogers. Many people would say that Oxy abusers are 
nothing more than habitual, everyday drug abusers, that they 
are merely moving on to the next drug in their never ending 
cycle of abuse. Do you agree with that?
    Dr. Sullivan. I am glad you asked that question. I always 
check that on my patients and it is interesting to me that I 
find most of the OxyContin patients who I get in used to be 
hooked on something else. Now, I would say at least half of 
them, even though they may be chronic pain patients, at least 
half of them were alcoholic and who quit drinking alcohol and 
moved on to the pills and have gotten hooked on OxyContin. Of 
the five I have in treatment now who are hooked on OxyContin, 
they clearly had a history of alcoholism even though they may 
not have drunk now for several years and have done pills 
instead. So I think most of the time when you have somebody who 
is hooked on OxyContin, not always, but most of the time what 
you will do is either find a personal history of addiction that 
predated the OxyContin usage or you will find a family history, 
a very strong family history of either alcoholism or drug 
addiction in either one of their parents or grandparents.
    Mr. Rogers. So are you saying that the typical Oxy abuser 
is not a first timer on the scene?
    Dr. Sullivan. Typical Oxy user is not a first timer on the 
scene. I have a 22-year-old man in treatment right now. He had 
two DUIs by the time he was 19 years old. He hasn't had a drink 
since he was 20. He has been on OxyContin for 2 years. He has 
been shooting an IV for the past 3 or 4 months. That is a very 
typical young story of people I get in.
    Mr. Rogers. Reverend Coots, I don't think you would agree 
with this, would you?
    Mr. Coots. No, I wouldn't.
    Mr. Rogers. Tell me your views about a typical abuser.
    Mr. Coots. Can I introduce somebody to this committee?
    Mr. Rogers. Absolutely.
    Mr. Coots. Joshua, would you come and sit with me here? I 
want you to see and I wish I could have a picture that I could 
set here, before and after.
    Mr. Rogers. This is your son?
    Mr. Coots. This is my son. If you met him, if you want a 
used car, he will sell you one. He don't even have a car lot 
but he can sell you a car. These people are--the ones that I 
deal with are very, very intelligent, very intelligent. He 
talked a lady into selling him a car and didn't have a job, 
didn't have a down payment and got the car through the bank. 
That don't happen. My point to you is when I--the people that I 
am looking at in eastern Kentucky may be different from where 
the good doctor is from, but people I am looking at from 
eastern Kentucky, some of them have histories. I have no one in 
my family that I know about that is an addict, to my great 
grandparents, but my point is if you take a drug, and this is 
what I have been told, if you take a drug that as soon as you 
shoot it--please don't be offended by this, anyone, but as soon 
as you shoot it, it is like having an orgasm for 6 hours, you 
are warped. And no matter what you do you can't become 
unwarped. You don't just forget that drug. I had a young lady 
24 years old that was in rehab with him, said it is my mother, 
it is my father, it is my sister, it is my brother, it is my 
lover, it is my everything to me. It doesn't matter. She is 
free and he is free today, but he will fight the battle 
tomorrow and the next day and the next day and the next day and 
the next day, and he has to have somebody there in his corner. 
All of them can't leave home, all of the drug addicts can't 
leave the door, Mr. Serrano, so somebody has to stay there and 
help. And I wish we could take this gentleman home with us. I 
would take him home with me and keep him there if he would stay 
down there and help us, but you can't.
    Mr. Rogers. Reverend Coots, can I ask you about your son's 
case?
    Mr. Coots. Sure.
    Mr. Rogers. How long ago did this start and how did it 
start?
    Mr. Coots. He started drugs about 7 years ago and he 
started drugs on his own admission because he wanted to fit in 
with the crowd at school.
    Mr. Rogers. You are talking about OxyContin?
    Mr. Coots. No. He started out with smoking dope, smoking 
pot. In eastern Kentucky someone said that is our national 
crop. You know, we have got policemen and DEA agents and 
everybody flying all over, everybody, and we see it every year, 
but now they are turning this crop into pills, they are trading 
marijuana for OxyContin. People in the cities like the 
marijuana and people in the cities like to export the 
OxyContin, I guess. I don't know, but he started there and he 
progressed, and nothing we could do.
    Mr. Rogers, the bad thing about it is Carlene and I didn't 
know what to do. We had no place to go, there were no centers 
to go to and say, look, I have got a problem with a kid. Now 
these parents come to us. I ignored him. I beat on him, and 
this is truth. I am not proud at all. I ignored it. I beat on 
him. I did everything wrong until I started saying, wait a 
minute, you are my son, I love you and you are better than 
this. And that is when we started to get better and I said that 
we started to get better.
    Mr. Rogers. So he started with marijuana?
    Mr. Coots. Yes.
    Mr. Rogers. And then what other drug?
    Mr. Coots. Thorocets, Percocets. It is a gradual thing.
    Mr. Rogers. When did OxyContin come into play?
    Mr. Coots. Two years ago.
    Mr. Rogers. And were you aware at the time that he was 
using OxyContin?
    Mr. Coots. I didn't want to be aware. I am a pastor. A 
pastor's kids are not supposed to be there, you know. I 
didn't--yeah, we were aware. Yes, me and my wife were aware but 
we didn't want to be and we said this will go away. We have got 
two other children, and Jeffrey liked to drink and the drinking 
went away. This didn't go away. It just got worse.
    Mr. Rogers. So what was the final straw that broke the 
camel's back?
    Mr. Coots. He--one of the things he did is he stole a book 
of checks from our church and he wrote--him and some of his 
drug buddies wrote checks to the tune of $3,000 on the church, 
broke into his brother's house and stole checks and wrote 
checks there and was arrested, and our local judge when I went 
to talk to him--of course I am dealing with other drug addicts 
too, and I went to talk to him. He said let us rehab, and I 
said okay. So we gave him an option, go to the local county 
jail, and our county jail is not pretty, and I think all county 
jails ought to be ugly. One thing that bothered him about the 
county jail is the toilet sitting right in the middle of the 
floor. I think there ought to be a toilet right in the middle 
of the floor wherever they take him. When they took him down 
there, I told him it is rehab or jail. So we trapped him. That 
is what we did, Congressman, we trapped him.
    Mr. Rogers. So I gather the rehab has worked?
    Mr. Coots. Up to right now.
    Mr. Rogers. How long ago did the rehab begin?
    Mr. Coots. June of this year and he just come home in 
November?
    Mr. Rogers. So he is living at home with you?
    Mr. Coots. Just behind me. I watch him a lot.
    Mr. Rogers. What is your son's age?
    Mr. Coots. 22.
    Mr. Rogers. Now, this among other things has spurred you at 
home to begin a crusade of sorts in your community?
    Mr. Coots. With other pastors, yes.
    Mr. Rogers. With other pastors. Tell us about that.
    Mr. Coots. We met--excuse me. It has been so long ago I 
don't remember the date, but we met and had about 400 people 
come together and I finally admitted I had a problem with a son 
and then other people would come up to me and say I have the 
same problem, and then they got to trusting me. I ended up 
being the chairman of the recovery committee for the PAD group, 
People Against Drugs, organization we started there and worked 
with them I guess 6 or 8 months and that group has--we are 
doing everything that we know how to do to help our community.
    Mr. Rogers. Is that strictly a local group?
    Mr. Coots. I think now it is probably all the way in 
Virginia.
    Mr. Rogers. But it started in Hazard?
    Mr. Coots. Yes. I didn't have the time to tend to four 
other places, so I deal with strictly our local community.
    Mr. Rogers. And you don't get any Federal funds for it?
    Mr. Coots. No.
    Mr. Rogers. You don't get any state funds?
    Mr. Coots. No.
    Mr. Rogers. It is all what you can gather locally?
    Mr. Coots. Whatever I can beg and twist somebody's arm to 
get, yeah.
    Mr. Rogers. Tell us what you do.
    Mr. Coots. Right now we have a Christian 12-step program 
that is going on in Petri Memorial. We have got what we call 
New Life at our church and we deal with 7 Steps to Freedom 
which was--is actually a program written by Neil Anderson, who 
is a noted psychologist dealing with addictions, and we love 
them a lot because these people, by the time they get to us 
nobody loves them anymore, nobody wants them around, nobody 
cares.
    Mr. Rogers. So I gather you have the community's ministers 
pretty much all involved in the group?
    Mr. Coots. I wish I could say that. Yes, some. Some don't 
want to be bothered.
    Mr. Rogers. What percent would you think you have?
    Mr. Coots. I wish you hadn't took me there. Probably 10 
percent.
    Mr. Rogers. Do you have a lot of public support?
    Mr. Coots. Yes. I have businesses. We hoped an office in 
Hazard and I just went to the businessmen. They paid for the 
entire office, phones, everything was paid. We did the office 
for 6 or 7 months. The businesses in our area and the people in 
our area, yes, we have public support.
    Mr. Rogers. You mentioned the place where your son went for 
rehab, and I forgot the name of it.
    Mr. Coots. It is called Mission Teens.
    Mr. Rogers. Tell us about that.
    Mr. Coots. It is a program that actually absorbs their 
entire day and it is biblically based, so they are reading a 
lot of Proverbs and a lot of Psalms, and if they steal they are 
going to read a lot about stealing and if they are destructive 
they read a lot about destruction. And what they do is they 
took Joshua, who had a terrible attitude, and they kind of 
molded him because they took him in and they said here are the 
rules.
    First of all, these people don't follow any rules anymore. 
The only rule is give me something to shoot in my arm, and 
tomorrow the same rule applies. So they break all the rules. 
They steal, lie, they do everything that normal people wouldn't 
do. So what they do is they put them in a structured, really 
structured, I call it Biblical Bootcamp, and they put them in a 
real structured area. You can't go through this door, you can't 
open this window, you can't sit in that chair and if you do, 
there is a consequence and it is an immediate consequence to 
pay. It is not a terrible consequence, but it is a consequence. 
Joshua got to write a lot of--entire chapters out of the Bible 
and he would call the first week, and the second week he was 
there he wrote us and said you people are not my parents, you 
are the most awful people in the world, I hate you, I will 
never come home. And the good doctor is shaking his head.
    It is the worst thing because he went from a no structured 
world into a structured world. From 7 o'clock in the morning 
every hour was taken up until 10 o'clock at night and their 
world is upside down. You have to understand that we live in a 
day world; they live in a night world. They live in an upside 
down world. So they are up all night and sleep all day. They 
are chasing drugs all night and sleeping all day.
    Well, they took him out of his upside down world and put 
him in the right side up world, and he couldn't do anything. He 
couldn't call. There was nobody who could get in contact with 
them except us, the family, and he had to do it by letter. And 
you would be surprised how much more information you receive in 
a letter than you would with a phone call. What he felt in his 
heart would come out of those letters, what he would--then he 
started writing this is the best thing that ever happened to 
me. When he finally--the detox was over and all of the 
withdrawal was over, he started, ``This is helping. Dad, you 
guys really did good.'' and then he would revert back. He would 
get blessed, and a blessing was not a blessing. It was called a 
blessing, but it was something that he had done wrong. You 
could see it in his letters. And then we started to see him 
grow and he got better and as the months went by, as I 
indicated, months went by, he got better and better and better 
and then he said, ``Dad, I want to come home.'' I said, ``Are 
you ready to come home?'' ``Yeah. I want to come home.'' ``Are 
you ready to come home?'' He said, ``Yeah, I can come home.''
    I told him the other day he can't go back to the old 
friends. That is the reason for New Life. You can't go back to 
jump in the same pit. That is where we come in. That is where 
our church comes in and churches like us come in.
    Mr. Rogers. The Mission Teens, is that a church group?
    Mr. Coots. It is a nondenominational group. Actually it was 
started in New Jersey and they have got 12 centers across the 
United States.
    Mr. Rogers. And where did your son go?
    Mr. Coots. He went to Brazil, Indiana, where they make 
Clabber Girl baking powder.
    Mr. Rogers. Is this a free rehab program?
    Mr. Coots. Yes.
    Mr. Rogers. It doesn't cost you anything?
    Mr. Coots. Didn't cost us anything.
    Mr. Rogers. How is it supported?
    Mr. Coots. Donations just by people like us. Our church got 
involved, other people get involved. By donations.
    Mr. Rogers. So in your opinion, you know him better than 
anyone except perhaps his mother, is he over this thing?
    Mr. Coots. No, he is not over it. He is better, but he is 
not over. I don't know--from all the professionals I read, I 
don't know if he will ever be, quote, over, but he is better.
    Mr. Rogers. But he is not using it?
    Mr. Coots. No.
    Mr. Rogers. Is he using any?
    Mr. Coots. No.
    Mr. Rogers. That is what I meant by being over.
    Mr. Coots. Yeah.
    Mr. Rogers. It will take perhaps a lifetime of commitment 
on his part to stay clean, but I would hope that appearing here 
with you in this very moving setting before a national 
television audience would encourage him even more.
    Mr. Coots. I would, too.
    Mr. Rogers. That is one of the sidelines I would hope from 
this hearing.
    Mr. Coots. Could I add one thing to that, Congressman? The 
thing that we find when they do come down and they are clean, 
they don't have anything to do. They don't have anything to do 
with their time because the community knows they are a drug 
addict. Normally they can't get hired. Nobody wants anything to 
do with them. He had a tough time getting a job, and he got a 
job. As a matter of fact, he got two jobs. But my point--the 
reason that I mentioned it is because coming out of that, they 
can't go to nothingness again. They have got to be 
constructive. So we have to have something for them to do, and 
that has to be a part of the marriage I was talking about 
between the faith-based and the Government hopefully or the 
companies or whoever, wherever we can get the money, so they 
have something to do and they can't just go back and sit and 
think about that again.
    Mr. Rogers. Well, I appreciate very much your traveling 
here, you and your wife and your son. It has been very helpful, 
very moving. I certainly want to tell you how much I admire you 
for taking the stand publicly the way you have, under very 
difficult circumstances. You are to be commended for what you 
and your wife have done publicly in this matter.
    Mr. Coots. Thanks, sir.
    Mr. Wolf. Mr. Mollohan.
    Mr. Mollohan. Thank you, Mr. Chairman. Again it is an 
excellent panel, riveting testimony.
    Reverend Coots.
    Mr. Coots. Yes.
    Mr. Mollohan. You indicated that months went by during 
Joshua's treatment and he went in for treatment in June and 
came back in November?
    Mr. Coots. Yes.
    Mr. Mollohan. About 6 months.
    Mr. Coots. Uh-huh.
    Mr. Mollohan. You indicated that he made gradual progress 
during that period, as was evidenced by your letters, and your 
communication with him. At some point you and Joshua decided, 
and the family decided, it was okay for him to come home. That 
is a long treatment. Six months seems like a long treatment. I 
don't think it is a long treatment for this illness, but it is 
very difficult to get people to submit to that long a treatment 
program.
    Was he under court order to go to this program?
    Mr. Coots. Yes, sir. That was the trap. And I would 
recommend for any parent who has a child that has an addiction 
with OxyContin, especially a child that is over 18 that you 
don't have any control over, trap them. There is nothing wrong 
with trapping them for help. I firmly believe if we hadn't 
trapped Joshua, he would be dead today.
    Mr. Mollohan. You said OxyContin because that has been your 
experience. Do you think your advice to a parent who had a 
child with any other opiate addiction, or any other addiction 
as far as they are concerned, would be any different for them?
    Mr. Coots. Yes, sir. We see alcoholics, like the good 
doctor said. An addiction, you are--an addiction is an 
addiction. You are controlled. Any life-altering problem has to 
be intervened. You have to intervene somewhere.
    Mr. Mollohan. So your answer is, yes, your advice would be 
the same for any particular addiction, an opiate addiction, 
which OxyContin is?
    Mr. Coots. With qualification. In our area, I already work 
with the courts in our area, both circuit and district, and 
both judges in our area are open. They don't want to put these 
young people in jail, because it doesn't help. They go in jail, 
they are back in jail again. What they want to do is get them 
into treatment, and that is what we do. Now I am working with 
actually two counties, possibly three counties, with the same 
court systems. If the court systems--all court systems should 
work the same way to help these young people get help. So he 
was arrested. It was a sentence that he would have served 2 to 
5. Aren't you going to serve 2 to 5? Or are you going to go 
here? And it was mentioned diversion. It was diverted. So if he 
does well, he is still walking the line. He is going to watch 
him for 2 years. He was diverted.
    Mr. Mollohan. And he is on probation for 2 years?
    Mr. Coots. Well, it is actually not probation. It is 
diversion. So there won't be any record of Joshua if he 
continues to be well in these 2 years.
    Mr. Mollohan. There won't be any criminal record?
    Mr. Coots. Won't be any criminal record.
    Mr. Mollohan. Within the criminal system you talk about 
being trapped. That is a criminal system phenomenon, that you 
use the criminal system to trap the addict in order to achieve 
a desired treatment result. Correct?
    Mr. Coots. You have got to do what you have got to do.
    Mr. Mollohan. Right, but that is what trap means, that you 
use the criminal justice system.
    Mr. Coots. Yes.
    Mr. Mollohan. We are all looking for other alternatives to 
deal with this problem and to achieve the desired result, which 
you are describing here. I hope that Joshua, after this period, 
stays with it. We are all trying to look for better tools in 
order to do that. If you had a civil procedure you could use 
that might be helpful. Perhaps it is a judge or perhaps it is 
some sort of a magistrate, but in any event, it is a due 
process proceeding, whereby you would establish, under some 
carefully construed criteria, a drug addiction status, an 
active drug addiction status. Then, if the individual was 
certified with that condition, there would be a confinement, a 
treatment program which would involve confinement and 
separation, that would have been a lot easier way to achieve 
this, wouldn't it?
    Mr. Coots. Sure would, and it would have been a whole lot 
faster than trying to----
    Mr. Mollohan. Trying to trap?
    Mr. Coots. Well, we had to wait. We had to wait until he 
did something. He stole everything in our house, but we 
couldn't prove he stole it.
    Mr. Mollohan. You are also waiting for him to do something 
serious or die in that same entrapment process, aren't you?
    Mr. Coots. Yes, sir.
    Mr. Mollohan. But it would be far better, and probably 
cheaper, because this young man and every other young addict 
would not be out there doing the things that they have to do in 
order to support their addiction. They are compelled by that 
powerful sentiment that you described--one of the most powerful 
feelings we have as animals--the orgasm.
    I was very taken with your testimony, because to me you 
have tied up all of the pieces with your story. It was a very 
brave thing for both of you to come and do that. You tied up 
the incentive, which in this case has to be the criminal 
system. You needed some period of time that you have to be 
incarcerated or incentivized to stay away from the drug as well 
as the aftertreatment program. I really want to compliment you 
for putting together, an after treatment program because it 
sounds like you are putting together a very strong aftercare 
community.
    Mr. Coots. We are trying.
    Mr. Mollohan. Yes. This is very much to your credit. You 
have touched on a lot of the key points that need to be 
considered as this country moves forward in dealing with this 
problem.
    OxyContin, of course, is the latest wave. It and the other 
addictions are rampant in our society. So your case study, I 
think, is very illuminating, and brought forward here in this 
way with this kind of publicity I hope will be a basis for 
Congress and the legislative bodies throughout the country to 
reconsider how they treat this, basically as a criminal matter. 
It could be far cheaper and humanely and accurately treated on 
the civil side.
    Dr. Sullivan, I wondered if you, hearing this case, can 
extrapolate from it and comment on it. Is it a case that is 
similar to the other addictions that you deal with? Can you 
comment on what are the advantages of the prospect of treating 
these situations on the civil side rather than the criminal 
side.
    Mr. Sullivan. Well, to the first question, I would say that 
Mr. Coots' story is pretty typical, and the outcome is 
certainly better than most, but his story of how he got there 
and where he ended up and before he finally got the treatment 
is a pretty--is a pretty typical story.
    I want to also make sure that the committee understands 
something I said earlier. Not everybody who has addiction or 
has alcoholism has it in their family. It is very common for 
that to occur, but it doesn't always occur, as apparently in 
this case.
    I think that the other comments you made are--you know, 
about the way that we might go about getting people into long-
term treatment is long past overdue. I think that would be a 
much more efficient and effective way of trying to deal with 
this problem. I mean, the truth is right now, most people are 
getting their treatment in jail, and it doesn't make sense--we 
don't treat any other medical disease that way. We don't treat 
any other disease that way. We need to figure out a way that 
people can get in--a cost-effective way, because I am also 
sensitive to this whole cost issue, figure out a way to get 
people in treatment. And I think if we can do it through the 
civil means, then we should.
    Mr. Mollohan. I thank all the witnesses, and, Joshua, good 
luck to you.
    Thank you, Mr. Chairman.
    Mr. Wolf. I thank you very much.
    Well, I want to thank the panel. Joshua, we appreciate you 
very much coming forward, and your dad. And, Doctor, it was 
interesting watching when the Reverend was testifying, you were 
validating--I was watching you shake your head, and you were 
saying, you know, everything you just finished saying, and you 
two would make a great team.
    Dr. Sullivan. Yes. Well, I agreed with almost everything he 
said.
    Mr. Wolf. It was really kind of fascinating. I appreciate 
both of you driving so far to come here. Hopefully--you know, 
we have been here for 4 hours and 10 minutes, if I can keep 
time, and we haven't lost anyone--and everyone stayed, which is 
good--and everyone up here is busy, and I know everyone has 
missed meetings today, but I think you have gotten the 
attention of the committee, and this is a C-SPAN camera, I 
read. It says C-SPAN, serial number 1038, and so it has gone 
all over, and I think you really made a big difference, both of 
you, as has the recollection of the witnesses.
    And, Josh, you should be grateful for your dad, too, I 
think.
    But with that, we thank you all. I hope you have a safe 
trip home.
    Mr. Coots. Thank you.
                                        Tuesday, December 11, 2001.

                PHARMACEUTICAL MANUFACTURER OF OXYCONTIN

                                WITNESS

DR. PAUL GOLDENHEIM, EXECUTIVE VICE PRESIDENT FOR RESEARCH, 
    DEVELOPMENT, AND REGULATORY AND MEDICAL AFFAIRS, PURDUE PHARMA
    Mr. Wolf. The next panel will be Dr. Paul Goldenheim, 
executive vice president for research, development and 
regulatory and medical affairs, Purdue Pharma. And, Doctor, we 
apologize for keeping you so long. We had assumed originally 
that maybe this whole hearing would be over at 2 o'clock, but 
we appreciate your patience. And your full statement will 
appear in the record. You can--obviously I am not going to cut 
you short on anything, because you have been so patient to be 
here, but if you could summarize it as you see fit, and we will 
proceed.
    Dr. Goldenheim. Mr. Chairman, thank you.
    Mr. Wolf. Go ahead.
    Dr. Goldenheim. My name is Paul Goldenheim. I am the senior 
physician at Purdue Pharma and, as you noted, executive vice 
president for research and development. On behalf of Purdue 
Pharma, the distributor of OxyContin tablets, thank you. Thank 
you very much for taking the time to hold this hearing.
    We at Purdue are very distressed that OxyContin, which, as 
you have heard, is providing so much relief to so many people, 
is being abused as well, and we deeply regret the tragic 
consequences that have resulted from the misuse of this 
medicine. The availability of OxyContin is critical for 
countless patients who are suffering from moderate to severe 
pain, where a continuous around-the-clock analgesic is needed 
for an extended period of time. Unfortunately for those 
patients, concern generated by the abuse of OxyContin has 
mushroomed to the point that some patients are asking their 
doctors to switch them to less effective medicines. Some 
doctors are refusing to renew patients' prescriptions for 
OxyContin, and some pharmacies are no longer willing to carry 
OxyContin for their patients.
    At the same time, naive teenagers out for a thrill and 
others are misusing and abusing OxyContin, and other 
prescription medicines. For some, as we have heard today, the 
consequences are tragic. They do not understand that the abuse 
of prescription medicines can be every bit as lethal as the 
abuse of illegal drugs. This is a terrible problem for this 
country that we all must join together to address. This hearing 
is important and timely.
    Today's testimony bears on a very significant question of 
health policy, how to address the problems of abuse and 
diversion which accompany the sale of a controlled medicine 
like OxyContin without restricting its availability to meet the 
needs of doctors and patients for the effective management of 
pain. The question is neither new nor unique to OxyContin. 
While all the voices in this debate are important, we must be 
especially careful to listen to the patients who, without 
medicines like OxyContin, would be left in pain. Purdue 
frequently hears stories of how OxyContin has enabled patients 
to return to their families and to productive lives after 
suffering disabling pain. We urge you to talk directly to some 
of those patients. They are people who. Because of cancer, 
sickle cell anemia, severe back injuries or some other physical 
insult or disease have had their lives taken away from them by 
unrelenting pain.
    Amidst all the publicity and controversy, a few facts stand 
out. First, the problem of chronic pain in this country is 
enormous and expensive. According to organizations like the 
American Pain Foundation, an estimated 50 million Americans, 50 
million Americans, suffer from chronic pain, with a cost 
approximating $100 billion; $100 billion each year attributable 
to lost work days, excessive or unnecessary hospitalizations, 
unnecessary surgical procedures, inappropriate medications and 
patient-incurred expenses from self-treatment. But even though 
staggering, numbers fall far short from capturing the essence 
of chronic pain in America. Pain cannot be expressed in 
numbers. It is individual, and it is personal.
    Second, chronic pain has been historically undertreated. 
Only in this past decade has public and medical opinion swung 
decisively in the other direction based on the proven 
effectiveness of individualized therapy, including opioids, in 
treating pain and the targeting improvement in quality of life 
such therapy offers to patients.
    Third, OxyContin is widely recognized as a highly effective 
treatment for pain. When properly used under the supervision of 
a physician, it is also an extremely safe medication. Its 12-
hour controlled release mechanism affords an extended dose of 
pain medication, allowing patients to sleep through the night 
and to avoid sharp spikes in blood levels of medicines that can 
cause side effects. Many patients have told doctors and Purdue 
that OxyContin has given them their lives back.
    Once Purdue became aware of the problems of abuse and 
diversion of OxyContin, its solution became a corporate 
priority. Senior executives have met and worked with law 
enforcement authorities throughout the affected regions, as 
well as with FDA and DEA. Purdue feels strongly that 
prescription monitoring programs, PMPs, would help and wants to 
recognize and thank Chairman Wolf and this committee for your 
leadership in making funds available in this year's 
appropriation bill to assist States in this effort.
    Purdue supports the adoption by all States of prescription 
monitoring programs meeting appropriate standards. The PMPs in 
Kentucky and Nevada can serve as useful models. PMPs can reduce 
doctor shopping and diversion from good medical practices by 
giving physicians a way to identify patients who are receiving 
controlled substances from other doctors, and you have heard a 
great deal about that today.
    Purdue's number one research priority is to develop 
medicines that would reduce drug abuse, while at the same time 
function as intended for legitimate patients in pain. This is a 
formidable undertaking as there is no existing, proven 
technology to achieve this goal. Purdue will spend $50 million 
this year alone to research and develop new forms of abuse-
resistant pain relievers.
    Perhaps the single most important tool to prevent abuse is 
education, and we have heard a great deal about that today. A 
survey released last week by the National Association of State 
Controlled Substances Authorities, NASCSA, reveals that members 
of that group believe that diversion education and pain 
management education for prescribers are more effective than 
any other means of combatting prescription drug abuse.
    There seems to be a misunderstanding about our contacts 
with doctors and pharmacists, which we view primarily as an 
educational responsibility. Purdue sells and distributes 
OxyContin exclusively to distributors and wholesalers. As such, 
we comply with DEA restrictions and recordkeeping requirements, 
but our physical control of the tablets ends when we deliver 
them to the wholesaler.
    Our objective in communicating with doctors through trained 
sales representatives, literature and educational programs is 
to educate them about the proper use of OxyContin. Increasingly 
this educational role has focused on abuse and diversion.
    Criticism of Purdue's promotion of OxyContin tablets is 
squarely at odds with the facts. Purdue's marketing practices 
focus on the management of pain and on the proper use of 
OxyContin in patients for whom such a medication is 
appropriate. Responsible physicians will only prescribe 
OxyContin if it is the right product for their patients with 
pain.
    One of our great concerns is that naive teenagers are 
misusing and abusing OxyContin and other prescription drugs. 
Educating teenagers about the risks and dangers of prescription 
drug abuse is critical, and we have initiated an important 
program that we are calling Painfully Obvious. Materials are 
now being piloted in four test markets. We have established a 
Website at painfullyobvious.com. We want kids to know that 
prescription drugs can be every bit as dangerous as street 
drugs.
    The management of pain is a critical priority of health 
care in this country. OxyContin has proven itself an effective 
weapon in the fight against pain, returning many patients to 
their families, to their work, and to their enjoyment of life. 
We cannot turn back the clock. The answers to the problems of 
abuse and diversion require the cooperation of many elements in 
our community, many of whom were represented here today, in 
providing increased education, information, and enforcement, 
not restrictions that will deny patients effective treatment of 
their pain.
    Congressman, if I may just make a few more brief remarks.
    Mr. Wolf. Sure.
    Dr. Goldenheim. I think we heard some excellent testimony 
from the DEA today, and naturally we value our relationship 
with the DEA greatly. We have worked with them extremely 
closely during this period of time, and proactively. And in 
most all areas, we are in complete agreement, but I do not 
agree with the statement made here today that Purdue has 
marketed OxyContin aggressively. That is simply not the case. 
We have not promoted this product as less abusable than other 
opioids, and we have not promoted it as a substitute for less 
abusable opioids, unless those other medicines are failing. We 
have focused on education.
    I also have an example of the pen that was referred to. 
Each time the pen was distributed, it was distributed with 
complete product prescribing information, the package insert 
also in here, and the conversion chart that is referred to 
where it was suggested that we were encouraging physicians--I 
think the example that was given--to take a patient off Tylenol 
No. 3, Tylenol with codeine, which is indeed a Schedule III 
drug, a lower classification, and convert them to OxyContin, a 
Schedule II drug, a drug that has a higher abuse potential, and 
that is why it is in Schedule II, like morphine and 
hydromorphone and a variety of other drugs.
    The purpose here is to teach physicians how to use the 
drug. The point here is that if the patient's pain is being 
controlled on Tylenol No. 3, a couple of tablets here and 
there, that is what they should stay on, and that is what we 
want. The purpose of these conversion charts is for the 
patients whose pain is not being successfully managed, where 
the physician has determined that OxyContin is appropriate 
therapy for that patient. And then and only then under those 
circumstances this provides information on how the product can 
be properly used.
    I would just like to point out to the committee--and I 
would be happy to furnish these--that not only does every other 
pharmaceutical company distribute virtually the same set of 
guidelines, but prestigious medical societies and academic 
institutions--I have got one here from Brigham and Women's 
Hospital in Boston--distribute the same information. These are 
teaching tools, not aggressive promotional tools.
    Also, Representative Rogers, you were particularly 
interested in what our representatives did with the new 
prescribing information and had we done something other than 
just send out mass mailings, and I want to reassure you that 
all of the physicians--as we called on them after that new 
labelling was put into place, the new labelling information was 
reviewed in person with the physicians. Copies of the labelling 
were left behind. In addition, frankly, most of our efforts in 
the last 6 months in some parts of the country exclusively have 
focused only on education about abuse and diversion.
    Finally, if I may just address one other item that came up, 
I think that there may be a bit of confusion about the term 
``moderate pain,'' and I think an example that has been given a 
couple of times is a toothache. Clearly OxyContin is not, I 
repeat not, appropriate medicine for a toothache. The package 
insert is very clear. It has to be when an around-the-clock 
analgesic is needed, when this kind of analgesic is needed, an 
opioid analgesic, a narcotic analgesic, and where it is needed 
for an extended period of time.
    Well, those words have changed slightly. In fact, that has 
been the case since the start we launched this medicine. We 
have only wanted this medicine used for appropriate patients.
    It is not possible, however, to look at a level of pain--or 
excuse me, to look at a diagnosis and to understand the level 
of pain, so there is an understanding, for example, that we 
talk about cancer pain, we are talking about pain that is more 
severe than other kinds of pain. The fact is that cancer pain 
typically starts out as moderate pain.
    I think the distinction that we have to make here, and I 
think one of the Congressmen used the example of Advil or 
Tylenol, clearly if that pain, however significant that pain 
is--and tooth pain can be really quite significant, I think, as 
most of us know--if that pain can be managed with Advil, which 
is a very effective drug for tooth pain, then that is what the 
patient should be taking.
    The kinds of pain we are talking about are patients who 
have already tried all of those remedies. They have typically 
already tried things like Tylenol No. 3 in addition to the 
over-the-counter anti-inflammatory drugs and prescription anti-
inflammatory drugs, and now we are left with patients whose 
pain is just not responding to simpler measures. Those are the 
patients for whom OxyContin or other drugs may be appropriate 
therapy, and that is the opportunity for the physician to 
consider the use of those medicines.
    I would also point out that moderate pain, if it is day in 
and day out and unrelenting and not responding to anything 
else, can interfere with sleep, interfere with life, and can 
make patients miserable. And we know of examples of such 
patients, whether it is moderate pain or severe pain, but it is 
chronic and it is unrelenting, who have contemplated suicide or 
committed suicide.
    I think moderate to severe pain under the appropriate 
guidelines that I have talked about is where these other 
medicines should be used. Thank you very much. I am eager for 
your questions.
    Mr. Wolf. I thank you, Doctor.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Wolf. Do you still give that pen--that conversion pen 
out? Is that still part of your marketing?
    Dr. Goldenheim. I don't think--no. The answer is no. We 
still give out conversion information.
    Mr. Wolf. Do you market to dentists at all? Your 
salespeople go by dentists' office?
    Dr. Goldenheim. No, we do not.
    Mr. Wolf. How do the dentists then know about this? So you 
think it is inappropriate for dentists to be prescribing this?
    Dr. Goldenheim. I am sure there are certain kinds of oral 
surgery where there might be, you know, extensive pain for a 
long period of time. I am not a dentist, and I am not all that 
knowledgeable about that, but certainly the day-in-and-day-out 
dentistry, absolutely not. OxyContin doesn't have a role to 
play.
    As you well know, any dentist or any physician who has got 
a DEA license and an appropriate license to practice can 
prescribe medicines as he or she sees fit. We have never called 
on dentists and do not promote to them.
    Mr. Wolf. Your testimony runs a little counter to--is it 
Dr.--the doctor from West Virginia, Sullivan. He referred to 
that one doctor who felt that he was not serving his patients 
well if he did not prescribe this medicine, and yet--is Dr. 
Sullivan here? I guess he went home.
    I don't--I have some concern about the definition of 
moderate pain, and I guess it is all how you define it. I am 
not a doctor, and what I plan on doing is--and I don't plan on 
debating your marketing here. I am going to ask the Government 
Accounting Office, the GAO, to monitor your marketing strategy 
and phrase it in a fair and objective way to see if they 
believe there was excess or there was not excess, I think that 
would be more appropriate. And I will share that with the 
members of the committee, too, rather than me--my sense is the 
marketing has been excessive. My sense is that you have a 
product--and, again, I don't think we want to remove this 
product from the market, particularly for people with a severe 
pain like cancer. I don't know if you were here when I read my 
opening statement.
    Dr. Goldenheim. Yes, sir, I was.
    Mr. Wolf. Then you understand, I think. In those 
circumstances, we really want this to be available. The problem 
is it has kind of gotten out of that range. It has gotten out 
of the box now, and you really had to be impressed or 
depressed, whatever the case may be, by the testimony today by 
a very varied group of men and women who have testified to the 
pain and the suffering and the agony at the very time your 
medicine has certainly alleviated a lot of pain and suffering. 
And as I said, I wish it had been available when my mom was 
dying in a hospital just up in Philadelphia going through 
terrible, terrible pain. But on the other hand, the testimony 
of the last two panels talks about the pain and the suffering 
of Reverend Coots and the prosecutor from Lee County.
    I believe that you really--you really have to do more. I 
think education is very, very important. For instance, I had 
asked earlier--let me ask you this. With all of the doctors 
that you have marketed this to verbally, whereby you have made 
house calls, you have actually come by their office, where you 
have had them to conferences, have they all been spoken to 
personally the way they were when the initial contract was 
made? How many conferences have you held whereby doctors were 
flown in for this medicine?
    Dr. Goldenheim. We have not held any such conferences for 
over a year.
    Mr. Wolf. Of those doctors who had that opportunity to come 
to these conferences, have they all been invited back whereby 
you could verbally make the case that you are making now with 
regard to the potential harm?
    Dr. Goldenheim. I think the answer is yes. Let me just try 
to explain a little bit. What those conferences were, they 
represented a minor, minor portion of our medical education 
efforts. Most of our medical education efforts take the form of 
providing grants to educational institutions to enable them to 
provide a speaker for a medical grand rounds or a medical 
society. We might make a grant to the American Academy of 
Family Practice or some other prestigious medical organization 
for them to have a seminar at their annual medical meeting. And 
there might be two or three or four speakers on pain 
management. Sometimes topics of abuse and diversion were 
covered as well. Increasingly, of course, they are covered with 
great----
    Mr. Wolf. Let me ask you, how many doctors would 
participate in these conferences?
    Dr. Goldenheim. Again, these are not conferences where we 
provide any stipends for travel, sir. I think the answer to 
those is about several hundred thousand physicians a year. And 
again, let me emphasize, we don't pay travel. All we provide is 
a grant to an educational institution or a teaching hospital to 
provide speakers.
    Mr. Wolf. I assume they went to one--if you were from 
Philadelphia, you would go to the Philadelphia region or 
something like that?
    Dr. Goldenheim. Or the physician might be going to the 
annual meeting of the American Academy of Family Practice or 
something like that. I just use that as an example or collegial 
meeting of that society.
    Mr. Wolf. Well, would it not be a good idea to invite those 
doctors back to seminars to explain how perhaps the prescribing 
has gone beyond what you--because you have changed your 
marketing strategy. You are not using the pen anymore. You have 
done other things, to explain that based on information that we 
currently have, what you thought may have been appropriate is 
no longer appropriate.
    The point I was trying to make with Mr. Hutchinson, as a 
politician, if you go door to door, if I knock on your door and 
say, Doctor, how are you, my name is, I am running for office, 
there is that eyeball-to-eyeball, personal contact that we 
verbalize, I know what you are interested in, you talk to me, 
and then that makes a greater impact, assuming both are 
listening, there is an impact, versus I send a flyer through 
the mail. So for all the doctors you personally--not you, but 
your company personally spoke to, it may not be a bad idea--in 
fact, I think it would be a good idea to bring them back--back 
in, or give them the opportunity to come back in, whereby you 
could update them on marketing changes, on what the different 
pain thresholds were, what some of the potential problems were 
and different things like that, because if there had been a 
verbal communication marketing the product, I think there ought 
to be some verbal communication rather than just a letter.
    Dr. Goldenheim. Sir, I agree, and there has been. I think I 
have not been clear. Let me try again. The seminars, the 
symposia, the speaking engagements that I was referring to are 
not talks put on by Purdue or Purdue sales representatives. We 
simply provide a grant, let us say to a hospital, so that 
hospital can get a speaker who is an expert in pain management 
to talk to that group on Thursday at 12:00 o'clock when they 
have their normal grand rounds and talk to the doctors at that 
hospital about pain management. These are continuing medical 
education events. We don't control the program in any way. We 
don't have input into the program. This is a physician who is 
communicating information.
    I think the way that we have achieved your goal, if I 
understand you correctly, is that since the prescribing 
information was voluntarily changed by us in July of this year, 
every sales call that our representatives made after that to a 
physician in his or her office reviewed the new information and 
highlighted the change. So I believe we have had the kind of 
personal one-on-one, eyeball-to-eyeball communication that you 
are seeking and suggesting is more powerful, and I agree with 
you, than simply a mass mailing to 500,000 physicians. We also 
left the information with them, and every material that we 
leave behind at this point also has all of the new prescribing 
information.
    If I may, sir, we identified early on 100 counties based on 
many of the stories that we have heard today and that have been 
published in the media--we identified 100 counties in the 
country, most along the Appalachian spine, where we thought 
there either was a particular problem or we thought based on 
certain demographic and other variables, past histories of 
substance abuse, tobacco use, that sort of thing, there might 
be a problem, that a problem might occur.
    What we did in those hundred counties is we took those 160 
sale representatives back to the home office, gave them very 
intensive training, and sent them--by the way, in cooperation 
with the DEA. The DEA participated in that training, and those 
representatives for months now have been in those hundred 
counties only talking to those physicians and pharmacists and 
other health care professionals about abuse and diversion. We 
have told them about doctor shopping. We have told them about 
the scams that are out there. We have talked to them about the 
criminal acts that some physicians are doing, and we have made 
it clear to them that if they can't prescribe our product 
according to these guidelines with proper evaluations of 
patients, with proper recordkeeping, paying attention to all 
State laws and guidelines for the proper practice and use of 
these medicines, then we don't want them prescribing our drug. 
And that is what we have told them.
    Mr. Wolf. Well, in the testimony of Mr. Hutchinson on page 
5, he has the two charts. One is all common opioids, 
prescription in millions, which is levelly--increases 
gradually, but is almost flat, versus the one for an OxyContin 
prescription is a spike up.
    In your testimony, you note that pain management movement 
is relatively new, and the doctors have relatively little 
training in pain management. Why then would you market this 
potentially habit-forming drug to doctors, the majority of whom 
you say have very little experience with pain management?
    Dr. Goldenheim. Sir, with respect to the charts, I think it 
is important to note that we are looking at two very different 
scales. One starts from zero, because it is a brand new 
product, and the other is a mature set of products. In fact, 
the absolute growth in those mature products has been far 
greater than the growth in OxyContin.
    Mr. Wolf. Excuse me. Pardon me. The doctor said 10 of his 
beds in West Virginia had OxyContin.
    Dr. Goldenheim. Sir, I am not suggesting that OxyContin is 
not being abused. OxyContin is being misused and abused. It is 
part of a larger prescription drug abuse problem. I am simply 
trying to say I don't think that there is a clear connection 
between our sales curve, and I am trying to point out that we 
are looking at two very different scales there. Of course 
OxyContin grew more rapidly at that point in time. It was a new 
product. It was launched by a company with significant 
experience, and we knew how to educate physicians about its 
proper use. It was successful because it met a large unmet 
medical need. There are millions of patients suffering in pain, 
and the medical community and Congress, I would point out, have 
now recognized the importance of the undertreatment of pain.
    Mr. Wolf. You don't--this is not the only drug that you 
treat pain with. I mean, Schedule III, there are others in use. 
The concern is this is a drug that is being very much abused. 
Very few people are abusing Advil. Very few people are abusing 
Tylenol. Very few people, after taking Tylenol, are going out 
and robbing a nursing home in Boston. Very few people are 
robbing pharmacies for aspirin.
    And so in the interest of time, I have a number of other 
questions. I am going to recognize the other Members. What I am 
going to do, I think the marketing has been a problem. We are 
going to ask the GAO if they would examine your marketing, and 
some of the questions we were going to ask of you I will ask 
the GAO to look at, because then hopefully they can give us a 
fair analysis with regard to the whole marketing approach.
    Before I recognize Mr. Serrano, what do you think we ought 
to do? I mean, this is a problem. I mean, the Reverend is gone, 
but what should the Congress do? What should you do? Who has 
the greater responsibility? You know, in the first five books 
of the Bible, the Torah, it talks about justice and mercy. What 
is the justice thing? What is the just thing here? You have sat 
through these hearings, and you have seen the pain and the 
suffering, and do you have children?
    Dr. Goldenheim. Yes, sir.
    Mr. Wolf. Then as a dad, you would understand. You have 
seen the pain and the suffering and the agony, both of the 
individuals and also of communities. What do you think the 
government should do in addition to the prescription 
monitoring, and what do you think your company should do or you 
should do to make sure that this is put back in the box or--and 
to make sure that this doesn't happen again on--and I assume 
you are doing research on other drugs----
    Dr. Goldenheim. Yes, sir.
    Mr. Wolf [continuing]. To make sure what took place with 
OxyContin doesn't happen the next time around.
    So what do you think the government should do, and what do 
you think your company should do?
    Dr. Goldenheim. Sir, we have heard a lot of talk today 
about prescription monitoring programs, and we, to the best of 
my knowledge, are the only pharmaceutical company that supports 
them. We have provided the committee a statement of some 
guidelines and standards that we think are appropriate to 
consider, whether it is a Federal program or individual State 
programs. I think we have heard today the problems that are 
associated with only one State having a program like Kentucky 
with Casper, and what happens when a neighboring State doesn't. 
So clearly we have to remedy that problem. We are strongly in 
support of such programs that meet appropriate standards, and 
we are prepared to help solicit the support of the medical 
profession. I think that we need to do them in a proper way to 
garner the support of the medical profession.
    I think we need much more education about abuse and 
diversion, and Purdue has an enormous initiative under way. We 
need more education of teenagers. We have heard testimony today 
that up until recently, that their program had no materials on 
prescription drug abuse, and I think in most States still 
doesn't.
    Well, we are in the process of trying to remedy that and 
work with drug education folks in local communities, and we are 
test-marketing our Painfully Obvious program, because there is 
some notion that because it is still manufactured by a 
pharmaceutical company, it is completely safe, even if you 
crush it and inject it and wash it down with a six-pack and 
snort some cocaine, and that that is somehow safer than a white 
powder that you buy in a bag because you don't really know what 
you are buying, and, of course, nothing could be farther from 
the truth. These medicines, when they are properly used under a 
physician's supervision, are very safe and are very effective, 
but when misused and abused, they can be as dangerous as 
illegal drugs.
    So I think making progress on abuse-resistant 
formulations--and you have alluded to them--we are committing 
an enormous amount of money. We have hundreds of scientists, 
some scientists who are the most knowledgeable in this field in 
the country, working on abuse-resistant formulations, a 
formidable goal to produce a tablet that on the one hand 
produces pain relief to the patient, for the patient for whom 
it is intended, and on the other hand can't be tampered with or 
won't produce a high, no matter how clever the abuser is. And I 
think we have heard today that abusers can be very clever in 
how they seek out these medicines, how they pay for these 
medicines, and so we need to accomplish those two very 
different things for these two very different groups of 
individuals. And so we are striving to do that.
    Another thing that we have heard a great deal about today 
was prescription tampering. I am not aware that another company 
is distributing prescription pads. We allow doctors to order 
them any way that they want from the company, and we pay the 
bill. This is a very interesting pad. It employs six different 
technologies so that the prescriptions can't be tampered with. 
And as we have heard in some parts of the country, that is a 
significant source of the diversion.
    We also heard about a very unfortunate situation, a robbery 
yesterday in Mexico. Within minutes of learning about it, as 
you heard today, we notified the DEA. We had already 
voluntarily--and, again, to the best of my knowledge, we are 
the only company that has ever done this. We voluntarily 
offered to and did change the indicia, or tablet markings, on 
the tablets shipped to both Mexico and Canada, and we did that 
at a time when most law enforcement officials were not telling 
us that reimportation from Mexico was a major problem. It was 
only a possibility, but we did it because we thought it was the 
right thing to do.
    We take this problem very seriously. We have taken the 
leadership role. I welcome the GAO's investigation of our 
marketing practices, because they will find that we have 
focused on education. We have tried to teach doctors how to 
select the proper set of patients. We have tried to teach 
doctors how to use these medicines appropriately. We have never 
encouraged misuse and diversion of our product. We have never 
encouraged anybody to tamper with a prescription. We have never 
done anything that could remotely be suggested that it was a 
good idea for a criminal physician to sell a prescription. We 
are supporting prescription monitoring programs. We welcome the 
investigation. We welcome any ideas that Congress has of ways 
in which we could help ameliorate this problem. I think we need 
to balance here. We need to provide the medicines that these 
patients desperately need.
    I talked to a friend yesterday that I didn't know was 
taking OxyContin. It turns out she has a very complex general 
urinary problem and has a lot of abdominal pain and was getting 
relief from 10 milligrams of OxyContin twice a day. She stopped 
taking it out of fear of all of the media coverage that she 
would be called an addict when she goes into the pharmacy to 
get her medicine filled. We have to protect those people, too. 
Those people suffer. Addiction and abuse----
    Mr. Wolf. Yes. They do suffer. I don't think there is any 
question. But Joshua suffers. Hazard, Kentucky, suffers, the 
parents and many of them from Appalachia and inner city that 
have very little money, that aren't in Blue Cross and Blue 
Shield and health programs and everything.
    I think it is unfortunate that that is the case, and if she 
is able to go to the doctor and get the prescription and it is 
really helping, she ought to not feel that way. But there are 
many, the body count has increased. Mr. Hutchinson talked of 
people who have died of the overdose, that the community of Lee 
County literally has been devastated by it.
    So, maybe we should look at both sides, and you can stress 
that, because obviously that is to your advantage with regard 
to the case. But my sense is maybe your company could have 
moved faster and could have moved and dealt with the issue in 
Hazard, Kentucky, could have dealt with the issue in Lee 
County. And so those things have gone on.
    Maybe you should have been more involved. We will find out 
from GAO. But I think from here on out, and if this is the 
first drug of many that may potentially come down, we need to 
learn by this so that we don't have more cases and more 
families devastated by this, moms and dads. How would you feel, 
you know, if you had a situation like Reverend Coots, and your 
son or your daughter were involved, or he talked about the 21-
year-old daughter in the casket, the young lady.
    So there is a balance, and if that balance is that friend 
of yours, God bless her, and I am glad it is working, who feels 
a little funny when she goes to the pharmacy, that is not 
nearly as bad in the big picture when we look at it as Reverend 
Coots or the mom or the dad, the grandfather, the brother, the 
sister, with the young girl who was in the casket who died.
    Dr. Goldenheim. Sir, it is a question of balance, and not 
for one second am I suggesting that the pain and suffering of 
those two are the same. The answer to your question is if I had 
a child that suffered the same way that the Reverend's child 
did, I would be devastated, and if I lost a child as a result 
of this or anything else, I would be devastated.
    It is a balancing act. We have patients in pain who are 
committing suicide because they don't have access to the 
medicines they need.
    Mr. Wolf. But, Doctor, we are not--we--I can't speak for 
the whole committee, but I think I can in this. The committee 
is not looking to stop that whereby someone who needs it gets 
it. That is not the subject of this hearing.
    Dr. Goldenheim. I understand, and if there is anything that 
I said that made you think that I was only concerned about one 
side of the equation, then I haven't been perfectly clear. We 
take prescription drug abuse and the abuse of OxyContin very 
seriously. We have been praised by law enforcement in a number 
of communities for all of the things that we have done to try 
to reduce abuse and diversion, and we have heard in some of the 
counties in this country, Washington County, Maine, and Lee 
County, Virginia, that were bellwethers for this problem, that 
OxyContin abuse is beginning to recede, if you will, to 
baseline levels.
    Sadly, prescription drug abuse is still there. In Maine, 
there is more abuse of dilaudid now than there is of OxyContin. 
People are abusing heroin again. OxyContin is not the only drug 
being abused. It is the drug of the day in many communities, 
and we need to take that seriously, and we do, and we are doing 
everything we can that we can think of to try to stamp out 
abuse and diversion. We take this problem very seriously, sir.
    Mr. Wolf. Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman.
    Your last comment, Doctor, was going to be my first 
question. How seriously do you take it? The article in 
yesterday's New York Times--now, there are papers, and there 
are newspapers. This paper has a pretty decent reputation for 
its analysis of issues. Are they wrong, because they weren't 
exactly nice to your company at all.
    Dr. Goldenheim. Which statement in particular were you 
referring to, sir?
    Mr. Serrano. Well, the fact that your salesmen have been 
approached by pharmacists, for instance, and told that there 
was a problem, and that they said, no. I mean, that the people 
understood it was all about making money and not necessarily 
about what the results were.
    You see, here is the problem. Here is the problem. We live 
in a free and open society, and so you have the right to be the 
only manufacturer--you are the only manufacturer, right?
    Dr. Goldenheim. Of controlled-release OxyContin, yes.
    Mr. Serrano. And you have control over it, and you have a 
monopoly over it, and your role is to produce this, and you do. 
And in the process some people, as the Chairman has said, who 
are hurting get pain relief.
    But at the same time you can't be blind to the fact that 
there is a serious problem, and while you take it seriously, my 
question is what is your responsibility to deal with this 
problem? Have you taken that seriously? If you tell me, you 
know, we worry about this, this is a major problem, and you saw 
people here and it is growing in certain parts of the country 
and will eventually spread--what do you intend to do, or do you 
feel that that is not your role? In other words, when you 
produce something that relieves pain, is it--is it like Russian 
roulette? Is it, look, if it is relieving your pain, that is 
what we are in business for; if it addicts you and causes you a 
problem, that is you, not us? Some people may think it is you 
also, both sides of the coin.
    Dr. Goldenheim. You have obviously asked a number of 
questions. Let me try to address them.
    I think we are far from blind about this issue, and if I 
may, I would like to show you a chart that illustrates how as 
soon as we became aware of this problem, we literally jumped in 
with both feet.
    While we are getting that chart ready, I would like to be--
have one thing be really clear. Right from the start this was 
sold in the most highly regulated class of prescription 
pharmaceuticals that exist in this country, Schedule II. There 
is no higher classification for a prescription product. The 
only things in Schedule I are things that you can't prescribe, 
like heroin and cocaine. So it is the same classification as 
morphine. We made it clear that it had the same abuse potential 
as morphine right from the start in promotional materials and a 
packet insert approved by FDA. It is the same classification as 
hydromorphone, as fentanyl and a variety of other products.
    And, of course, OxyContin was already on the mark in its 
immediate release form, and I think we have heard today how 
this is the second wave in that particular location, and the 
first wave was with the immediate release OxyContin, Tylenol or 
acetaminophen combinations. So we had the appropriate warnings 
right from the start.
    The other thing I want to be really clear about, and I 
think you will hear more about this later on from the medical 
panel, is that addiction is not common. Addiction is rare in 
the pain patient who is properly managed. Who we are dealing 
with here is a group of people who have another very serious 
medical problem, an addiction disorder, an abuse disorder, and 
they need treatment, too. They need treatment every bit as much 
as the pain patient. It is a different set of individuals.
    Let me show you how seriously we are taking this problem.
    Mr. Serrano. Wait a minute. Let me get something straight. 
You are telling me that people who are addicted to your drug, 
if you will, are addicted to other things? There are no 
people--there is no one or group of people who are addicted 
only to your product?
    Dr. Goldenheim. No, I didn't mean to say that. I think what 
we heard today about histories of people having problems with 
multiple drugs is the rule rather than the exception. People 
who have a--what they have is an addiction disorder that makes 
them prone to become addicted, makes them prone to abuse 
medicines. And I think we also heard from Dr. Sullivan that 
essentially all of these drugs in Class II are essentially 
interchangeable, which is why heroin addicts will try to crush 
OxyContin and inject it. And when the OxyContin supply dries 
up, they will go back to heroin, or they will go to 
hydromorphone.
    Mr. Serrano. Doctor, I don't want to drive this to death, 
but I thought we all had an addiction disorder. That is why 
some people get addicted to caffeine and others get addicted to 
tobacco and nicotine, and that is why people put sugar in 
drinks because they know we somehow keep coming back for more. 
So, I mean, if--you may be contradicting your good efforts, 
because if you know there are people out there that can be 
addicted and then you don't regulate how doctors--This is so 
available, aren't you part of the problem then?
    Dr. Goldenheim. Sir, I think the difference is sugar in 
coffee and caffeine are things that we do because we like them, 
and they are not dangerous behavior. Somebody who has an 
addiction will pursue a behavior despite harm to that 
individual. So it is very different to have a cup of coffee 
with cream and sugar in the morning as opposed to buying pills 
in a bar of OxyContin or Lortab or Loracet and grinding them 
up, putting them into a glass of water, and going into a 
bathroom stall and shooting them up. That is a very different 
kind of behavior, and I think what we heard today is that there 
are individuals in our society who either typically have a 
history of abuse, they have abused alcohol or they have abused 
other prescription drugs, and now some of them in some parts of 
the country are abusing OxyContin.
    But let me please tell you how seriously we are taking this 
problem, because I think that that is very important. First of 
all, we launched MSContin, which is controlled release 
morphine, as opposed to OxyContin, which is controlled release 
Oxycodone. We launched that in 1984. During the entire time 
that we sold MSContin in this country, we didn't see anything 
other than the normal episodes of abuse and diversion that 
other manufacturers of other controlled substances are seeing--
have seen, and I think you heard today a great deal of 
testimony about how everybody was taken by surprise what 
happened.
    We launched OxyContin in 1996, and for the first 4 years on 
the market, we did not hear of any particular problem. From 
1996 or 1997 on, we also began working on abuse-resistant time 
formulations of a medicine called Vicodin or Hydrocodone, which 
you have heard about today, and if you are interested later, I 
can tell you more about them.
    Also since 1997, because we knew these medicines had the 
potential for abuse, and we--they were regulated and medicines 
that had a potential for abuse, we also distributed opioid 
therapy documentation kits, and we have distributed more than a 
quarter of a million of them to help educate physicians on how 
to properly use these medicines.
    As State guidelines became available--and there is a 
generic, in you will, set of guidelines. The Federation of 
State Medical Boards became available in 1998, late 1998. We 
distributed about 300,000 copies of those, and I have furnished 
a copy with the record. Those are very clear in proper history 
taking, proper documentation, proper patient selection. Right 
from the start we have only wanted this medicine used in the 
patients for whom it is appropriate therapy. No other company 
has distributed these guidelines, but we have, because we take 
this problem very seriously.
    In February of 2000 was the first time we became aware that 
something different was going on. In February of 2000, we got a 
copy of a letter that then U.S. Attorney Jay McCloskey of Maine 
sent to physicians in Maine warning them of problems in 
OxyContin that were occurring in certain communities, and I 
believe it was March of that year when that was published in 
the Bangor Times. That was the first time we had any 
inclination that something different was going on that required 
personal attention.
    And since that time, I am proud of our response. As a 
physician, I am very proud of our response. As an executive of 
this company, I am very proud to be working for this company. 
Nobody has taken the kind of initiative for a problem that is 
not just an OxyContin problem. This is a problem of drug abuse. 
This is a problem of prescription drug abuse, and OxyContin is 
now clearly squarely in the midst of that problem. We are 
leading, and we take that responsibility very, very seriously.
    As soon as we learned of the problem in Maine, we requested 
a meeting with Jay McCloskey. It took a while to arrange that 
meeting, because frankly he wanted to check us out, and he sent 
some of his diversion investigators to one of these medical 
education events that we had sponsored to find out what was 
going on, were these legitimate people. And his investigators 
came back and said, well, there is a pretty good darn series of 
talks on pain management. And much to their amazement, the 
people giving the talks--not Purdue people, the people giving 
the talks, never mentioned OxyContin once.
    We have been advocates of proper pain management, and we 
have in that period of time initiated an enormous number of 
activities. The most senior executives in our company, myself 
frequently included, have traveled up and down the East Coast 
meeting with attorneys general, meeting with U.S. Attorneys, 
meeting with local law enforcement. We called the DEA and said, 
we think something's going on, could we meet with you? We 
called the FDA and said, we are concerned, there is something 
going on, we need to make some changes in the labeling, we want 
to talk to you. We drafted the changes in the labeling prior to 
any meeting we had with the FDA and we worked cooperatively 
with the FDA. To this day we still do.
    To this day, as was obvious from the administrator's 
testimony, we are working very cooperatively with the DEA. We 
take this problem very seriously. We have been told by the DEA, 
by the FDA, and by the National Institutes of Drug Abuse that 
there was not a problem with the intravenous injection of 
prescription drugs, that prescription drugs were only abused 
orally. As a result, we weren't working on anything with 
maloxin. As soon as we heard that there was a problem with 
intravenous abuse, in days it went from a project that didn't 
exist to our highest research priority. We started that project 
in January. It is already in clinical trials, and we will file 
an application with the FDA next year. We are spending more 
than $100 million combatting abuse and diversion. We take this 
problem very seriously.
    Mr. Serrano. When did the McClosky report come out? Do you 
have a statement?
    Dr. Goldenheim. February of 2000.
    Mr. Serrano. That was in Maine, right?
    Dr. Goldenheim. Yes. And I think the States that were 
represented here today--give me a date. Summer of 2000, would 
that be fair? I think summer----
    Mr. Serrano. Was Mr. McClosky still in that position?
    Dr. Goldenheim. Yes. I believe he was in that position 
until January of this year.
    Mr. Serrano. And now?
    Dr. Goldenheim. Now he is a lawyer in Maine and also 
working with us on abuse and diversion prevention efforts.
    Mr. Serrano. He works for you now?
    Dr. Goldenheim. He is a consultant, yes.
    Mr. Serrano. He works for you? He is on your payroll now?
    Dr. Goldenheim. He is not on our payroll but we do pay him 
as a consultant. He has an independent practice with the law 
firm. At the time, he was not.
    Mr. Serrano. Would you know if he still feels the same way 
as when he issued that report, or has he seen the light now?
    Dr. Goldenheim. I think at the time he was very concerned 
about abuse and diversion of Oxycontin, and I think along with 
the rest of us he remains concerned, which is--and we offered 
him an opportunity to work with us to continue to try to combat 
this problem. With his help we made our brochures called "How 
to Stop Drug Diversion and Protect Your Pharmacy." there is 
another one for medical practices.
    I want to point this out because you specifically asked 
about the New York Times and was that statement made that we 
weren't paying attention to this problem true. Answer, no. Yes, 
pharmacists did talk to our representatives and said they were 
concerned about a problem at that clinic. We gave them these 
brochures which told them of their responsibility to call and 
discuss with the DEA. We were aware that the pharmacists were 
already in discussions with law enforcement authorities, 
including the DEA. Pharmacists, of course, have an opportunity 
that we don't have. If a pharmacist is concerned about a 
prescription, he or she cannot fill the prescription. We are 
not involved in that. The whole prescribing process is an 
interaction between the patient and a physician behind a closed 
door. Those are personal, confidential, private interactions. 
We are not involved. And then the patient takes the 
prescription to a retail pharmacy and we are not involved in 
that transaction either, nor should we be.
    So I think there are certain things that we can do, and we 
have jumped in with both feet to do them. This is the highest 
priority of our company. We want this problem stopped.
    Mr. Serrano. I don't doubt that your intentions are right. 
Let me just give you some advice based on living all my life in 
New York, and watching a very serious drug issue in the inner 
city; this issue, from what I am seeing here today and what I 
am hearing from my colleagues who are affected much more than I 
am. I have other drug issues to deal within my district. This 
issue is going to become a major national issue, and when it 
does, it will carry with it--and I speak for myself, not for my 
colleagues on this panel who may disagree. But a lot of times 
when things used to happen in the inner city, they were always, 
as I said before, those people in the inner city.
    The decriminalization of marijuana didn't take place until 
it hit suburbia and the upper middle class, and you couldn't 
get people to go to jail for that, so the other people had done 
the time. They decriminalized it throughout the country and you 
see more than that. If I was advising you, I would say you are 
going to be at a disadvantage because this is going to spread 
in areas where people are not going to be able to say it is 
just those people in the inner city, it is all related to gang 
warfare and all that. And you are going to see an outcry in 
this country and, unlike cocaine, unlike illegal substances 
where you have to go track down the country producing it or the 
neighborhoods growing it or whatever, this one is an easy one 
to get ahold of.
    So my advice to you is be as committed as you are to what 
responsibility you carry with this, because if this keeps 
growing, you are going to see something happen in this country. 
You are going to be banned from selling it.
    I am not a doctor, I am not a lawyer, I don't know what to 
base that on; just that I do get a sense when people begin to 
react, and the sense I am getting more and more is that this is 
becoming a national problem with national awareness, and you 
are easy to get ahold of. All they have to do, these boys here, 
these ladies, is to say you are out of business with that 
product, and you really will be, and it won't matter how many 
people are being helped. The focus will be on how many lives 
are being lost, and I think you should pay attention to that.
    Dr. Goldenheim. Sir, thank you for your advice. We accept 
your advice. We understand that this is a serious problem, that 
this is a very serious problem. And as we talk to people, 
including today, as we talk to law enforcement, as we talk to 
the health care community, as we talk to the addiction 
community, and as we are given new ideas of things that we 
might pursue to help educate better, help educate physicians 
better, help educate teens better about the risks of 
prescription drug abuse, whatever it happens to be--tamper-
resistant prescription pads--virtually all of the things we are 
talking about, all of the things on this board came because we 
sought out advice and listened, and I respect your advice and 
we do take this very seriously.
    Mr. Serrano. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman. Now, both the former 
and the current DEA administrators have expressed some level of 
frustration with your company when discussing marketing and 
other abuse-curtailing measures. Director Hutchinson in his 
testimony this morning mentions that Purdue's marketing 
techniques were at least partially responsible for the current 
problems, and different newspapers have done the same thing. 
Your company has even acknowledged that even after reports that 
Oxycontin had been getting into the wrong hands, you continued 
to distribute free 7-day samples of the drug through doctors to 
promote its use. Is that correct?
    Dr. Goldenheim. No, sir, that is not correct. Let me 
explain.
    Mr. Rogers. The New York Times is in error? They made a 
mistake?
    Dr. Goldenheim. Sir, the New York Times is sitting here 
today and----
    Mr. Rogers. In their October 28 edition, just a few days 
ago, they made that statement; and they said that your company 
acknowledged that they continued to distribute free 7-day 
samples after reports that OxyContin had been getting in the 
wrong hands. Is that in error?
    Dr. Goldenheim. It is in error, sir. May I explain?
    Mr. Rogers. Explain it to us.
    Dr. Goldenheim. As a Schedule II controlled substance, we 
cannot provide samples to the physician, we cannot provide 
samples to the patient. Any other medicine can be sampled. This 
cannot. What we did was provide a voucher to the physician so 
that if the physician determined that OxyContin was the right 
medicine for that patient, and only then, he or she could give 
the prescription and the voucher to the patient, the patient 
would take them to the pharmacy, and that voucher would entitle 
the patient to one week's supply of OxyContin--and only one 
week.
    Mr. Rogers. Free?
    Dr. Goldenheim. Free. We would pay, and the reason for 
this----
    Mr. Rogers. So your company did give free drugs----
    Dr. Goldenheim. We did not provide samples. But let me 
finish, if I may----
    Mr. Rogers. Well, the New York Times is not quite that 
wrong, then.
    Dr. Goldenheim. I think it is wrong. This is a very complex 
field of medicine.
    Mr. Rogers. Tell me about it.
    Dr. Goldenheim. That is right. We have heard a lot of 
testimony today. It is complex. But pain management is very 
complex. Not all these medicines will work for all patients. 
Someone made the remark earlier, aren't there other medicines? 
Yes. And we heard about patients today who got benefit for the 
first time only from OxyContin.
    So physicians need a choice, patients need a choice, and 
this was an opportunity to allow the patient and physician to 
see if this medicine made sense for that patient, but only 
after the----
    Mr. Rogers. Do you know the advertising promotional budget 
for OxyContin in your company?
    Dr. Goldenheim. I don't, sir, off the top of my head; I 
don't.
    Mr. Rogers. Would you furnish that for us?
    Dr. Goldenheim. Yes, I will.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rogers. In the marketing and distribution part of your 
company, I would assume that you keep track of how OxyContin is 
selling in different parts of the country, correct?
    Dr. Goldenheim. Yes.
    Mr. Rogers. And where you have a peak in sales in a given 
part of the country? That would come to the attention of the 
company's leadership, would it not?
    Dr. Goldenheim. Typically not. No.
    Mr. Rogers. They don't pay attention to how the drug sells?
    Dr. Goldenheim. We pay a great deal of attention to how the 
drug sells, but I don't know that the leadership focuses on 
every particular geographic area.
    Mr. Rogers. But where you would have a specific spike in 
sales, I would assume that would come to the notice of somebody 
in your company?
    Dr. Goldenheim. It certainly comes to the notice of 
somebody.
    Mr. Rogers. You had such a spike in Myrtle Beach, South 
Carolina, as the New York Times reported yesterday, did you 
not?
    Dr. Goldenheim. Yes, that is correct.
    Mr. Rogers. A huge spike. In fact, it came from one 
particular pharmacy, did it not?
    Dr. Goldenheim. No. I think it came mainly from one 
particular clinic. I had--it is important to emphasize that 
this was a clinic that specialized in pain management----
    Mr. Rogers. Comprehensive Care and Pain Management Center 
of Myrtle Beach, South Carolina----
    Dr. Goldenheim. That is correct, sir. And there were four 
individual pain physicians there whose practices were devoted 
to pain management. And in that kind of a community, it is not 
surprising that there would be a great deal of activity for 
these kinds of medicines, including OxyContin.
    Mr. Rogers. People were coming by the carload, we are told, 
from 100 miles away, to this center to get this prescription. 
They were lined up 15 or 20 deep, we are told, at the door 
trying to get in. The sales in that first quarter in Myrtle 
Beach of OxyContin grew by more than $1 million, $300,000 more 
than the second biggest region. Yet the company didn't check 
into it. It was obvious to me if you've got that kind of a 
spike in one location in the country, that somebody ought to 
have taken some attention to it. And you didn't, did you?
    Dr. Goldenheim. No, sir, I don't think that is correct; and 
let me explain it for you.
    Mr. Rogers. Explain it for us.
    Dr. Goldenheim. As we heard from pharmacists that they were 
concerned about what was going on in that clinic, we talked to 
them about abuse and diversion. We knew they were in regular 
contact with State pharmacy authorities and the DEA. We learned 
there was an investigation going on. I think we have to 
understand that our powers are limited here. We don't have 
investigative powers. Our representatives are----
    Mr. Rogers. Give me a break. Give me a break. Here you have 
a section of the country, one city--a fairly modest-sized city. 
Myrtle Beach, South Carolina is no New York City. Yet you had a 
$1 million increase a quarter, more than any other part of the 
country. And we are told that people were lining up at this 
pain center, 15 or 20 deep, traveling by carloads, from 100 
miles away, to get there. Not only that, but the Myrtle Beach 
Rehabilitation Center has experienced a nearly fourfold 
increase in the number of OxyContin addicts it has treated in 
just the last 18 months. How do you explain that?
    Dr. Goldenheim. Sir, I think----
    Mr. Rogers. Why did you not notice that something was wrong 
in Myrtle Beach?
    Dr. Goldenheim. Our representative was concerned based on 
what he was hearing. I guess this is--let me start again. This 
is a very complex issue here. I guess one response is if this 
was so obvious, if carloads were really lining up 15 at a time, 
why weren't they shut down by local law enforcement whose job 
presumably it is to do that? That is not our job, sir.
    Mr. Rogers. It is not the job of the local police to shut 
down a pharmacy or a pain center, a medical office, a doctor's 
clinic. They don't do that type of thing, and you know that.
    Dr. Goldenheim. But it is not our job, sir.
    Mr. Rogers. The pharmacists in Myrtle Beach told your 
company their suspicions about this Comprehensive Care Pain 
Center months before it closed.
    Dr. Goldenheim. And the same pharmacists were reminded of 
their obligation. We encouraged those pharmacists to report 
their concerns to the proper authorities and were aware of the 
fact that they had reported their concerns.
    Mr. Rogers. Did you investigate Comprehensive Care?
    Dr. Goldenheim. No. What we did was continue to provide 
information on avoiding abuse and diversion in that practice 
and how to properly prescribe our product. All of the 
pharmaceutical companies who make these controlled products 
continued to call on that clinic. We have no way of knowing 
whether or not people are engaged in criminal activity at that 
clinic. Maybe those doctors are being duped, and by continuing 
to call on them and provide them information, we can allow and 
permit and encourage better medicine to be practiced. That is 
our job. We are not the police.
    Mr. Rogers. No, it may not have been illegal for you to 
ignore the spike in that one place, but in my judgment you had 
a moral obligation to go in there and investigate what was 
obviously a suspicious operation, using, as you said, a 
Schedule II drug, the most dangerous drug that can be 
prescribed legally.
    Dr. Goldenheim. It seems clear to me that what we can do is 
provide information. We can tell doctors how to properly use 
this. I think pharmacists can report to the authorities, and 
they did. Pharmacists can refuse to fill prescriptions that 
they are concerned about. We can't do that because we are not 
involved in that. If we see a crime, we do report it.
    Mr. Rogers. According to the New York Times story 
yesterday, a DEA agent, Ms. Crowley, said that she described 
the havoc that OxyContin was causing in Myrtle Beach in a very 
heated telephone conversation with your company's Mr. Wilson 
back in March. She says, ``I have told him your product is 
being diverted onto the streets of South Carolina, that it is 
being sold on the streets of South Carolina, and that people 
are dying from it in South Carolina.'' And yet that was March. 
Nothing happened.
    Dr. Goldenheim. Sir, we don't provide the DEA licenses to 
the physicians. We don't regulate their prescribing rights or 
authority. I don't know what that local DEA agent wanted us to 
do. We do not sell tablets to the clinic. We sell tablets to 
wholesalers, and the wholesalers sell them to retail 
pharmacies. So that clinic didn't have the tablets, and I don't 
know why the DEA would be telling us. So we knew the DEA was 
aware of the fact that there was a problem.
    Mr. Rogers. If you became aware that a particular clinic or 
doctor or hospital was abusing their prescriptive rights in 
issuing prescriptions for OxyContin, what steps would you take 
to stop that, if any?
    Dr. Goldenheim. If we knew that a clinic or an individual 
physician was writing fraudulent prescriptions for OxyContin, 
we would stop calling on that practice. But you have to 
remember, we don't supply the prescriptions, we don't supply 
the tablets, and it is very difficult for us to enter into 
that, nor is it appropriate for us to enter into that patient-
physician relationship. If fraud is being committed, if 
prescriptions are being tampered with, if medicines are being 
prescribed by criminal physicians, that is a job for law 
enforcement.
    Our job is to provide education. Our job is to teach 
physicians and pharmacists how to avoid abuse and diversion. 
Our job is to encourage pharmacists to report anything that 
they are concerned about. In this case we were aware that 
they--that they were.
    Mr. Rogers. This year's first quarter sales, according to 
the New York Times, in Mr. Wilson's territory, which I gather 
was the Myrtle Beach area, showed the highest increase of any 
sales territory in the Nation; little old Myrtle Beach, South 
Carolina. Not only that, in Mr. Wilson's area, sales of 
OxyContin had increased as much in 3 months as the sales in 
some other territories of the country increased all of last 
year. I mean, there was obviously something going on in Myrtle 
Beach, South Carolina.
    A local doctor said in an interview that Mr. Wilson told 
him that 40 percent of those sales had gone to this one place, 
Comprehensive Care Pain Center, and your company did nothing. 
People were dying and your company did nothing.
    Dr. Goldenheim. We provided information on the proper use 
of our product. We had never done anything to encourage 
improper use----
    Mr. Rogers. But why did you not notice this obvious problem 
in Myrtle Beach, South Carolina, and attempt to alert people to 
it and stop people from being killed by this drug?
    Dr. Goldenheim. Sir, with the DEA already investigating, 
what would you have us do?
    Mr. Rogers. I would have you go to that company and say, no 
longer prescribe OxyContin out of this office.
    Dr. Goldenheim. We did that. We have told people that if 
they will not follow proper prescribing guidelines, we do not 
want them to use our product.
    Mr. Rogers. Did you go to this Comprehensive Care Center 
and tell them to stop?
    Dr. Goldenheim. I believe the answer is yes. I will have to 
find out that answer for you. I can tell you what I think I 
know. That county was one of the 100 counties that I mentioned 
earlier where we focused all of our efforts on the prevention 
of abuse and diversion, and we told physicians that if they did 
not follow our guidelines we did not want them to sell our 
product. But, sir, we don't control what they sell. That is not 
our job. That is for the DEA and pharmacy societies, it is for 
medical boards to control the quality of prescriptions. 
Further----
    Mr. Rogers. The Comprehensive Care Center that I am talking 
about obviously was a prescription manufacturing machine. I 
mean, you concluded that eventually, did you not?
    Dr. Goldenheim. No, I did not----
    Mr. Rogers. You told them to stop, did you not?
    Dr. Goldenheim. No, I told them--excuse me. We told them to 
follow the guidelines for the proper use of the medicine.
    Mr. Rogers. So you didn't tell them to stop issuing 
prescriptions.
    Dr. Goldenheim. We told them to only issue prescriptions if 
they were proper prescriptions. Let me be clear. I don't know 
for certain whether we told that particular clinic, but that 
was our policy; that we told physicians in these high areas of 
abuse that we only wanted them to prescribe our product 
properly with properly guidelines, proper record keeping, 
proper documentation; and if they weren't willing to do that, 
we didn't want them to prescribe our product at all. But we 
can't stop them from prescribing our product.
    Mr. Rogers. We can.
    Dr. Goldenheim. Yes, sir.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Wolf. I think you do have a responsibility and----
    Dr. Goldenheim. We agree.
    Mr. Wolf. But I just--we won't pursue it when we do the GAO 
letter, but I think you do have a responsibility in some 
respects. You should have acted, and I think you have a heavy 
moral burden and obligation. I think the moral burden broadens 
beyond just what Mr. Rogers was talking about. But every time 
you pick up a newspaper story and hear about the overdose, 
every time you hear about a Reverend Coots-type situation, you 
have got to feel awfully funny about that. And I think your 
company has a moral obligation to do everything and anything 
you can.
    That is like saying when you are watching an accident take 
place, the railroad car is coming down and is ready to hit 
somebody, it is not your responsibility, you are not the 
railroad inspector, you are not the policeman on the beat, you 
just happen to be there, but you have a responsibility to shout 
out, to say something, to do something, to try to help.
    And the other thing I kind of noticed, I have watched your 
people moving around the room. You must have six or seven 
people in this audience, in contrast with Reverend Coots who 
has his wife and his son Josh. And I noticed a question that 
Mr. Serrano asked you--the U.S. Attorney whom you were offering 
as an authoritative voice on this. Now you have hired a U.S. 
Attorney; is that correct?
    Dr. Goldenheim. Yes, sir. But when I offered him as an 
authoritative voice, he was not working----
    Mr. Wolf. And then, if I recall, that triggered a thought. 
You hired one of the top people in the Virginia State Police.
    Dr. Goldenheim. That is correct. And, sir, we are doing 
that because we do take this seriously. We do have a 
responsibility to do everything we can. I don't agree that we 
should have jumped in sooner. I think, as the chart 
illustrates, we did everything we could as soon as we knew that 
a problem arose. And I mean, you are suggesting that there is 
something improper about surrounding ourselves with appropriate 
expertise. We want to hire the best people we can to tackle 
this problem because we do take it so seriously.
    Mr. Wolf. Or to keep you from having a problem or----
    Dr. Goldenheim. We want the problem of prescription drug 
abuse and the abuse of our product--absolutely, we want it to 
go away. Of course we do. It is not in anybody's best interest. 
It hurts the patients in pain, it hurts the people who are 
abusing the drugs, some of whom are driving; it hurts us, our 
products. It is devastating for all of us. And we are trying to 
do everything we can think of to ameliorate the problem, to 
make it go away.
    Mr. Wolf. We thank you for your testimony. We apologize for 
keeping you the whole time. Thank you very much.
                                        Tuesday, December 11, 2001.

                           MEDICAL COMMUNITY

                               WITNESSES

DR. MARY SIMMONDS, FIRST VICE PRESIDENT, AMERICAN CANCER SOCIETY
DR. MICHAEL ASHBURN, PRESIDENT, AMERICAN ACADEMY OF PAIN MANAGEMENT
DR. PETER STAATS, DIRECTOR OF THE DIVISION OF PAIN MEDICINE, JOHNS 
    HOPKINS UNIVERSITY
    Mr. Wolf. The next panel--and again I apologize for keeping 
you--Panel V, the medical community: Dr. Mary Simmonds, First 
Vice President of the American Cancer Society; Dr. Michael 
Ashburn, President of the American Academy of Pain Medicine; 
and Dr. Peter Staats, Director of the Division of Pain 
Medicine, Johns Hopkins University. And, again, we did not 
believe we would be here this time. You probably thought you 
would be back there in Baltimore.
    With that, we can go in this order: Dr. Simmonds, Dr. 
Ashburn, and Dr. Staats, and as long as you want to stay here. 
I don't dare want to cut you off, because you have been so 
patient, but if you want to summarize, however you want to do 
it, just go ahead.
    Dr. Simmonds. Thank you. Good afternoon, Mr. Chairman. I am 
honored to testify before you regarding the use of OxyContin. I 
would like to ask that my statement be included in the record.
    Mr. Wolf. Without objection, the entire statements will all 
be in the record.
    Dr. Simmonds. Today alone--today, December 11--more than 
1,500 adults and children will die from cancer in the United 
States. Unfortunately, over half of these people will die 
suffering more pain than was necessary. One of the ironies in 
the subject we are discussing today is that the knowledge of 
medications already exists to allow a person to die in comfort 
and in dignity, and yet people still die in pain. As you 
consider how best to control the abuse of OxyContin, I ask you 
to keep in mind the cancer patients and their families who are 
relying on you to be sure that they have access to effective 
treatment for their pain.
    Mr. Wolf. If I could just interrupt for a second, I commit 
to you that I will do that, and I hadn't talked about it for a 
while, but I remember. So we will do that. There is no 
intention of anyone on this committee restricting, I can assure 
you. And if at any time you begin to think that the process is 
doing that, I hope you will feel free to come in. Are you here 
in town?
    Dr. Simmonds. I am a medical oncologist from Harrisburg, 
Pennsylvania, not too far away.
    Mr. Wolf. You are only 2 hours away. But you have an open 
door to come into my office.
    Dr. Simmonds. Thank you very much. I have been here all day 
and I have learned a lot, and I appreciate the balance of the 
panels that have been constructed, and I appreciate especially 
your talking about your family and your experience.
    Mr. Wolf. Are you familiar with Lincoln Hospital?
    Dr. Simmonds. I am.
    Mr. Wolf. My mom's dad was Dr. Dever. Do you remember Dr. 
Dever? He is one of the four leading surgeons.
    Dr. Simmonds. Yes.
    Mr. Wolf. In fact, Dr. Dever's picture is in the hospital. 
And in those days, mid-sixties, with the pain--but many times 
after, it would seem like an hour, hour and a half, and if my 
memory serves me it was 4 hours I think before he could come 
back. We will not allow this, and we try to make it a balance, 
but we will not allow this.
    We spoke with DEA. For DEA to make this as a hunting season 
to put fear--on the other side, though, as you can see from the 
Reverend Coots and the State Police and others, the balance--
and I believe you can. I don't think that this is such a 
difficult thing, and I think the company will have to do some 
things differently. Perhaps DEA will have to do things 
differently. But there is no intention to suddenly even drive 
that to be part of the process.
    Excuse me.
    Dr. Simmonds. That is all right. I appreciate your saying 
that and making that part of the record. As I said, I am a 
medical oncologist. I think I am the only cancer physician 
officially here. I am also first vice president of the American 
Cancer Society. The American Cancer Society is the nationwide 
community-based voluntary health organization dedicated to 
eliminating cancer as a major health problem by preventing 
cancer, saving lives, and diminishing suffering from cancer. So 
we believe that adequate pain management is essential to 
improving the quality of life for people living with cancer and 
through the end of life.
    There are countless stories of people with pain that goes 
untreated or undertreated, and I appreciate your bringing up 
your parents' illustration. I personally want to illustrate 
these remarks with a positive story about one of my own 
patients.
    Denise Moffat Pasquale is a 25-year-old woman who has 
metastatic breast cancer. She has a great determination to 
live. At this point her time is short, with metastases to her 
lung, liver, brain, retina, and especially her bones. As 
difficult as it was for her to accept help from hospice 
services, the nurses that have gone to her home to see her try 
to get out of bed and be active have been able to help us 
adjust the dose of OxyContin so that she can be comfortable.
    Her sweet personality has been restored. She is enjoying 
the holiday and the holiday activities with her family. Her 
mother told me, ``Now I know what quality of life means.'' I 
want to add that she, just like all of my patients, get relief 
from their pain, they become functional, they do not get a 
high, they do not become addicted.
    We have heard a lot about that today and I want to make 
that point very clear. Now, unfortunately, as hard as we try 
and as much education more recently that there has been, there 
are still many instances where people do not have their pain 
controlled and they become despaired, they cannot function in 
important activities in their life.
    It is a complicated issue. We haven't had much discussion 
about that today. But I only have time for a couple of remarks. 
But, for example, there may still be many educational barriers. 
We have talked about that. It is hard to teach pain management 
sometimes in medical and professional schools. But apart from 
that, there are attitudinal barriers. We are all in the same 
society. Patients and families need to be comfortable to 
discuss pain issues with their doctors and nurses, and they are 
not always comfortable to do that.
    There are cultural issues. I won't give you any examples, 
but some cultures are brought up to think differently about 
pain than other cultures.
    And then there can be a disconnect and a lack of 
communication to simply prescribing the right pain medication 
to get pain relief. We are in this drug-oriented society and 
there are many misconceptions; the example that Dr. Goldenheim 
used about his friend being afraid that she is being labeled an 
addict and now her behavior is she is going to suffer pain 
again. That is a very common, clear example how complicated it 
is.
    And there are system barriers. By this I mean everything 
from time to talk to the doctor to discuss pain issues, to 
having insurance coverage to afford the appropriate medications 
and to having those medications available.
    On top of all this, we do not need regulatory barriers. The 
current laws and regulations concerning opioids are balanced. 
They provide for the legitimate use of opioid analgesics for 
persons suffering moderate to severe pain. People with 
legitimate need for pain medication should not be forced to 
suffer pain. People with cancer pain should not have their 
access to medications like OxyContin limited because of the 
illegal and abusive actions of others. Distinctions must be 
drawn between those with legitimate needs for pain medications 
and those with illegal intentions, to avoid placing further 
stigma on use of prescription pain medication.
    Now, the American Cancer Society wants to work with drug 
enforcement officials to maintain the carefully balanced 
policies that do not interfere with patient care. We should 
target the sources of drug diversion. We have talked about 
forgery, pharmacy thefts, improper prescribing. We are willing 
to work with the drug enforcement community to educate health 
care providers and patients about the laws and regulations 
controlling the distribution of opioids to those who need them. 
In fact, on October 23, the American Cancer Society released a 
joint statement with the Drug Enforcement Administration and 
more than 20 other health care groups affirming our commitment 
to developing balanced policies.
    The negative media coverage of OxyContin abuse is hurting 
people with legitimate need for this medication. One of our 
major concerns is that the sensationalized stories do not give 
any perspective to what is not a new issue, drug diversion in a 
drug-oriented society. Furthermore, the hype on OxyContin today 
will be repeated tomorrow with another drug, it is really the 
same issue and, as we have heard today, it has happened in the 
past already. Therefore, to focus simply on a particular opioid 
today is at best, I suggest, a waste of time, and at worst 
might put up yet another barrier to make it even more difficult 
to provide pain relief to those who need it.
    The American Cancer Society strongly supports the privacy 
of clinical decision-making between patients and their health 
care providers. The society opposes any efforts that might 
chill health care providers' willingness and ability to provide 
pain medication and pain management when treating patients with 
cancer and other serious or life-threatening illness.
    The Society also recognizes and supports strong societal 
interest in preventing abuse of controlled substances. The 
Society encourages the drug enforcement community to continue 
working with the health care community and patient advocates in 
maintaining a balanced policy toward controlled substances.
    Mr. Chairman, I want to thank you for your work to ensure 
that people who suffer pain caused by cancer, like Denise 
Moffat Pasquale, are able to get the best treatment available 
while you address the important problem of illegal drug use. 
Many of your own constituents will be most hurt by unbalanced 
actions to restrict the availability of effective pain 
medication.
    I would like to acknowledge those who have worked hard 
already to ensure that the best treatment is available to all 
who need it, and in that regard I would like to especially 
acknowledge the efforts of the American Alliance of Cancer Pain 
Initiatives, Last Acts of the Robert Wood Johnson Foundation, 
the Pain and Policy Studies Group at the University of 
Wisconsin, the American Pain Society, the Oncology Nursing 
Society, and the Project on Death in America.
    These groups and others have worked hard to try to lower 
the multiple barriers which impede proper pain management. The 
American Cancer Society is ready to work with you, the law 
enforcement community, medical professionals, and the 
pharmaceutical industry to reduce the number of Americans who 
suffer pain needlessly and still die in pain every day.
    Thank you.
    Mr. Wolf. Thank you very much, Doctor.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Wolf. Next is Dr. Michael Ashburn.
    Dr. Ashburn. Thank you for the opportunity to speak to you 
today. My name is Michael Ashburn, and I am president of the 
American Pain Society. I am also professor of anesthesiology at 
the University of Utah, where I am director of the pain 
programs at the University of Utah, and also director of pain 
programs at Primary Children's Medical Center.
    The American Pain Society is an interdisciplinary 
professional society of more than 3,500 members. Membership 
includes basic science researchers, physicians from many 
specialties--psychologists, nurses, physical therapists, 
pharmacists, and other professionals--interested in pain-
related research and pain care. Pain is one of the most common 
reasons people consult a physician; yet frequently it is 
inadequately treated, leading to enormous social cost in the 
form of needless suffering, lost productivity, and excessive 
health care expenditures.
    Pain leads to suffering throughout the life span. In a 
recent publication, the American Pain Society and American 
Academy of Pediatrics reported that children commonly suffer 
from untreated or undertreated pain. These children suffer even 
though safe and effective pain treatment methods exist. 
Likewise, the elderly often suffer from poorly controlled pain, 
even though this pain also can be effectively treated.
    There are many barriers that prevent effective pain 
control. These barriers include poor training of our physicians 
and other health care providers on the diagnosis and treatment 
of pain. In addition, Medicare, Medicaid, and private health 
insurance companies have payment policies that prevent access 
to integrated care. To make matters worse, there are simply not 
enough pain experts to meet current patient need. Finally, NIH 
funding of pain-related research is very modest and important 
research still goes unfunded.
    Many strategies and options exist for treating chronic 
pain. Chronic pain is not a single entity but may have myriad 
causes and perpetuating factors. Treatment strategies and 
options include behavorial methods, rehabilitation, 
interventional therapy, and the sustained use of a number of 
different medications including opioids. Barriers to the use of 
opioids include often exaggerated concerns about addiction, 
respiratory depression, and other side effects including 
tolerance.
    In addition, fears of diversion and regulatory scrutiny 
weigh heavily on the physician's mind when he or she considers 
prescribing these medications. Some individuals within law 
enforcement have stated that physicians commonly 
inappropriately prescribe opioids for patients with chronic 
pain, leading to increased incidents of diversion of these 
medications. Medical evidence shows, however, that pain is not 
overtreated but is undertreated.
    Guidelines such as the American Academy of Pain Medicine/
American Pain Society consensus statement, which is entitled 
``The Use of Opioids for the Treatment of Chronic Pain'' are 
valuable in establishing parameters for clinical practice in 
this area. This document clearly states that physicians must 
use principles of good medical practice to guide prescribing of 
opioids. This includes a complete patient evaluation, 
development and documentation of a treatment plan with stated 
goals of therapy, and monitoring of the treatment plan, with 
appropriate changes in the treatment plan as indicated by 
patient response. A stringent policy regarding access to 
opioids with the goal of decreasing illegal diversion may have 
the unintended effect of direct patient harm. Physicians need 
to retain autonomy and discretion of addressing pain. No 
legislation or regulation can take into account all the nuances 
of particular clinical situations as they involve. Only a 
qualified physician, together with his or her patient in the 
context of a doctor/patient relationship, has the information 
necessary to decide what approaches, structure, and therapeutic 
goals are appropriate for the management of pain in a 
particular situation.
    Some policymakers have proposed that we limit the 
prescribing of selected potent opioids to pain specialists 
only. Such a policy is ill-advised. While this proposed policy 
is well intended, it most certainly will lead to needless 
patient suffering and disability by limiting patient access to 
these important medications. There simply are not enough pain 
specialists in the United States to provide care to all the 
patients who are suffering from chronic pain. Rather than 
limiting access, efforts should be made to train all physicians 
in the proper treatment of pain, including the appropriate use 
of opioid medications.
    The American Pain Society shares the concerns of many about 
the diversion of potent opioids and other controlled substances 
for illicit use. Substance abuse including alcohol, tobacco, 
opioids, and other substances leads to individual, family, and 
societal harm. There are no simple answers to the harm to 
public health that substance abuse causes.
    We should continue to work hard to support research, 
education, and to improve care to patients with substance abuse 
disorders. However, we must not allow diversion and abuse of 
opioids by some to deny deserving suffering patients access to 
these medications that relieve suffering, lessen disability, 
and improve quality of life.
    When considering options to address opioid diversion, 
policymakers should carefully consider the following:
    Opioids are important in the treatment of chronic pain and 
benefits far outweigh risks in carefully selected patients. 
Opioids should be administered within the context of patient 
treatment guidelines regarding the use of opioids for the 
treatment of chronic pain.
    Physician and other health care provider education and 
training regarding the diagnosis and treatment of pain is poor. 
Patient care and outcomes can be improved by better education.
    Tension exists between efforts to decrease abuse and 
diversion of opioids versus access to these medications for 
legitimate use. Policymakers, regulators, and those in law 
enforcement should carefully consider the potential for harm to 
patients caused by efforts to control abuse and diversion. Full 
and open discussion should be held with knowledgeable 
specialists who represent the direct interests of the patients 
before any efforts are made to fundamentally change the laws 
and regulations surrounding the appropriate and legitimate 
prescription of opioid medications.
    There should be increased Federal support for public health 
infrastructure, including support for substance abuse education 
and treatment programs.
    And, finally, policymakers should strongly support 
increased funding for chronic pain research so that we can 
better understand the role opioids play in the treatment of 
these complex disorders.
    Thank you very much.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Wolf. Dr. Staats.
    Dr. Staats. Thank you, Mr. Chairman. I would like to thank 
you for holding this committee meeting today on recent concerns 
of the abuse that we have seen with addiction with OxyContin 
and prescription drugs in general. What I heard today was 
really devastating. I heard some really horrible stories about 
patients who were not patients at the time, but people who 
suffered with the scourge of addiction, in this case with what 
happened to be OxyContin.
    While I don't want to see that ever happen again, we also 
want to maintain a sense of balance, as you indicated in your 
opening comments. We don't want to see that this effective 
therapy is not made available to patients who need them. We 
must recognize that if we do that, there are going to be grave 
consequences to the American citizens, your constituents, all 
of our patients throughout America.
    We must be very careful to not penalize these most 
vulnerable patients, those who suffer with chronic pain 
disorders, our seniors, our children, with cancer pain, and 
others with severe pain, even as we maintain our vigilance 
against this diversion that we have talked about so much today.
    So, while we consider how best to address these recent 
highly publicized crises caused by the diversion and the abuse 
of this medication, it is important that we recognize the vital 
position that opioids occupy in the management of acute and 
chronic painful disorders. In fact, the opioid class of 
medication provides the most effective treatment for moderate 
to severe pain and could not be abandoned without grave 
consequences for countless individuals and for society as a 
whole. Instead of denying the legitimate access to opioids 
therefore, we must seek strategies that will eliminate this 
diversion we have talked about today.
    Over the past decade we have made great progress in 
understanding that opioids occupy a legitimate role in the 
management of pain, and I would like to put this in perspective 
for a moment. Early in the 1990s, many members of State medical 
examination boards, those who can take away physicians' 
licenses, believed that it was inappropriate to prescribe 
opioids for a prolonged period of time for cancer patients, for 
noncancer patients. These boards went so far as to countenance 
the investigation of any physician who prescribed opioids. This 
policy instilled an undercurrent of fear in the hearts of many 
physicians, decreasing their willingness to prescribe opioids 
and leading to poor-quality pain management throughout this 
great country of ours.
    Fortunately, these inaccurate and restrictive attitudes 
changed as a wealth of information accrued on the efficacy of 
opioids, the low incidence of addiction, and their manageable 
side effects. Today, literally hundreds of thousands of 
patients have been monitored while receiving opioids, and we 
know that we can deliver the quality of pain care delivered to 
millions of Americans currently suffering or destined to suffer 
from acute and chronic pain only if these opioids remain part 
of the clinical regimen.
    Numerous Federal and scientific societies have evaluated 
the appropriateness of administering opioids as part of 
clinical practice. The Agency for Health Care Policy and 
Research has published two guidelines on the management of 
cancer and acute pain, both of which incorporate opioids on the 
part of their good clinical practice. The Joint Commission on 
Health Care Organization has mandated the appropriate 
management of pain and the inclusion of pain control assurances 
as part of the Patient's Bill of Rights. This cannot be 
accomplished if opioids are withheld from the paradigm of good 
clinical practice.
    The American Pain Society and the Academy of Pain Medicine, 
as Dr. Ashburn noted, two of the most scientific and clinical 
societies who deal with pain issues in America today, issued a 
joint position statement indicating that the use of opioids is 
appropriate in select cases. As we move forward, it is 
important that we maintain our sense of balance. We need to 
reassure physicians that it is legally safe to prescribe 
opioids, including OxyContin, in the legitimate practice of 
medicine, even as we investigate any who may be engaged in the 
criminal activity that we have talked about today.
    We need to assure our patients that we will continue to 
have access to care for them, in some cases the only 
medications that will help them move on with life and engage in 
part of life, even as we assure that criminals will be unable 
to divert these prescribed substances for illicit use. We need 
to instruct our patients that selling their medications is a 
criminal act with criminal penalties.
    The DEA was established in 1973, as we heard from our 
leader from the DEA today, to enforce the Controlled Substances 
Act of 1970. This act specified as a basic premise that 
physicians should prescribe opioids in the legitimate practice 
of medicine. We need to assure physicians that they need not 
fear DEA scrutiny; rather, they must have a sense that the DEA 
continues to endorse the appropriate use of opioids, assuring 
access to our patients with pain.
    In return, physicians, I believe, need to assist the DEA by 
enforcing regulations to control the illicit use of this class 
of drugs. I believe that the physician community can come 
together and has come together to work in a collaborative 
manner with the DEA. This can be accomplished with a variety of 
educational programs that facilitate transfer of information 
from DEA legal authorities to physicians and vice versa. If 
criminals are diverting opioids from physicians and these 
substances illicitly, physicians should not fear prosecution; 
rather, they should work with the DEA to inhibit this behavior.
    It is important that the actions that are made don't 
restrike a current fear with physicians, but rather maintain 
access to care for patients who need them while we inhibit the 
diversion that we heard about today. I for one would be happy 
to contribute to any strategy that ensures continuation of 
access of care for patients while we incorporate ways to 
prevent diversion and abuse that we learned about.
    Thank you very much for your attention.
    Mr. Wolf. Thank you very much.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Wolf. I agree with all three of the statements, and I 
think whatever policy does come up, we will really need the 
medical profession to be involved with it, maybe even taking 
the lead.
    Unfortunately, we live in a society where there are bad 
people. There is the fundamental problem of greed. There are 
bad politicians. There are bad people of every category. 
Overall, most are good. The same way in the medical profession, 
the same way in the military, the same way in the ministry, the 
same way in everything.
    It seems to me that I don't think anybody would disagree 
with what you said. The more, though, the profession or the 
company or whoever is silent on the abuses like Hazard, 
Kentucky, the greater likelihood that there will be some action 
taken by a well-meaning but ill-informed Congress perhaps, that 
will do precisely what you want to say. So it is important that 
the profession police itself. It is important that the 
pharmaceutical companies police themselves.
    My sense is that the company could have done a better job 
earlier and still could do even more. Nobody would hold anyone 
to an absolutely perfect standard, because we all have 
different views of what we are seeing at the different times; 
but to just move ahead and do everything you possibly can, I 
think would eliminate the potential problem that I could see 
happen.
    I think there could be an overreaction. If there were a 
Hazard, Kentucky--if Harrisburg became Hazard, Kentucky, if the 
Main Line of Philadelphia became a Hazard, Kentucky, if Fairfax 
County which I represent became a Hazard, Kentucky, if it were 
to spread all over, you would probably see an overreaction on 
the part of the Congress to try to get a handle, because good 
people want to solve problems. So I don't think we can ignore 
it.
    Stories in the New York Times I think cause public policy 
people to kind of try to deal with the issue. But I can assure 
you if the committee does anything, your views will be at the 
forefront, because at the outset we don't want to do anything 
rash; but even you would acknowledge that there must have been 
a doctor in Hazard, there must have been a doctor in Lee County 
that didn't have the same standards that 99.9 of the doctors 
have. We have had bad apples up here in Congress; you just go 
look at the history of them. And you have bad apples in every 
profession there is.
    I appreciate your testimony. If there is one thing that you 
think the Congress could do that would guarantee that what your 
concerns are don't take place, what could we do? I mean, 
obviously we could fund more this and more that, but next year 
we are going to actually go from a surplus to a deficit. I 
don't think there will be a lot more money with regard to pain 
research--we have in this Congress for the last 6 years--we 
have heavily increased research for cancer. We have heavily 
increased money for diabetes, we have heavily increased the 
funding for Alzheimer's. I mean, medical research--really, I 
give a lot of the credit to former Speaker Newt Gingrich who 
spoke out very eloquently and drove the Congress on both sides 
of the aisle on that issue with regard to research, and 
probably never got the credit for it that he should have.
    But I don't know that the levels will increase--I mean, you 
say more for pain. I don't know. We should try to. But what 
within the realm of what we could do up here with regard to 
enforcement, or with regard to the other side of the coin, what 
could we do here that would be responsible, that wouldn't 
create the problem that you are concerned with? Are there any 
thoughts that you think we could do--the prescription 
monitoring program? I know many doctors may not like that. 
Pharmacists may not like that.
    Would it be a good idea to do what the company said, to 
have a national prescription monitoring program for a Schedule 
II or III? This committee has funded a grant program for States 
to have a prescription monitoring program. Should we increase 
that maybe when it is regional, for instance, Pennsylvania, 
West Virginia, Maryland, Ohio and Virginia and Kentucky, so 
their region would be covered, or maybe New England, Maine, 
Vermont, New Hampshire, Massachusetts and Rhode Island? What 
should we be doing here that we practically could do that would 
make a difference, whereby these cases of Hazard's don't come 
along and therefore you don't get an overreaction by the 
Congress or by the DEA to, quite frankly, crack down, which 
ends up with somebody who should be getting the pain medicine 
not getting it? What are your thoughts? We can go one, two, 
three, if you have any----
    Dr. Simmonds. Well, on the monitoring program, this is old 
news that hasn't been brought up here today. They call it the 
triplicates. I have never practiced that way since I am in 
Pennsylvania, but in my neighboring State in New York, and 
there were special prescription blanks. Not only did you have 
to have a DEA number but then you had to have a special 
prescription, and I could get you the quotes, but this has been 
studied. When those programs get instituted, what happens is 
the physicians, it is too much hassle. It brings up too many 
issues. It is a hassle factor. There is extra money perhaps in 
buying those prescriptions, getting the license, but also the 
stigma of this is different, and if the prescription is 
incorrect and the patient goes to the pharmacy and they are in 
pain to begin with and it is Mary A. Simmonds instead of Mary 
W. Simmonds, they have to go back to the health care facility 
and get a whole new prescription and on and on, and the bottom 
line is that what happens is the appropriate opioids, because 
this is for Schedule II, just don't get prescribed. And just 
take Tylenol. Well, that leaves a patient undertreated, and 
that is not appropriate.
    So if there is to be some kind of monitoring system--and I 
think there possibly could be--that would be done right and 
actually be constructive. I heard an idea today--just as you 
said that, it came to my mind. I need to know--in fact, just 
yesterday one of my--another patient of mine supposedly lost a 
few OxyContin tablets. And I need to know if she has gone to 
other doctors and, you know, what is happening as a responsible 
physician. And that would be something constructive that I as a 
physician would view constructively. So that is just one 
thought.
    Mr. Wolf. Well, that is a good point. I was out in my 
district in the Shenandoah Valley a week and a half ago, and 
they were talking about the drug problem there is 
methamphetamine and OxyContin in the northern part of the 
valley, but they put up on the screen one case of one person 
who was shopping around and the involved doctors' names. And 
the law enforcement people said most of these doctors are 
honest, good doctors who have lived here forever, and they 
didn't know that they were prescribing something that somebody 
in a town 15 miles away was prescribing. And they made the 
comment that somehow the doctors ought to be able to call up 
and find out if they are suspicious. Has this person been some 
other place?
    In essence, you are saying almost the same thing as the law 
enforcement.
    Dr. Simmonds. Let me add to that, though, because this is 
something in our State government--I can't quote you where it 
comes from. But every once in a while in managed care I will 
get this printout of a patient of mine and all the different 
either opioids or--all the different medicines, and so it could 
include a variety of medications and so on. And it looks 
suspicious, which is why I might--and any other physician might 
get that. And to this day, 100 percent of them have been 
inappropriate. I know all the medications the patient is 
getting. They are getting them for the right reason, and it has 
been a piece of junk. I throw it right in the trash can. So it 
has to be a monitoring system that really works, that is 
accurate, and that is not easy to do, perhaps.
    Mr. Wolf. Do you think more at the state level than at the 
federal level?
    Dr. Simmonds. Well, I understand the point about people 
going across the border. So that is, I suppose, for people who 
understand how drugs are regulated, and if it is a state one, 
then there maybe is a cross-fertilization. I think there are 
two levels, sure.
    Dr. Ashburn. Two suggestions. First of all, I would agree 
that a monitoring program can be developed and implemented in a 
way that strikes a balance between physicians and other health 
care providers concerned for undue oversight and the potential 
that that might have on us not writing medications, as well as 
its usefulness as a law enforcement tool and a monitoring tool.
    The State of Utah has a reporting database, a controlled 
substances reporting database, where all controlled substances, 
all scheduled substances are reported into the database. 
Physicians and other health care providers can access that 
database, and I use it as a routine part of my monitoring 
practice for all of my patients who receive opioid analgesics 
from the pain management centers, either Primary Children's or 
University of Utah. I find that program to be immensely helpful 
in identifying patients who are receiving opioids from multiple 
different sources.
    Mr. Wolf. So you can find out--in Utah you can go online 
and find out this patient----
    Dr. Ashburn. Yes, sir. Yes, sir. The program in the past 
has been underfunded, and as a result the reports were several 
months behind, which makes it unuseful as far as a clinical 
management tool in realtime. Of late, the State of Utah has 
funded it at an adequate level where the data in the database 
are within 30 days of being realtime, and that is sufficient 
enough to allow us to obtain realtime data on patients and be 
able to monitor their use of opioids.
    Mr. Wolf. Do you know how much that costs?
    Dr. Ashburn. I do not.
    Mr. Wolf. Is OxyContin a problem in----
    Dr. Ashburn. OxyContin is less of a problem than some of 
the areas that we have seen from the other speakers, but I 
think it is important to note, and we have seen throughout the 
evening that--or throughout the day, that while--it is getting 
close to evening--but while this presentation in this hearing 
is on the particular drug, OxyContin, opioid addiction and 
substance abuse permeates our society, and even if OxyContin 
were pulled off the market tomorrow, another drug would fill 
its place. And the same concerns would be on my mind as a 
clinician who uses opioids for the treatment of chronic pain. I 
still need to monitor my patients. I still need to strike a 
balance between providing them passionate care, access to 
opioids and a participant, as you suggested earlier, in the 
monitoring process to identify those individuals who have a 
primary substance abuse disorder, not so they can be punished 
but so that they can be referred to adequate substance abuse 
treatment programs, because they have a different disease which 
won't be helped by me continuing to prescribe them medications.
    Mr. Wolf. Now, is that--what you have in Utah, is that 
available to--I don't know what you call your DEA, but is that 
available to your law enforcement?
    Dr. Ashburn. To my knowledge, law enforcement officers can 
access the database under certain guidelines with regard to 
having--having appropriate concern to be able to check on a 
particular physician or a particular patient.
    Mr. Wolf. Like a court order or something they can get?
    Dr. Ashburn. As far as I understand, there is a due process 
that they have to go through. So the concerns of the physician 
community when this law was passed at the State was the concern 
of data drudging, where they would--where the database would be 
accessible to looking for data without cause.
    Mr. Wolf. You don't want to do that. You don't want to have 
it just so anybody could get on. You would want to have some 
protocols.
    Dr. Ashburn. That is correct. The other issue is the issue 
of confidentiality with regard to real patient data that is in 
this database by those individuals' names.
    The second issue is I do believe it needs to be at the 
state level. The practice of medicine is generally managed by 
state medical boards. As a result, I think this database should 
be linked with the state medical board or at the state level. 
That does not mean the Federal Government has no role. In fact, 
the $2 million that was appropriated to assist States in 
developing a database was an important effort. We also have 
problems, even in a rural State such as Utah, where patients do 
cross borders, and having databases available in other 
neighboring States for physicians that practice in Utah is an 
important part of our monitoring practice.
    Mr. Wolf. Well, we were thinking that we could have some 
sort of 50/50 match, and then maybe 100 percent for States to 
hook up with other States. I am not sure what that would cost. 
I am sure it is not a major cost. But therefore, if you wanted 
a State program and you didn't have one, you would have to 
match 50/50. Then after that if you wanted to be a part of the 
cooperative arrangement in order for you to participate, 
perhaps there could be a 100 percent share by the Federal 
Government. That way Utah could be together with Colorado and 
the surrounding States.
    Dr. Ashburn. The other issue I wanted to bring up very 
briefly is the focus on opioids and the connection with pain, 
in that one of the issues that we have seen in managed care or 
in the practice of medicine that is affected by the cost 
constraints within the health care system is a focus on the 
medical management of pain, of which opioids are an important 
part. Opioids do play a very important role in the treatment of 
patients who have complex pain problems, but there are other 
modalities, and there are increasing barriers to access to 
those treatment modalities.
    For instance, there is a 50/50 co-pay, 50 percent co-pay 
for psychological services for Medicare beneficiaries. That 
presents a significant barrier to cognitive behavioral therapy 
for individuals who have complex pain problems. There is 
increased barriers on access to activating physical therapy 
through the Medicare and the Medicaid system, and in fact the 
Medicaid regulations at the federal level have specific 
language which could preclude payment for the diagnosis and 
treatment of chronic pain. And so there are several barriers, 
both in our--the Federal Government system and in private 
health insurers which may tend to focus primary care--these 
patients to primary care physicians and away from the 
specialist and also focus towards medical management as opposed 
to interdisciplinary care, which has been clearly shown to have 
improved benefit.
    And another alternative, or something else that this 
committee might consider is asking MediPAC or GAO to study 
those barriers and identify whether or not changes in payment 
policies are necessary in order to improve the care of those 
individuals.
    Mr. Wolf. Well, we can do that. We will put that in the 
request when we do the----
    Dr. Ashburn. Thank you.
    Mr. Wolf. Mr. Staats.
    Dr. Staats. Do we have one thing that you could do? I don't 
think there is one thing. Of course there are limits on the 
expenses that we can put into this important topic. On the 
other hand, can we afford not to invest in the care of patients 
with chronic pain? We have heard today that estimates are close 
to $100 million for pain. Think about also all the patients who 
are out there with co-morbid addiction problems who are in 
jail. We can come up with a comprehensive program for this that 
would potentially save money for society as a whole. This 
program could come under the confines of the decade of pain 
control and research that has already been enacted by Congress. 
Correct? Being this decade. This would have to include 
different aspects. It would have to include access to care for 
patients, include the issues that Dr. Ashburn just talked about 
actually funding this. Investment in research for nonaddictive 
over nonabusable drugs would be a very valuable tool.
    I am making an impassioned plea for maintaining opioids, 
because it is the best thing that we have today. I would love 
to find something better that doesn't have an abuse potential, 
and I think we can do that. We are smart in America. We can 
find those therapies if we invest in it and avoid some of the 
problems that are out there today.
    We can build rapport with physicians with a physician 
monitoring program. I think that if we were to simply enact a 
physician monitoring program there would be a backlash from 
physicians, but if there is a sense that the DEA and the 
Congress and working together to help have access to care for 
patients while we are trying to avoid the diversion, I think 
that many physicians would buy something like that.
    We need to continue our education on the problems of abuse. 
Many physicians, as you indicated, don't know about what is 
going on, and we need to continue to hammer home this is the 
appropriate management of pain and this is the appropriate 
treatment of addiction and maintaining the sense of balance. 
And I learned today again about maintaining treatment programs 
for addiction. I think that is an important medical and 
psychiatric disease that needs treatment, and whatever we do 
should be a comprehensive program that maybe we will actually 
save money for a society.
    Mr. Wolf. Well, we do need more treatment, and we--I don't 
know what you would tell a family in one of these areas. And it 
does seem that this has hit more rural areas, for some reason. 
And I have been reading articles that perhaps it is because 
there is more physical labor and agriculture and mining and 
different things. But, you know, for Reverend Coots and some of 
the others in those areas, the income level for a doctor is not 
very high in those regions. This is very difficult to--so that 
was my comment where I mention, if you are a movie star, you 
can go to the Betty Ford place, but if you are not, just the 
average person cannot afford treatment. Also, there are limits 
on the number of health insurance policies that provide 
coverage--30 days and you are out. And 30 days may be okay for 
one thing, but obviously for OxyContin and others it is 
certainly not enough.
    Well, I appreciate your testimony. Your full statements 
will appear in the record. We will add that to the GAO, and if 
you want to put one or two other things in there, you can even 
add that in. You can separate them out or add to, but we will 
ask the GAO to look at those things.
    We are at the end of this session. I am not sure what this 
Congress--the Congress traditionally has been home at this 
time. We are here this week, and some people are saying we may 
be here through the end of next week, but obviously this will 
be a subject as we begin here again in January and February 
next.
    But, again, thank you very much, and I hope you have a safe 
trip home. The hearing is adjourned.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                           W I T N E S S E S

                              ----------                              
                                                                   Page
Ashburn, Dr. Michael.............................................   269
Coots, Donnie....................................................    87
Goldenheim, Dr. Paul.............................................   111
Hall, Capt. Rick.................................................    43
Hudson, Lt. Steven...............................................    43
Hutchinson, Asa..................................................     1
Maggard, Rod.....................................................    43
McElyea, Prosecutor Tammy........................................    43
Simmonds, Dr. Mary...............................................   269
Staats, Dr. Peter................................................   269
Sullivan, Dr. Rolly..............................................    87

                                <greek-d>

</pre></body></html>
